<html>
<title> - GLOBAL CLIMATE CHANGE</title>
<body><pre>[Senate Hearing 107-228]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-228

                         GLOBAL CLIMATE CHANGE

=======================================================================

                                HEARING

                               before the

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                      MAY 29, 2001--FAIRBANKS, AK

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-969                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
                Terry Sauvain,  Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Chairman Ted Stevens........................     1
Statement of Syun Akasofu, Director, International Arctic 
  Research Center, University of Alaska, Fairbanks, AK...........     3
Statement of Orson P. Smith, PE, Ph.D., Associate Professor, 
  School of Engineering, University of Alaska, Anchorage, AK.....     4
Statement of Caleb Pungowiyi, President, Robert Aqqaluk Newlin 
  Sr. Memorial Trust.............................................     7
Statement of Norbert Untersteiner, University of Washington and 
  University of Alaska...........................................    10
Statement of John E. Walsh, University of Illinois, Urbana, IL...    13
Statement of Glen M. MacDonald, Professor and Vice Chair of 
  Geography, University of California, Los Angeles...............    16
    Prepared statement...........................................    18
The importance of paleoclimatic research for understanding future 
  Arctic climate change..........................................    18
Natural variability in climate and evidence of recent Arctic 
  warming........................................................    19
Research priorities on Arctic paleoclimate.......................    21
Statement of Dr. Douglas G. Martinson, Lamont-Doherty Earth 
  Observatory of Columbia University, Palisades, NY..............    22
    Prepared statement...........................................    30
Polar climate primer.............................................    30
Arctic change....................................................    31
Arctic change research...........................................    31
Observational needs..............................................    32
Future projections of climate change in the Arctic (the ``dec-
  cen'' problem).................................................    33
Statement of Hon. George B. Newton, Jr., Chair, U.S. Arctic 
  Research Commission............................................    34
    Prepared statement...........................................    38
Climate change impacts in the Arctic.............................    38
Recommended research programs....................................    39
Research facility requirements...................................    42
Statement of Dr. Margaret Leinen, Chair, Subcommittee on Global 
  Change, Assistant Director for Geosciences, National Science 
  Foundation.....................................................    47
    Prepared statement...........................................    51
Global change and the context for Alaska.........................    51
Climate change vulnerabilities and potential impacts in Alaska...    53
The budget for fiscal year 2002..................................    55
Organization of the U.S. Global Change Research Program..........    55
New directions for the USGCRP....................................    57
Climate modeling.................................................    58
Long-term climate observations...................................    59
Statement of Daniel S. Goldin, Administrator, National 
  Aeronautics and Space Administration...........................    60
    Prepared statement...........................................    64
Science and signs of climate change..............................    65
What we know and need to know about climate change...............    66
Climate assessments and alternate scenarios for action...........    68
How we are moving to answer the essential questions..............    69
Statement of Dr. Rita Colwell, Director, National Science 
  Foundation.....................................................    73
Arctic Conservation Erosion of Barrow, Alaska....................    73
Prepared statement of Dr. Rita Colwell...........................    76
Statement of Scott B. Gudes, Deputy Under Secretary for Oceans 
  and Atmosphere, National Oceanic and Atmospheric 
  Administration, Department of Commerce.........................    80
    Prepared statement...........................................    85
Observed Arctic changes and their relationship to NOAA'S mission 
  and expertise..................................................    85
NOAA activities in the Arctic....................................    86
Remaining knowledge, information and data gaps...................    89
Temperature and precipitation....................................    90
Atmospheric constituents.........................................    90
Cryospheric indicators, e.g., snow cover and sea-ice extent and 
  thickness, permafrost, lake- and river-ice.....................    91
Ocean temperature, salinity, and circulation.....................    91
Clouds and water vapor...........................................    92
Sea level........................................................    92
Paleoclimatic data...............................................    92
Weather and climate extreme events...............................    93
Climate normals..................................................    93
Data and information access......................................    94
Future NOAA activities in the Arctic.............................    94
Statement of Charles C. Groat, Director, U.S. Geological Survey, 
  Department of the Interior.....................................    95
    Prepared statement...........................................    99
Impacts of climate change on Alaska..............................   100
Natural resources at risk and research priorities for USGS.......   101
Prepared statement of Dr. Elizabeth C. Weatherhead, University of 
  Colorado at Boulder............................................   110
Ultraviolet radiation in the Arctic..............................   110
Ozone in the Arctic..............................................   111
UV levels in the Arctic..........................................   111
UV effects--overview.............................................   111
UV effects--humans...............................................   111
UV effects--species..............................................   112
UV effects--ecosystems...........................................   112
UV effects--combined effects.....................................   112
  

 
                         GLOBAL CLIMATE CHANGE

                              ----------                              


                         TUESDAY, MAY 29, 2001

                                       U.S. Senate,
                               Committee on Appropriations,
                                                     Fairbanks, AK.
    The committee met at 9:30 a.m., in Fairbanks, AK, Hon. Ted 
Stevens (chairman) presiding.
    Present: Senators Stevens.


               OPENING STATEMENT OF CHAIRMAN TED STEVENS


    Chairman Stevens. Let me thank you all for being here and I 
don't apologize because change in Washington is welcome in many 
ways. This one may not be so welcome. But we have lost the 
other members of the Senate who would have been with me today 
because of the delay and the cancellation of portions of our 
trip. So I do appreciate the fact that the rest of you have 
agreed to appear here today for this hearing which I consider 
to be very important for the future of our country and, 
particularly, for Alaska. We're meeting to review the 
scientific research on global climate change issues related to 
the Arctic Region. I'm pleased to be able to hold this hearing 
here in Fairbanks on the campus of our University to discuss 
this important subject and I thank our hosts for helping us put 
the hearing together. As a matter of fact this will be the last 
hearing I conduct as Chairman of the Appropriations Committee 
as, when we return to Washington, the control of the Senate 
will change, as you all know. Before all of this change came 
about I chose the University as the site for this hearing 
because of the important scientific research that's being 
conducted here on climate change. And I want to point out the 
work being conducted under the leadership of Dr. Syun Akasofu 
at the International Arctic Research Center. IARC has become 
one of the leading institutes of research on Arctic climate 
change issues and currently performs a number of important 
scientific studies for our Federal Government.
    Today, we have assembled a very distinguished group of 
scientists and government officials to present to us facts and 
predictions on the Arctic climate change issue and the impact 
it is having on the Arctic Region. I'm really sad my colleagues 
are not here to be able to hear what climate change 
observations the scientists are seeing in the Arctic Region, 
particularly here in our State, and what the potential causes 
of these changes may be and how it is affecting the lives of 
people in our region and the environment of our State and 
Nation. Further, we need to learn about the future projections 
of climate change in the Arctic Region.
    The first two panels, which comprise the morning session, 
will be distinguished scientists who are on the cutting edge of 
climate change research. After we hear from these scientists, 
we will hear in the afternoon from the main Federal research 
agencies involved in climate change research. The Federal 
Government plays a vital role in supporting climate change 
research. The U.S. Global Climate Change Research Program, 
which is made up of several Federal agencies, is coordinating 
the Federal Government's efforts to improve our scientific 
understanding of changes in climate and how it affects our 
economy and our lives. We'll hear from representatives of this 
interagency group this afternoon.
    I recognize that there's been a lot of attention recently 
to the President's approach on climate change policy but I want 
to emphasize that we're here today to gather facts related to 
climate change and to discuss the underlying scientific 
research being conducted. It's important for us to understand 
what we know, what we do not know and what we need to know in 
order for us to have a reasonable level of confidence in what 
will really occur in our environment.
    I'm especially interested in establishing a record of what 
is happening in the arctic region of our State. Much of what is 
happening here will have a significant impact on the Nation, in 
my opinion, as well as the world, perhaps. In particular, we 
need to develop practical responses to address the impact of 
climate change. For example, some parts of Alaska, Native 
villages along the coastline are losing land because of the 
increased inundation of the sea, the encroachment of the ocean 
on the small villages. This is a slow-moving disaster that may 
require more than a slow-moving response as far as the Federal 
and State governments are concerned.
    Our first panel includes Dr. Akasofu and Orson Smith of the 
University of Alaska; Caleb Pungowiyi, an Alaskan Native who 
has observed the impact of climate change along the coastline 
of Alaska; Norbert Untersteiner of the University of 
Washington; and John Walsh of the University of Illinois. We'll 
then have a second panel of scientists and climate change 
experts. The second panel includes Glen MacDonald from UCLA, 
Douglas Martinson representing the National Academy of 
Scientists and a professor at Columbia University, and George 
Newton of the Arctic Research Commission who is accompanied by 
Gary Brass.
    In the afternoon, we'll hear from the key agency 
representatives involved in climate change research. We have 
Margaret Leinen of the U.S. Global Climate Research Program; 
Dan Goldin, the Administrator of the National Aeronautics and 
Space Administration; Rita Colwell, the Director of the 
National Science Foundation; Scott Gudes, the Acting 
Administrator of the National Oceanic and Atmospheric 
Administration who is joined by Tom Karl, Director of the NOAA 
National Climate Data Center, and John Calder, Director of the 
Arctic Research Office of NOAA. We also have Charles Groat, 
Director of the U.S. Geological Survey.
    And I'm really pleased to have all of you here and I thank 
you very much for your courtesy in coming and we'll proceed 
with the first witness. The first panel is Dr. Akasofu, Orson 
Smith, Caleb, Norbert Untersteiner and John Walsh. If you 
gentlemen would come forward, please.
    I want to say, for the audience, that we will terminate 
just before noon and Dan Goldin is the speaker at the Chamber 
of Commerce this noon and we'll resume at 2 o'clock for the 
afternoon session.
    Dr. Akasofu, we'll call on you first, please.

STATEMENT OF SYUN AKASOFU, DIRECTOR, INTERNATIONAL 
            ARCTIC RESEARCH CENTER, UNIVERSITY OF 
            ALASKA, FAIRBANKS, AK

    Dr. Akasofu. My name is Syun Akasofu. I'm the Director of 
the International Arctic Research Center, IARC, of the 
University of Alaska. I'd like to make an introductory remark 
on Panel I of the morning session. I would like to thank 
Chairman Stevens for having this particular hearing on global 
climate change in the Arctic.
    Now, there is no longer any doubt that climate has changed 
substantially in the Arctic over the last few decades. The 
effects of the climate change can be clearly recognized: (a) 
Warming of the atmosphere, particularly in the continental 
area, is several times faster than the global average. (b) The 
second is the receding glaciers. Practically all the glaciers--
most of the glaciers in Alaska, Canada, Greenland are receding 
with 30, 40 meters per year. (c) Next one we see is the warming 
of permafrost down to 100 feet, 30 meters; and (d) Shrinking of 
Arctic Ocean sea ice coverage and the thickness, too.
    Further, without exception, all computer simulations 
indicate that the Arctic is a region most sensitive to climate 
change on Earth. There is no exception. All the computer models 
show that, when you double the CO<INF>2</INF> amount, the 
Arctic will be most warmed by this effect.
    Next slide, please. There are many simulation results. So 
at this point, our understanding of climate change is well-
represented in a recent paper entitled ``Observational Evidence 
of Recent Change in the Northern High-Latitude Environment'' by 
distinguished Arctic researchers.
    Next. From the other (indiscernible) in part, state.

    Taken together, these results paint a reasonable picture of 
change . . .``--and so on--''. . .  but their interpretation as 
a signal of enhanced greenhouse warming is open to debate. 
Nevertheless, the general pattern of change broadly agree with 
the model predictions.

    And Dr. Norbert Untersteiner will discuss this issue in 
more detail in the morning session.
    Therefore, in this particular situation, we have four 
fundamental climate change questions: (1) Are we seeing climate 
changes due to greenhouse effect as predicted by global climate 
models? (2) Are the changes in climate due to natural or 
manmade causes? And so on.
    A large number of individual research projects on these 
issues have been conducted by researchers all over the world. 
However, it is quite obvious, first of all, that it is not 
possible to work on these four questions without a close 
international cooperation/ coordination. Second, what we need 
now is an integration/ synthesis effort based on results from 
the individual research projects. This is because the immediate 
causes of the permafrost warming, receding glaciers and 
shrinking of sea ice coverage could be quite different.
    Okay. Go back.
    In this situation the IARC has considered carefully the 
roles it can play by considering ``What are the most crucial 
integration/synthesis projects the IARC can coordinate and 
facilitate on an international scale?'' Under this 
consideration, the first project we have taken up is the Arctic 
Climate Impact Assessment. It is an Arctic version of the IPCC 
report.
    The second project is a cross-calibration of computer 
models that were used for the IPCC report. This is the only 
quantitative tool we can use to predict the future changes so 
it's very important to make this tool better. Dr. John Walsh 
will describe this project in the morning session.
    In Alaska, we are experiencing several significant changes 
in both marine and terrestrial ecosystems and an increase in 
coastline erosion during the last few decades, although the 
direct relation of these changes to global warming is not 
certain. Dr. Orson Smith and Mr. Caleb Pungowiyi will report on 
those changes.
    Thank you.
    Chairman Stevens. Thank you very much. For the information 
of all the witnesses, this is being immediately put on to the 
web. It goes out to the internet live. Our next witness is 
Orson Smith.

STATEMENT OF ORSON P. SMITH, PE, PH. D., ASSOCIATE 
            PROFESSOR, SCHOOL OF ENGINEERING, 
            UNIVERSITY OF ALASKA, ANCHORAGE, AK

    Dr. Smith. Senator Stevens
    Chairman Stevens. Could you pull that mike in towards you a 
little bit, please?
    Dr. Smith. Sure. Thank you. Senator, fellow panelists and 
guests. My name is Orson Smith. I'm Chair of the Arctic 
Engineering Program for the School of Engineering at the 
University of Alaska Anchorage.
    Chairman Stevens. And I left out, Mr. Smith, we will put 
into the record the complete statements that each of you have 
filed and, also, your presentation you've made as to your 
biography so those who read the record will understand it. But 
we'll also go out on the web.
    Dr. Smith. My testimony today follows a series of workshops 
and meetings in the last year-and-a-half on the subject of 
climate change impacts. These productive meetings involved 
discussions between research scientists and practicing 
engineers about the tangible impacts of global warming on 
Alaska's people and its economy. I will first mention consensus 
views related to coastal resources and finish with remarks 
about infrastructure across the State.
    Conditions of Alaska's coastal oceans are changing with 
global warming. Thinner, less extensive sea ice will generally 
improve navigation conditions along most northern shipping 
routes, such as the Northwest Passage offshore of Canada's 
Arctic coast and the Northern Sea Route offshore of Russia. The 
GIS-based Alaska Sea Ice Atlas, now in preparation by the 
University of Alaska and the U.S. Army Cold Regions Research 
and Engineering Laboratory, reveals these trends.
    More open water allows wave generation by winds over longer 
fetches and durations. Wave energy is constrained by wind 
speed, duration of winds, fetch, or the distance over water 
which the wind blows, and water depth. Wave-induced coastal 
erosion is expected to increase with global warming.
    One measured effect of global warming is sea level rise, 
due to melting glaciers and thermodynamic expansion of ocean 
water. Rising sea level inundates marshes and coastal plains, 
accelerates beach erosion, exacerbates coastal flooding and 
forces salinity into bays, rivers and groundwater.
    Some northern regions, including areas of Southeast and 
Southcentral Alaska, have sea level trends complicated by 
tectonic rebound of landforms from the retreat of continental 
glaciers. At Sitka, in Southeast Alaska, the net effect is 
falling sea level.
    Coastal areas of Alaska have a wide variation of tectonic 
trends, however. The Aleutian Chain has volcanic geology not 
subject to glacial rebound. The net trend at Adak is for sea 
level rise, as it also appears along Alaska's western and 
northern coasts.
    Global sea level rise will allow more wave energy to reach 
the coast and induce erosion as waves break at the shore. 
Higher sea levels at the mouths of rivers and estuaries will 
allow salt to travel further inland, changing water quality and 
habitats. Global warming is predicted to involve more frequent 
and more intense atmospheric storms with stronger winds. These 
winds will induce even higher water levels at the coasts, 
accompanied by higher waves.
    Permafrost coasts are especially vulnerable to erosive 
processes as ice beneath the seabed and shoreline melts from 
contact with warmer air and water. Thaw subsidence at the shore 
allows even more wave energy to reach these unconsolidated, 
erodible materials. Alaska's permafrost coasts along the 
Beaufort and Chukchi Seas are most vulnerable to thaw 
subsidence and subsequent wave-induced erosion.
    Coastal erosion problems around the State are an 
extraordinary challenge to communities such as Barrow, 
Wainwright, Kivalina and Shishmaref. More communities on coasts 
and riverbanks will be in jeopardy from higher water levels. 
Changing depths offshore will also change coastal vulnerability 
to tsunamis.
    Contingency planning should begin now. Coastal survey data 
is often inadequate to reliably judge changes. A baseline 
survey of coastal characteristics and associated coastal 
processes would help assessment of erosion rates and for 
planning future responses.
    The Arctic Coastal Dynamics Program is a recent 
international initiative to address coastal change in the 
Arctic. The program plan, developed by specialists of the 
International Arctic Science Commission and the International 
Permafrost Association, involves systematic cataloging of 
coastal characteristics and establishment of a cooperative 
network of coastal monitoring stations. Uniform coastal 
classification and improved predictive models are also 
proposed. The program includes many opportunities for 
participation by coastal residents. The Arctic Coastal Dynamics 
Program needs government sponsorship and funding for 
implementation.
    Lesser ice extent and thickness will provide an opportunity 
for export of natural resources and other waterborne commerce 
over new northern shipping routes. Marine transportation 
remains critical to Alaska's economy so early attention to 
these opportunities will save time and money getting valuable 
products to market. Ice-capable commercial cargo vessels suited 
for Alaska service have not yet been developed, though ice-
class commercial ships of all types are in service elsewhere 
around the Arctic.
    Global warming is also changing Alaska's rivers as 
transportation routes, water sources and habitants. Predicted 
increased precipitation will induce higher stream flows and 
more flooding. Erosion of thawing permafrost banks will 
accelerate, threatening hard-won infrastructure of rural Alaska 
river communities such as Bethel and Noatak. River ice breakup 
will occur earlier and be more difficult to predict in terms of 
ice jam flooding. Prediction and prevention of ice jam flooding 
in Alaska warrants further study.
    Conditions for commercial river navigation may improve for 
transport of minerals and bulk exports to tidewater. Since no 
State or Federal agency is presently responsible for either 
charting or marking river channels, this prospect will be 
difficult to measure. A program to survey river navigation 
routes would provide a baseline from which to monitor change 
and evaluate improvements for waterborne commerce.
    A warming climate inland will affect infrastructure of all 
types as ground and hydrological conditions are changed. 
Engineers have a toolkit of proven means to deal with these 
changes but often lack adequate site information for optimum 
site or transportation route selection.
    Global warming will bring more erratic winter weather, 
increasing the frequency of freeze/thaw cycles across the 
State. Roads and railways will suffer attendant problems and 
maintenance costs are likely to increase as a result. 
Improvement of bridges and culverts may prove to be a 
particularly expensive impact of global warming on northern 
transportation infrastructure.
    Thawing permafrost and freeze/thaw cycle changes in the 
active layer of soils across Alaska will bring potential 
adverse impacts to existing foundations of all types. New 
foundations may be designed accordingly if site conditions are 
known and predictions are accurate. Hydrological changes in 
streams and ground water will bring both problems and 
opportunities for water supply. Safe waste disposal in low-
lying tundra areas will generally become more difficult and 
expensive.
    Climate change began some time ago and problems of warming 
permafrost and other environmental changes have occurred 
throughout the careers of cold regions engineers in practice 
today. The fears for northern infrastructure relate to lack of 
site information and reliable prediction of future change.
    Storage and accessibility of engineering site data is 
improving but more old data can be saved and new data must be 
measured. The World Wide Web provides means for quick access to 
21st century GIS-based atlases of linked environmental 
databases, complete with common engineering applications. One 
such effort is the Engineering Atlas of Alaska, in its first 
stage of development at the U.S. Army Cold Regions Research and 
Engineering Laboratory in cooperation with the University of 
Alaska.
    Monitoring is difficult to fund and instituting a ``1 
percent for monitoring'' public works policy can follow the 
lead of arts advocates.
    This concludes my testimony. I appreciate this opportunity 
to speak today.
    Chairman Stevens. Thank you very much, Dr. Smith. Our next 
witness is Caleb Pungowiyi. He is a member of the Robert Newlin 
Senior Memorial Trust. Caleb, nice to see you here.

STATEMENT OF CALEB PUNGOWIYI, PRESIDENT, ROBERT AQQALUK 
            NEWLIN SR. MEMORIAL TRUST

    Mr. Pungowiyi. Thank you, Senator. Honorable Chairman, 
Members of the Committee and distinguished visitors and guests, 
I am honored and humbled to be included among the distinguished 
scientists and learned men that were invited to testify on the 
effects of the current warming trend. In my testimony I will 
not present any scientific proofs or any silver bullets that 
puts the finger on the cause of the warming. I will tell you 
that there are effects and changes that are occurring that are 
undeniable and, rather than some vague possibility, is already 
affecting and changing people's lives.
    My name's Caleb Pungowiyi. I am currently the President of 
Robert Aqqaluk Newlin Senior Memorial Trust, the non-profit 
foundation established by NANA Regional Corporation. My 
testimony today does not represent nor speak on their behalf or 
that of the NANA Regional Corporation.
    First of all, I must say, Senator, that I am extremely 
delighted that the U.S. Congress is concerned enough to hold 
hearings such as this. While there are uncertainties and no 
clear solutions to the risks and threats that face our 
communities, the need to assess and perhaps identify the 
actions that can be taken to minimize the impacts are necessary 
and I appreciate your concern and your presence at these 
hearings.
    A year and a half ago, we held a workshop in Girdwood on 
``Impacts of Changes in the Sea Ice and Other Environmental 
Factors in the Arctic,'' convened by the Marine Mammal 
Commission. This workshop was not only to look at the impacts 
but also to highlight the research on the impacts on the Native 
people from climate change is scarce and virtually nonexistent. 
And Senator, I purposefully elected not to present any 
overheads or show data on the slide presentation because I 
wanted to highlight the lack of information that exists 
currently or is nonexistent because there is no research 
currently being done on the effects in the coastal communities 
or the people. This workshop--or, I had hoped to bring a copy 
of that report but, unfortunately, I forgot to bring a copy 
with me but I will make sure that a copy is available to you 
and the members of your committee. We, including the U.S. 
Government, must understand that the social and economic impact 
on the local economies and subsistence practices, however 
minimal they may seem, causes enormous hardship, social chaos 
and, as you well know, will cause population disbursement. And 
it is currently causing population disbursement. I mean by 
people relocating or moving to other places that have more 
opportunities for easier living.
    It is very evident now that the sea ice in the Bering Sea 
and the Arctic Ocean is thinning. To us living on the Arctic 
coastline, sea ice is our lifeline. It supports the majority of 
the resources from which we depend upon. In fact, in 1972 the 
U.S. Congress, recognizing the dependence of Alaska Native 
people on marine mammals, exempted the Alaska Natives from the 
Marine Mammal Protection Act. Today that dependence continues 
but, if the warming trends continue, many of those resources 
are at risk. The ice-dependent marine mammals such as polar 
bear, walrus, bowhead whale, beluga and ice breeding seals that 
are--that's like the (indiscernible) seal, the ring seal, the 
spotted seal and the ribbon seal--are all dependent on the sea 
ice for their survival. We see the ice forming later and 
disappearing earlier. If it were not for the cold springs that 
we've had in the last few years, our spring marine mammal 
hunting would be a disaster. These are all long-lived species 
and [it's] hard to judge the current impact on them but we do 
know that there are impacts on the productivity of the species.
    And Senator, at this time I would like to say that, while 
the impact from the lack of sea ice is perhaps because of the 
gradual change, the impact has been fairly minimal. The long-
term trend is very scary, especially when we think about the 
immediate impact, if there are changes in their food resources, 
especially the fish and the shrimp and the other 
(indiscernible) that depend on production in the sea ice, that 
this problem from starvation and lack of a stable platform for 
them to reproduce on will have a tremendous and immediate 
impact on these species.
    I was talking to Dr. Roswell Schaeffer, the Mayor of 
Northwest Arctic Borough, the other day. Ross is an experienced 
and respected hunter and he also is a very astute observer. We 
both mentioned, as we were talking, that we had caught seals 
but that the female seals that we had caught had shown signs of 
giving birth but were not nursing. There's no milk in the 
mammary glands which means that the seal gave birth and for 
some reason the fetus must have died or aborted so that the 
seal is not nursing at the time. We both feel that this is 
because of the very late freeze up this year--Kotzebue Sound 
did not freeze until February--and they didn't have the 
opportunity to make dens and therefore aborted their fetuses. 
We also know that impacts are not just on the marine animals 
but other species such as fish and sea birds.
    Is it just the warming of the ocean temperatures that are 
causing the thinning of the ice? I don't think so. We are 
seeing some real changes in the atmosphere as well. The sky is 
not blue anymore. It is more hazy and whiter and we see lot 
more wind, winds that are strong enough to affect hunting and 
fishing in the marine waters. We see our hunters taking greater 
chances by going out in weather conditions that put their lives 
at risk. There are also economic costs as the hunters travel 
greater distances to harvest game, expending more fuel and 
time. The success rate is also being affected. There are times 
when hunters will go out and return empty handed because the 
game was not there or out of reach. These are the effects that 
have gone unnoticed by the policy makers and scientists. If we 
didn't have public assistance, Native stores and food stamps, 
many village people would be in extreme hardship, if not 
starving. We are resilient people and we adjust readily to 
change but if that change is too rapid, too disruptive, it 
causes social chaos, hardship and suffering.
    I want to also State at this point, Senator, that there is 
currently no research on the effects on the people. We are not 
doing any data gathering on what the people are expending to 
try to hunt, on harvesting game, and also the success rate or 
lack of success on how they are being impacted at this stage. I 
would like to ask that the Arctic Research Commission or others 
who are involved in Arctic research will recommend more social 
studies to study the impacts from the climate change.
    More wind causes wave action and wave action along the 
rising waters causes erosion. In the past 20 years we have lost 
much land to beach and soil erosion. Many subsistence camps 
have lost land to erosion, especially in areas like Cape 
Espenberg and Cape Krusenstern. In the decades before where the 
beaches built up--we've had scientific evidence of beach 
buildup over the years, thousand of years on some of these 
capes. We're now seeing loss of land and fairly rapidly.
    The other day you mentioned, Senator, that some of the 
communities like Shishmaref and Kivalina will have no choice 
but to relocate. While the economic costs of such relocation 
will be expensive, there are also social costs that will be 
born by the people for years to come. It is a cost that we 
cannot measure in dollars and cents. Most people take change 
too lightly and do not think that people are being affected 
directly. It is not the severe events such as the hurricane, 
the floods, the droughts and the unseasonal snowfall that are 
the major effects of climate change but small changes that will 
and are having dramatic effects. It seems that we must 
experience wholesale disaster or economic chaos before the 
policymakers will take notice. Alexander Akeya, an elderly man 
from Savoonga said to me in 1996.

    ``That is my garden out there. My life depends upon it. If 
something bad happens to it, we will suffer greatly but the 
Government will not help us because we are not farmers or 
fishermen.''

    And I think that really speaks, Senator, of how the people 
will be affected if the changes continue the way they are, 
especially in the last few years where we've seen the rate of 
ice conditions declining--or receding more rapidly.
    What would I recommend? The air that is around us and above 
us and the waters of the sea are two things that give life to 
this Earth but yet we abuse them mercilessly. I don't think we 
really, really understand how thin that life support is. One, 
we as human beings need to have greater willingness to examine 
how we are affecting the climate change and minimize the 
actions that are leading to greater climate change. Second, we 
need to document and record the economic and other effects of 
warming on the coastal residents of Western and Northern 
Alaska. Three, little is being done to observe the effects of 
the retreating sea ice on the ice-dependent marine mammals and 
the sea birds. Four, there is little known about the ice-
dependent species such as Arctic Cod, Saffron Cod and krill. 
These are the species that are major food sources for the 
millions of marine mammals and birds and yet we virtually know 
nothing about their bio-mass and their status. And, Senator, 
starvation is a much greater threat to these species than the 
thinning of the ice because it's quicker and it's more massive 
and we need to know what potential effects that--the food 
source may have on these marine mammals. Five, there are 
changes occurring on the land as well. Beavers are moving in. 
Large herds of caribou that have been increasing, like the 
Western Arctic caribou. And it's probably only a matter of time 
before we see some of these herds crashing. The treeline is 
moving west and northward. We see more insects, wetter summers 
and late, late freeze-up.
    We must take steps to truly understand the impacts that are 
occurring and will occur. As leaders, you must give us hope and 
opportunity to address the problems that will have profound and 
adverse effects on the lives of individuals and families in the 
small communities that are so dependent on the natural 
resources.
    I thank you for this opportunity. May God bless you and 
give you wisdom as you ponder what must be done to address 
these extremely difficult problems. Thank you, Senator.
    Chairman Stevens. Thank you, Caleb. Dr. Untersteiner. Thank 
you.

STATEMENT OF NORBERT UNTERSTEINER, UNIVERSITY OF 
            WASHINGTON AND UNIVERSITY OF ALASKA

    Dr. Untersteiner. Senator Stevens, ladies and gentlemen, 
thank you for the opportunity to present my testimony here. As 
we hope to confirm here there is no longer any doubt that 
significant changes are occurring in the Arctic environment 
and, especially since the last testimony, there is no need to 
enumerate the many events.
    Without suggesting that greenhouse gases alone are the only 
cause of all these changes, it still seems appropriate to note 
the extreme anomaly of our present situation. The first picture 
shows carbon dioxide, methane and air temperature during the 
past four major glacial cycles. These four peaks represent 
100,000 year cycle of the global atmosphere. These numbers were 
derived from a many-thousand-meter-deep ice core on the 
Antarctic Continent. As you can see from the top curve--that 
shows carbon dioxide loading in the atmosphere--that dot on the 
upper left is where we are now. It is about 50 percent more 
carbon dioxide in the atmosphere now than there has been in the 
last 400,000 years. Well, we're clearly in an anomalous 
situation and there is no indication that this sharp increase 
is going to stop anytime soon.
    There was a time not long ago when we had to argue that the 
Arctic is important because most of the North Atlantic deep 
water is formed east of Greenland and because the boreal 
forests are a huge carbon reserve and because some of the 
richest fisheries and marine ecosystems live in the cold 
nutrient-rich waters of the North. This is all true but, as in 
so many other fields of human endeavor, we have learned to view 
the world as one large, complex, interdependent system in which 
all regions and components are important in their mutual 
interactions and dependence. The effects of El Nino travel over 
the whole hemisphere, the dust of volcanic eruptions 
circumnavigates the Earth, and pollutants and dangerous wastes 
from human activities travel from the middle of continents to 
the middle of ocean basins. The Arctic is simply important as 
an integral part of the Earth that sustains us. It is important 
because we live here, we need its resources and we are 
responsible for its well-being. The impressive development of 
the research done here at the University of Alaska is tangible 
proof.
    The fact that our global environment, especially climate, 
are changing has created a multi-faceted controversy in which, 
according to latest polls, about half of the Nation thinks that 
the environment poses problems that are commensurate with 
health care and education. Some questions of particular 
sensitivity are these:
  --How much of the observed changes are due to the intrinsic 
        evolution of the climate system and how much is caused 
        by human activities?
  --What is the value of international treaties that try to 
        curb the emission of climatically-active agents and 
        pollutants?
  --And, third, what are proven countermeasures to climate 
        change and, if they can be identified, what do they 
        cost?
    A natural consequence of all this is an increased demand 
for predictions. The only devices we have to make predictions 
are mathematical models of the Earth system including the 
atmosphere, the ocean, the ice and, if at all possible, the 
vegetation in the biosphere. Before we can trust such models to 
yield meaningful predictions, we demand that they are able to 
reproduce with some degree of accuracy the state that we are in 
today. For the purpose of illustration, we choose one part of 
that complex entity called climate that is of particular 
interest to us, that is, the extent of the Arctic sea ice.
    Now, climate models have been developed in several 
countries and the results have been compared to a myriad of 
direct observations taken during the past two centuries or so 
and derived from measurements that allow us to deduce past 
climates. Hundreds of scientists, called the Intergovernmental 
Panel on Climate Change or IPCC, have issued two comprehensive 
reports at 5-year intervals, and the third one is about to be 
issued. For the time being, only a ``Summary for Policymakers'' 
is publicly available on the web. We cannot hope to delve into 
the content of this very extensive report but we would like to 
illustrate the use of climate models by means of one specific 
example taken from that IPCC draft.
    This figure shows the actually observed maximum and minimum 
extent of Arctic sea ice on the two bars on the left, for 
different time periods. The top of the blue bar is the maximum 
ice extent; the bottom is the minimum ice extent. Across the 
bottom are acronyms; they represent different institutions at 
which these models have been developed. And you can see that 
these predictions are pretty much all wrong and they are all 
wrong in different ways. You might say that, if we cannot 
compute current conditions correctly, how can we expect to 
model meaningful results for future scenarios in which, for 
instance, the atmosphere contains twice as much greenhouse gas 
as it does today?
    There's a curious aspect to this ensemble of results shown 
in this figure. The truth reproduced by any individual model is 
pretty bad but the average result comes much closer to the 
observed truth than any of the individual models. We know that 
simple averages are not always meaningful and it remains to be 
seen if they are in this case.
    What the experts do with this kind of information is called 
``ensemble forecasting.'' The argument goes as follows: the 
ensemble forecast is better than each individual because all 
the models employ the same fundamental physics but they all 
must take different shortcuts and simplifications and no one 
models can compute everything to unlimited resolution in space 
and time. So the differences are, to some degree, comparable to 
random errors, which implies that their average is some 
improved approximation to the truth. In other words, there is 
reason to expect that predictions generated by future climate 
models will gradually gain in content and reliability, and they 
will provide an increasingly firm basis for policy decisions.
    The basic dilemma of trying to make perfectly correct 
policy decisions on the basis of imperfect information is, of 
course, not unique to matters of the environment. Consider, for 
instance, the stock market: There are many economic models and 
formulas to predict business and the stock market. To apply the 
notion of an ``ensemble forecast'' one could be assured that 
the individual forecasts are made by comparably rational basis, 
which seems hardly to be possible when the human psyche is 
involved.
    Yet, despite our minimal ability to predict the economy, 
government and society as a whole are not afraid to take 
measures: The Federal Reserve manipulates the cost of credit, 
large investors have hedge funds and they shift their money 
from one field to the other in accordance with some 
probabilistic considerations designed to strike a balance 
between purpose and risk, and we are all saving money in the 
assumption that at some distant future the imaginary value 
printed on it will still be convertible to bread and gasoline. 
If we are not afraid of attempting to manipulate our gigantic, 
multi-trillion-dollar economy on the basis of very tenuous 
principles, why are we so timid about taking measures with 
regard to our environment?
    One can, of course, take the view that we need not worry 
about the environment. Throughout Earth's history, adaptation 
has been the operative concept: Organisms that were able to 
adapt survived and the others became extinct. It was recently 
pointed out by Richard Lindzen in testimony to the Senate's 
Environmental and Public Works Committee on the 2nd of May of 
this year--I quote--``. . . a large part of the response to a 
climate change, natural or anthropogenic, will be adaptation, 
and adaptation is best served by wealth . . .'' This is another 
way of saying that, if you are an affluent urban-dweller, you 
don't have much need to worry about it. This is true, but the 
same message may not play so well in the ears of my esteemed 
colleague here or a subsistence fisherman in Nome or, for that 
matter, a rice farmer in Cambodia.
    Until we get better understanding of why these changes are 
occurring and what will happen in the future, there are a 
number of things we can do and that are, in fact, a win/win 
approach:
    We can turn down our thermostats, down in winter and up in 
summer and we can build houses with thicker walls and we can 
install heat pumps, solar panels and wind generators and, most 
of all, we can drive smaller cars. These changes require no 
profound political, economic or philosophical reasoning. They 
are at the expense of no one and benefit everyone.
    Thank you.
    Chairman Stevens. Thank you very much, Dr. Untersteiner. 
Our next witness is John Walsh. Mr. Walsh. I noted your name at 
the top of that one statement. You were one of the authors of 
the statement that Dr. Akasofu referred to?
    Dr. Walsh. Yes.
    Chairman Stevens. Thank you.

STATEMENT OF JOHN E. WALSH, UNIVERSITY OF ILLINOIS, 
            URBANA, IL

    Dr. Walsh. I'm presently visiting at IARC. Senator Stevens, 
ladies and gentlemen, I appreciate the chance to speak to you 
today. With an eye towards the changes that we have already 
heard about, I will summarize the projections for coming 
decades from state-of-the-art global climate models.
    First figure. I will show a consensus or an ensemble 
projection based on eight models from around the world and I 
will highlight the geographical pattern of the projected 
changes, the seasonality, and perhaps most importantly the 
consistency among the models.
    Next figure shows the changes in the annual mean 
temperature projected for the late 21st century by this 
ensemble of models. The yellow color represents a warming of 
two or three degrees celsius; the orange, five or six degrees 
celsius, or nine to ten degrees fahrenheit. This warming is 
strongest over the Arctic Ocean and the northern land areas and 
it's stronger there than anywhere else in the Northern 
Hemisphere. And the warming is generally consistent with the 
observed trends that Dr. Akasofu showed earlier.
    The next figure shows that this warming is not distributed 
evenly throughout the year. In fact, it's considerable stronger 
in the autumn and winter. It's smallest in the summer.
    The next figure shows an example of the seasonal cycle of 
the warming projected for the late 21st century. It's for the 
North Slope of Alaska. January's on the left, December is on 
the right. The vertical bars represent the ranges among these 
eight models. The general pattern of a weaker warming in summer 
and a stronger warming in winter is apparent. But perhaps most 
importantly all models project the warming. So even though 
there are large ranges in the rates, all models are consistent 
in the warming.
    The next figure shows the pattern of precipitation changes 
that are projected by these same models for the late 21st 
century. The map on the left is for winter; the map on the 
right is for summer. The green and blue represent increases of 
precipitation. The amounts in the blue areas are five to six 
centimeters water equivalent, per season. The largest increases 
in the winter are projected to occur in Southeastern Alaska. In 
the summer the largest increases are projected for the northern 
land areas, especially Central Alaska. This figure, 
incidentally, on the right shows that the contiguous United 
States is projected to experience drying. The yellow and the 
red represent drying. The same is true for Western Europe. So 
these models in general are projecting a northward shift of the 
major precipitation belts.
    The next figure shows one scenario of precipitation through 
the 21st century. This is from one of the models. It's fairly 
typical of the set of eight. The general increase is apparent 
although there is quite a bit of interannual variability but 
the interesting feature of this figure is the tendency towards 
greater positive extremes as one goes through the next century. 
So the implication is that there will be occasional severe 
periods with more extensive rains than have occurred in the 
earlier periods, not only in this model but in the 
observational data. And these changes in the extreme events are 
a potentially serious part of climate change and my impression 
is that they are generally under-researched and especially in 
the Arctic.
    The next figure shows projected changes in the coverage of 
sea ice from two models. The left panel is for the Arctic; the 
right panel is for the Antarctic. These are simulations that 
span two centuries, the past century and the coming century. 
They were (indiscernible) by observed carbon dioxide 
concentrations in the past century, projected changes in the 
future. Both models show a substantial decline of sea ice 
through the next century in both hemispheres. The decline in 
the Arctic begins in the last third of the 20th century. By the 
end of the 21st century the projected changes range from 30 to 
70 percent of the current sea ice coverage in the Arctic. The 
losses in the Antarctic are comparable. These two models 
generally correspond to the other six that are not shown in the 
figure.
    In connection with the simulation on the left which shows 
the decline beginning in the late 20th century, it may be 
worthwhile to look at the observed record in the next figure. 
This figure shows the yearly sea ice coverage in the Arctic for 
each season. Each season is in a different color. Summer is 
green, winter is blue. The annual average is black. There are 
indications in the observational record that this decrease of 
sea ice coverage began in the 1950's or 1960's. The decrease is 
largest in summer. This is consistent with the experience of 
Arctic residents and it's a message that comes through in every 
sea ice data set that's been looked at for the last 20 to 30 
years, a decrease of sea ice coverage that's larger in the 
summer and smaller in the winter.
    In summary--next--All the models in this ensemble agree 
that the Arctic will warm. They agree that the strongest 
warming will occur over the Central Arctic. The warming will be 
strongest in winter. They agree that Arctic precipitation will 
increase and that sea ice coverage will decrease substantially 
during the next century. And, in general, the changes that are 
projected are consistent with recent observational data. There 
have been circulation changes that have contributed, at least a 
portion of the changes, in some variables like air temperature.
    Next figure. Finally, the models show less agreement but 
still some agreement on the rates of change, on details of the 
changes in precipitation and on the responses of the land 
surface and the ocean.
    Thank you.
    Chairman Stevens. Very interesting, gentlemen. I do thank 
you all. This is a very provocative panel, as a matter of fact.
    The Canadians have been collaborative in some of these 
efforts of research. Have any of you been working with the 
Canadians on this subject, the changes in the Arctic brought 
about by global climate change? Any of you involved with--the 
Canadians at all?
    Dr. Walsh. The Canadian model is one of the most prominent 
ones and, in fact, some of those sea ice results were directly 
from the Canadian group in Victoria.
    Chairman Stevens. In terms of our portion of the Arctic, 
Alaska, in particular, do you feel we have the data and tools 
available now to reliably predict what's going to happen in the 
future? You have several different models and have presented a 
synthesis of those, as I understand it. Tell me, do you think 
we have the tools available and, if we don't, what could we do 
to improve them? Yes, Mr. Smith.
    Dr. Smith. Senator, I feel there's room for improvement, 
particularly in monitoring in support of the predictive models. 
The difficulties of ground (indiscernible) in Alaska are widely 
spaced data points, measurements, to confirm the predictions. 
And monitoring is so tough to fund. The constructing agencies 
are project-oriented and they're reluctant to invest for the 
long-term when they build. But I think that you can, perhaps, 
encourage them to invest in monitoring and expand a network of 
monitoring stations.
    Chairman Stevens. Any other comments? Mr. Untersteiner.
    Dr. Untersteiner. Well, let me choose the example of the 
ice. It's not a single or two or three kinds of observations 
that will give us the clue for predicting the ice. This is an 
extremely complicated question that is all focused on the heat 
balance of the surface of the ocean and involved in that is the 
transmisivity (ph) of the atmosphere to infrared radiation, the 
cloudiness, what types of clouds, at what elevation do most of 
the clouds occur. These are all things that act together in a 
very complicated way in order to control what the heat balance 
is of the surface which then controls whether that ocean is 
going to freeze a little sooner or a little later so the 
physics of the entire atmosphere and ocean collaborate to 
produce this one phenomenon. So this is obviously a thing that 
requires much more study.
    And I couldn't agree more with the point of Dr. Smith, that 
monitoring is not glamorous and it's extremely valuable and 
will be needed to a much greater extent than we do now.
    And I should say, perhaps especially in the ocean, the 
technology to make long-term observations have improved--has 
improved dramatically in the past decade and monitoring the 
ocean that was once an issue of making many trips with the 
research vessels is now a matter of buoys that have an enormous 
capacity to store and transmit data and I think that is a very 
hopeful direction for future application of technology.
    Chairman Stevens. Dr. Akasofu.
    Dr. Akasofu. You asked us about the computer modeling 
because IPCC uses many computer models and the computer models 
is the only way we can predict quantitatively the future and so 
this is the most important tool and we're trying to improve the 
computer models by putting the people working on this together. 
This is the only way we can improve that, working together. So 
we have been proceeding on this project.
    Chairman Stevens. Well, thank you very much. And I 
particularly thank Dr. Untersteiner and Dr. Walsh for coming so 
far to be part of the panel. I look forward to working with you 
hopefully in Washington some time in the future. I think we're 
going to continue to pursue this subject and find out how we 
can start relying on some of these projections and get some 
basic understanding in Washington of the problem and some of 
the issues that--some of the solutions we might try to test as 
to deal with them. Caleb, thank you for coming. Those are 
tremendous personal observations and we're indebted to you for 
coming and presenting them. Very clear and very understandable. 
So we thank you very much.
    Dr. Smith. Thank you, Senator.
    Chairman Stevens. Thank you all, gentlemen. We'll take a 5 
minute recess and have a change. The next panel is Dr. Glen 
MacDonald, Dr. Douglas Martinson and George Newton from the 
Arctic Research Commission.
    Dan Goldin has told me that one of these cameras is a NASA 
camera and this will be given to the cable industry at a later 
date, this hearing. We now have a panel composed of Dr. Glen 
MacDonald from UCLA; Dr. Douglas Martinson from Columbia 
University who's also the National Academy of Sciences; and 
George Newton, of the Arctic Research Commission, accompanied 
by Dr. Gary Brass. Gentlemen, start with Dr. MacDonald, please. 
Good morning.

STATEMENT OF GLEN M. MacDONALD, PROFESSOR AND VICE 
            CHAIR OF GEOGRAPHY, UNIVERSITY OF 
            CALIFORNIA, LOS ANGELES

    Dr. MacDonald. Thank you. Good morning, Senator, and thank 
you for inviting me to speak here today.
    Today I'd like to address two issues. I would like to 
explain to you the importance, I think, crucial role of 
paleoclimatic research in understanding natural variability in 
the Arctic climate system and environment and detecting the 
impact of climactic warming and, finally, hoping in helping in 
mitigating the impacts of climactic warming. The second item 
which I'd like to address today is to share with you some of 
the results of our research.
    I come here today not only representing UCLA but I'm also a 
Co-chair of the Paleoenvironment of the Arctic Sciences 
Program. This is part--supported by NSF through the Arctic 
Systems Science and Earth Systems History Programs. And I will 
be presenting research, then, by my fellow scientists within 
the PARCS (ph) Program, some working in Alaska and some 
elsewhere.
    We all know that, if we've lived in the Arctic, that the 
climate here is variable. From one year to the next we may see 
relatively large differences in summer temperature, winter 
temperature, precipitation. If you've been in the Arctic a long 
time or worked in the Arctic a long time you also know that 
there are differences from decade to decade. For example, in 
many parts of the North American Arctic the 1960's was 
relatively cold. The 1980's and 1990's have been extremely 
warm. So with that background of natural variability we then 
must ask how can we detect the beginnings of climactic warming 
caused by greenhouse gasses, increasing methane, 
CO<INF>2</INF>, et cetera. How can we know if that warming will 
exceed the natural variability? And, finally, we might ask, if 
the Arctic system is prone to natural variability and we must 
manage, then, an environment and human infrastructure in the 
Arctic in the face of climate warming, we really have two 
concerns. One is the warming caused by increasing greenhouse 
gasses but, second, the natural variability of the Arctic 
climate which may affect our efforts both on annual, decadal 
and even century time scales.
    So I'd like to illustrate then some of the findings that we 
have obtained using paleoclimatological approaches. These are 
approaches in which we reconstruct climate and environment over 
the past few hundred years back to about 150,000 years for the 
PARCS community which I represent. We use things like tree-ring 
records, ice cores, lake sediments, marine sediments, bore-hole 
temperatures. All of these techniques have been worked on, 
carefully calibrated, verified, cross-verified by scientists in 
the United States and elsewhere. We feel that they have 
reasonably high precision and a reason to be reliable.
    Why are they so crucial in the Arctic? Most Arctic climate 
stations extend back only maybe 50 to 100 years. Their records 
are short. In addition, their geographic distribution is very 
sparse. We simply don't have a data base of observational 
records in which we can look at climactic change over periods 
of decades or centuries to tell what the natural variability is 
or to see if we have indeed warmed beyond the natural 
variability.
    Can I have the first overhead, please.
    This is a record taken from tree-rings from far-eastern 
Siberia, just across the pond from us here. What the record 
shows you at the top is the reconstruction of June temperatures 
extending back to 1450 AD. What's notable about the 
reconstruction, of course, is the high amount of variability, 
both on a decadal and an annual time scale. In addition, what 
we can see is the 20th century may not have experienced all the 
warmest years but it is the longest period of prolonged warming 
when years are above the mean temperature since 1450. It is the 
longest sustained warm period in our record. This very typical 
of Arctic tree-ring records. They mainly show us summer warmth 
and they mainly show us that the 20th century is warmer than 
the last 400 to 1,000 years.
    Below we see that this warming is reflected in the pulse of 
establishment of trees starting at about 1900. Most of the 
northern tree-line forests in large portions of Siberia, parts 
of Alaska and northern Canada established in the 20th century 
as temperatures began to warm. We can also see that between 
about 1800 and 1850 there was a period of pronounced cooling. 
We see that this caused the mortality and death of a lot of 
trees. This is also seen in most tree-ring records that we have 
from the circum-Arctic region. It shows us that there's natural 
variability which produced cooling, not on the order or 1 year 
or 2 years, but on the order of decades.
    May I have the next overhead, please.
    When we take records like this and we put them together--
and this is a paper which I was a coauthor on with a number of 
other scientists led by Jonathan Overpeck (ph) of NOAA--we can 
reconstruct, then, a kind of circum-Arctic temperature index. 
This reconstruction required the use of tree-rings, lake 
sediments, ice cores, marine sediments and other forms of 
paleoclimatological data, all carefully cross-checked, 
verified. The paper was published in Science Magazine. You can 
see the geographic distribution of the sites below and they 
include sites from Alaska.
    What you see at the top is the record of Arctic climate 
warming. The black line is temperature and you can see--and the 
units it gives are sigma units--but it basically shows the 20th 
century had a 1 to 1.5 degree warming compared to earlier 
centuries. You can see the record is then compared to 
CO<INF>2</INF>, methane, natural variability and solar output 
and, finally, volcanic eruptions.
    And what we see from this record are two very important 
factors. First of all, long-term variability and evidence that 
the 20th century has been warmer than any of the preceding four 
centuries. Second, we see the impact not only of CO<INF>2</INF> 
and methane but in the natural variability. The decrease in 
temperatures, for example, following the 1950's was 
coincidental with the decrease in the output from the sun. So 
there is natural variability on top of this record as well as 
the greenhouse warming. In the future we will have to be able 
to anticipate both that natural variability and the increased 
warming due to greenhouse gasses.
    How does that compare, then, with other studies? Is this 
just a one-off? May I have the next overhead, please.


                           PREPARED STATEMENT


    This is a comparison published this year by Keith Briffin 
(ph) and a number of scientists from throughout the world. It 
compares the record I just showed you, which is the Overpeck, 
et al., record, with a number of similar records taken from 
Arctic regions and from areas of the Northern Hemisphere north 
of 20 degrees North. And it provides a broad overview of 
Northern Hemisphere temperatures over about the last 1,000 
years, including the Arctic. And there are two salient features 
that I want to draw your attention to. First of all, the 20th 
century is warmer, particularly the last two decades of the 
20th century, than any of the preceding 1,000 years. This is an 
exceptional event. Second, we can see that there's considerable 
long-term variability in the climate as well as short-term 
variability, a period of cold, for instance in the 1600's, the 
period of cold in the early 1800's that I told you about, as 
well as warm periods around 1200 years ago. The causes of these 
natural long-term climactic variations are still poorly 
understood. Their geographic expression is still poorly 
understood. But what we do understand is they are there in the 
past; they will be there in the future. And paleoclimatology, 
particularly in the Arctic, provides us, really, the only tool 
that we have to find these long-term changes in climate and 
address them.
    Chairman Stevens. Thank you.
    Dr. MacDonald. Thank you.
    [The statement follows:]

                Prepared Statement of Glen M. MacDonald

    I thank Senator Stevens and the members of the Committee for this 
opportunity to testify today. My name is Glen MacDonald and I am a 
Professor and Vice Chair of the Geography Department at UCLA. I am also 
a Professor of Organismic Biology, Ecology and Evolution at UCLA and a 
member of the UCLA Institute of the Environment. I have recently been 
named as a co-chair of the Paleoenvironmental Arctic Sciences Program 
(PARCS) sponsored by the National Science Foundation (NSF). PARCS is 
supported by both the Arctic Systems Science (ARCSS) and Earth Systems 
History (ESH) Programs of the NSF. I am here today to present testimony 
regarding my own research on past, present and future patterns of 
climate change in the Arctic and the findings of allied research by 
members of the PARCS community and others. I will also present a 
synopsis of research imperatives for Arctic climatic change that have 
been identified by the PARCS scientific community.

   THE IMPORTANCE OF PALEOCLIMATIC RESEARCH FOR UNDERSTANDING FUTURE 
                         ARCTIC CLIMATE CHANGE

    I do not need to inform the Committee about the importance of 
understanding if Alaska and the Arctic are warming due to increased 
atmospheric concentrations of greenhouse gasses such as carbon dioxide 
and methane. That atmospheric concentrations of such gasses have 
increased significantly over the past 150 years because of human 
activity is indisputable. Analyses of climate model experiments 
indicates that the Arctic is particularly prone to warming related to 
increased atmospheric concentrations of greenhouse gasses. Warming by a 
few degrees in temperature in Alaska could lead to changes in plant and 
animal distributions, vegetation structure, permafrost conditions and 
sea-ice conditions. Such changes would require significant adjustments 
in subsistence practices of native peoples, engineering for large scale 
resource development and conservation planning. In addition, computer 
models of global climate indicate that changes in the Arctic, such as 
northward shifts in the geographic position of treeline, degradation of 
organic soils, and decreases in sea-ice cover, have the potential to 
enhance global climatic changes. How can paleoclimatolgy (the study of 
past climates) help us to detect it the Arctic has begun to warm due to 
increased greenhouse gasses, and help us to anticipate and mitigate the 
impacts of global climate warming in Alaska and other areas of the 
Arctic?
    Paleoclimatic studies provide records of past climatic changes and 
the impact of those changes on the environment. The Arctic 
paleoclimatic research I am speaking of today examines climatic changes 
over the last several hundred years and as far back as about 150,000 
years ago. We all know that weather varies from year to year. Some 
years are typified by very cold conditions, other years may be 
unusually warm. We also know from our own experiences, and from 
instrumental meteorological records, that climate can vary from decade 
to decade. For example the 1960's were a period of relatively cold 
temperatures in the North American Arctic. Finally, we can observe that 
a year of warm or cold temperatures in the Alaskan Arctic may 
correspond to a period of average or even warmer temperatures in some 
other regions. The inherent variability that we can observe in the 
climate system raises two important questions. First, what are the 
causes of such inherent variability in climate and how might they 
influence future climatic conditions in the Arctic? Second, if the 
Arctic climate is prone to significant natural variability from year to 
year or decade to decade how can we determine if there is a pattern of 
Arctic warming that can be attributed to increases in greenhouse 
gasses?
    In order to detect the influence of increased greenhouse gasses on 
climate today and in the future we require very long records of 
temperature so that we can perceive general trends of warming despite 
the natural variability in climate. Long records of climate also allow 
us to determine if the rates and magnitudes of current or future 
warming exceed the natural variability that existed prior to the 
increase in greenhouse gasses. Unfortunately, there are few weather 
stations in the Arctic that have been in existence for more than fifty 
years and a relative handful that have existed for even 100 years. The 
geographic network of weather stations in the arctic is sparse and the 
records that are available are relatively short. Thus, we cannot 
determine from weather stations records the full range of natural 
variability in Arctic climate or assess if the climate has become 
unnaturally warmer due to increased concentrations of greenhouse gasses 
in the atmosphere.
    Given the short duration and geographically sparse nature of 
weather stations in the Arctic, how can we reliably detect if the 
region is warming? A number of paleoclimatic techniques can provide 
detailed records of past Arctic temperatures that extend back hundreds 
to thousands of years. Sources of such records include tree-rings, 
fossils and geochemical evidence from lake, ocean and peatland 
sediments, and evidence from cores of glacial ice from places such as 
Greenland. The paleontological and geochemical techniques used to 
analyze these records and obtain estimates of past climatic conditions 
have been carefully developed over decades, continuously cross-checked, 
and then verified against reliable meteorological records. I take 
pleasure in saying that scientists from Alaska and throughout the 
United States have been at the forefront of this work. The paleoclimate 
records we have obtained allow us to place recent climate changes into 
the context of natural variations in climate that have occurred for 
hundreds to thousands of years.
    There now exists a number of individual studies and syntheses of 
Arctic paleoclimate research that bear directly upon the questions of 
natural variability in Arctic climate and the detection of present and 
future warming due to increased greenhouse gasses. My own paleoclimatic 
work has focused upon analysis of tree-rings and the analysis of 
fossils and geochemical evidence from lake and peatland sediments. Our 
sampling network extends from western and central Canada to northern 
Eurasia where we have sites from the Finnish-Russian border to far 
eastern Siberia. I have also been involved in syntheses that 
incorporate data from other researchers working across the Arctic, and 
include sites from Alaska. I will review the findings from my own work 
and relevant work of others below.

  NATURAL VARIABILITY IN CLIMATE AND EVIDENCE OF RECENT ARCTIC WARMING

    From my own work in Canada and Russia we have developed a 
circumpolar geographic network of climatic records that extend back in 
time from 200 years in some cases to over 13,000 years in other cases. 
Many of these records provide information on past summer temperatures. 
Summer temperatures are particularly crucial for plant and animal life 
in the Arctic, permafrost development and the state of organic soils. 
Here I will concentrate on the evidence from our tree-ring studies.
    Our analyses of tree-ring records, some of which extend back 
approximately 1,000 years, shows that the Arctic climate of the past 
few centuries has been typified by a high range of natural variability 
in summer temperatures on annual, decadal and centennial bases. In many 
cases, annual variability is relatively localized. A cold summer in 
Alaska does not always correspond to a cold summer in northeastern 
Canada or Northern Finland for example. In addition, the tree-ring 
records show that decadal variability in temperatures has been a 
persistent feature of the Arctic climate. The tree-ring records, and 
evidence from analysis of lake and peatland sediments, also show that 
there have been long-term fluctuations in Arctic climate. Some of these 
periods of warmer or cooler conditions persisted for several decades, 
some for several centuries. Some of these long-term fluctuations are 
apparent for much of the Arctic, others are apparent only in some 
regions and not in others. In some cases the onset of long-term changes 
in climate have been very rapid, occurring over a period of years to 
decades. These long-term variations in temperature have had a 
significant impact on the Arctic environment. For example, most of the 
North American and Eurasian Arctic experienced colder summer 
temperatures during the period AD 1800 to about 1850 than the preceding 
several centuries or during the subsequent 20th Century. In general, 
average summer temperatures during this period were 1 deg. to 2 deg. C 
cooler than the long term average over the past 500 years. This long, 
multi-decadal, period of cooling resulted in increased mortality and 
decreased regeneration of treeline spruce and larch populations at high 
latitude and high elevations sites in both North America and Eurasia. 
Determining the cause of such long-term fluctuations in climate 
requires further evidence of their timing and geographic occurrence.
    The tree-ring records provide clear evidence of the natural 
variability of Arctic climate at a number of time scales. What do they 
tell us about warming during the period of dramatic increases in 
atmospheric greenhouse gasses in the 20th Century? Our tree-ring 
records, from sites located in the Yukon, the Northwest Territories, 
northern Russian and northern Siberia, all indicate that the 20th 
Century has experienced the highest sustained high summer temperatures 
and/or the longest period of sustained high summer temperatures for the 
last 200 to 1,000 years (some sites have records that only extend back 
200 years while others extend back about 1,000 years). In general, the 
average summer temperature of the 20th Century has been 0.5 deg. C to 
1.5 deg. C higher than the long-term mean temperatures recorded by our 
Arctic tree-ring records. More significantly perhaps, we often find 
that the high summer temperatures measured at many Arctic weather 
stations for the 1980's and 1990's are unprecedented. In summary, our 
tree-ring records indicate that the 20th Century, and particularly the 
last two decades of the 20th Century, have experienced summer 
temperatures that are anomalously warm. Our records also show that the 
warming over the 20th Century has resulted in increased tree 
regeneration at treeline sites.
    How do the results and conclusions reached by my research group 
compare with other independent studies? There are now a number of 
synthetic studies that combine tree-ring data, and in many cases data 
from lake sediments, marine sediments and glacial ice cores, in order 
to produce long and robust records of Arctic temperature changes over 
the past 400 to 1,000 years. These records are drawn from many regions 
of the Arctic, including Alaska, and furnished by many independent 
scientists from the United States, Canada, Great Britain, the 
Fennoscandian countries and Russia. These studies may use different 
combinations of data and different analytic techniques, but they have 
arrived at a common conclusion--large scale syntheses of Arctic 
paleoclimatic data indicate that for the Arctic as a whole the 20th 
Century was the warmest period in the past 400 to 1,000 years. The 
various estimates provided by these studies suggest that during the 
20th Century the Arctic has experienced average summer temperatures 
that are about 0.5 deg. to 1.0 deg. C higher than the long term mean 
for the past 400 to 1,000 years. Similar synthetic studies have been 
produced for northern hemisphere temperatures and global temperatures 
and produce roughly similar results.
    Although the evidence of Arctic warming over the 20th Century is 
pervasive and to my mind convincing, we must ask if this recent warming 
can be attributed to increasing concentrations of greenhouse gasses? A 
number of studies, using paleoclimatic data and coupling such data with 
computer models of climate have tackled this question. Some of these 
studies, including one I have been involved in, have focused on the 
Arctic, others have been more global in extent. The consensus from such 
studies appears to be that the high temperatures of the 20th Century 
represent a combination of natural and human caused factors. Part of 
the warming can be attributed to natural increases in solar radiation. 
Part of the warming can be attributed to decreased volcanic activity 
and subsequent decreased concentrations of volcanic aerosols in the 
atmosphere. However, a significant proportion of the warming over the 
20th Century (perhaps 20 percent to 40 percent) appears to be 
attributable to human caused increases in greenhouse gasses. The impact 
of these gasses on warming appears to have increased as the 20th 
Century progressed and concentrations of such gasses has increased.
    It is my conclusion that the evidence for greenhouse warming in the 
Arctic is substantial and convincing. The questions that now arise are: 
(1) how will natural short-term and long-term variability of climate 
interact with this warming to affect the Arctic environment over the 
next century, (2) will this warming exceed the natural maximum rates 
and magnitudes of warming that are apparent in the geologic record 
covering the last 150,000 years (the last time the earth was as warm as 
today was about 125,000 years ago), and (3) how will the warming of the 
Arctic in turn influence global climate in the future?

               RESEARCH PRIORITIES ON ARCTIC PALEOCLIMATE

    The research reported above, and most of the associated work done 
by other U.S. scientists, has been supported by the NSF. In particular, 
the Arctic Systems Science Program (ARCSS) of the Office of Polar 
Programs and the multidisciplinary Earth System History Program (ESH) 
have been crucial in promoting American research and scientific 
leadership on issues of Arctic climate change and its impact on Alaska 
and beyond. Despite relatively modest budgets these programs have led 
to the generation of scientific information that has had profound 
national and international impact. The Paleoenvironmental Arctic 
Sciences Program (PARCS) that is sponsored jointly by ARCSS and ESH has 
identified a set of research imperatives aimed at applying paleoclimate 
research to answering some of the most significant and difficult to 
address questions confronting us regarding global warming and the 
Arctic. These questions revolve around the timing, rate, geographic 
extent, impact and causes of past climate changes. The research 
imperatives we have identified reflect the fact that future climatic 
changes in Alaska and the Arctic will combine both natural variations 
in climate with changes caused by humans such as increased 
concentrations of atmospheric greenhouse gasses. By understanding these 
past changes and their causes we can better anticipate and manage the 
impact of future natural and human caused climate change in Alaska and 
the Arctic in general.
    Imperative 1.--We need to further document the temporal and 
geographic patterns of multi-decadal to centennial fluctuations in the 
Arctic climate. Such long term fluctuations can have a profound impact 
on the physical, biological and human systems of the Arctic. Without 
knowing their periodicity and geographic extent we cannot know their 
causes or anticipate their future occurrence.
    Imperative 2.--We need to determine how fast climatic changes can 
occur in the Arctic. We also need to evaluate what natural climatic 
forces cause rapid changes in Arctic climate so that we can anticipate 
such `climatic surprises' and their impact on nature and people.
    Imperative 3.--We need to evaluate how sensitive the biological and 
physical environment of the Arctic has been to past long-term climatic 
fluctuations and to rapid changes in past climate. By knowing this we 
can anticipate and mitigate the impact of future climatic variations.
    Imperative 4.--We need to understand how those elements of the 
Arctic environment that are important to global climate, such as the 
location of treeline, the rate and amount of carbon storage or methane 
release for Arctic soils, and the extent of sea-ice, have responded to 
past climatic change, particularly earlier warm episodes, and those 
elements have influenced climatic change at a global scale.
    The research imperatives listed above can all be addressed using 
carefully analyzed networks of tree-rings, lake and peatland sediments, 
marine cores and ice cores from Alaska and the rest of the Arctic. The 
United States possesses unique expertise in Arctic paleoclimatic 
research that has been developed over several generations. We have led 
the way in collaborative research with other Arctic nations, 
particularly Russia. However, we face significant challenges in our 
attempts to meet these imperatives and maintain our leadership in 
Arctic paleoclimatological research. The costs of logistics for work in 
Alaska and the Arctic have increased, the costs of supporting graduate 
students, post-doctoral students and research assistants have 
increased, and as research techniques have become more refined the 
costs of equipment and analyses have increased. The research funding 
for Arctic paleoclimatology has not kept pace with these increases and 
our level of research activity in Alaska and throughout the Arctic has 
suffered. Our relative leadership in international paleoclimate 
research in the Arctic has also suffered. As I hope I have 
demonstrated, U.S. Arctic paleoclimatology researchers have developed 
sophisticated techniques and made crucial contributions to detecting 
and anticipating the impact of climate warming that could not be made 
by any other scientific approach. They have identified crucial areas of 
research that need to be undertaken to understand future climate change 
and manage and conserve the resources of Alaska and the Arctic. I hope 
that these important efforts can be maintained though increased support 
to the NSF and to the ARCSS, ESH and PARCS programs in particular. I 
thank you for your consideration.

STATEMENT OF DR. DOUGLAS G. MARTINSON, LAMONT-DOHERTY 
            EARTH OBSERVATORY OF COLUMBIA UNIVERSITY, 
            PALISADES, NY

    Chairman Stevens. Dr. Martinson.
    Dr. Martinson. Thank you, Mr. Chairman, for allowing me 
this opportunity to speak to you about this very important and 
often overlooked topic.
    What I'd like to do is describe characteristics of the 
Arctic that make it so important in--actually, in global 
climate. You've heard a lot of the change that's going on in 
the Arctic and we know it's important but I'd like to put it in 
to some of the broader context, though I think the comments by 
Caleb, Mr. Pungowiyi, were probably the comments that put it in 
the most relevant context.
    Before I go into those details, I'd like to make a comment 
that--this business about getting an observing system. We are 
in desperate need of a climate-observing system, of which the 
Arctic needs to be at the very heart of this observing system 
for reasons I hope to explain in a moment. But we are desperate 
for such an observing system. We need good solid records. This 
is an entire game of detecting signal from noise, ultimately 
finding subtleties in climate variations that might lead to 
fingerprints that help us identify natural from anthropogenic 
warming. This is certainly one of the goals of all these 
studies. And there are a number of national and international 
efforts underway to outline what are the issues we need to 
study, what are the observations we need to make on a regular, 
coherent, consistent basis and what sort of field programs do 
we need to conduct in order to understand the processes to 
represent them in the models better. And I would hope an 
outcome of some of this would be a very strong U.S. leadership 
in these efforts. We have an excellent polar program in the 
United States here and we work well with the other countries 
and these various international efforts are putting a lot of 
effort to try to establish what needs to be done. Scientists 
from around the world--and we're all speaking with one voice. 
It's actually very rewarding to attend these meetings and hear 
around the table, around the various Nations, ``Yes, this needs 
to be done.'' It's not in that Nation's backyard but everyone 
recognizes this as an important characteristic. And so anyway, 
with that.
    Let me talk a little bit about the Arctic and why is the 
Arctic so important to studies of global climate. If I can have 
that next.
    Well, one obvious thing--you may be aware that the Arctic 
sea ice cover has long been identified as a potential early 
warning indicator of greenhouse warming. All right. And the 
reason for that is three-fold. One reason is because the sea 
ice is so highly visible and easy to observe from space and, as 
a consequence, presumably--and this has been borne out, shown 
to be true--we can monitor it from space and see how it varies 
and use that as an indication of whether or not we have 
warming.
    But there's a couple of other reasons. This--next slide, 
please. This highly visible ice cover, which is typically three 
to four meters thick--or used to be--and is very extensive--an 
area on the right panel, the winter sea ice coverage, that's an 
area about the size of the United States, maybe just a tad 
bigger--and in the summer it melts back to just over half that 
size--that this highly visible sea ice cover is also very, very 
sensitive to warming. One thing we have in the Arctic that is 
quite different from the Antarctic--the Antarctic has the ice 
gross and the case cycle is strongly modulated by its 
interaction with the ocean. And the Arctic, because we have so 
much fresh water entering from the Siberian side and the 
various rivers that flow into this enclosed basin, the ocean 
stratification is such so that the interaction with the ice is 
minimal. And as a consequence one might presume that changes in 
the ice cover are more or less a direct consequence of changes 
in the atmospheric forcing, the air temperature, the winds--
winds play a tremendous in the ice distribution.
    If I can have the next. But in addition to the fact that we 
expect the sea ice to be sort of a sensitive indicator of 
atmospheric warming, there's another reason why we point to the 
Arctic for an early warning indicator and that's something we 
call polar amplification. Now, you saw this earlier in the 
morning's panel, the very strong amplification or projected 
amplification of atmospheric temperatures in the polar regions 
of the models. These models show over and over and over again a 
tremendous amplification in the polar regions. However, it's 
not just a model effect. This also shows up in the 
observations. And, here, I've taken the global data set, put 
together from Jones, et al., that shows the distribution of air 
temperature, surface air temperature around the globe. And if 
you separate out the air temperature south of 65 degrees North, 
which is plotted in the blue line--so that represents sort of 
the non-polar regions of the world. And you look at the change 
in annual average air temperature around the world outside the 
Arctic region and, then, you do the same thing with the 
temperatures from 65 degrees North and higher--and that's the 
red curve. And what you see is these two curves show more or 
less the same pattern. But the polar region tends to exacerbate 
anything that's going on elsewhere in the world. It's just done 
stronger in the Arctic. So when we have warming up here, as you 
can see in the last century, we have even more warming in the 
Arctic. And when we have cooling, we have even more cooling in 
the Arctic.
    Now the interesting thing about this is that, as Dr. 
MacDonald said, one of the things we're trying to do is an 
issue of detecting signal from noise. We have a tremendous 
amount of natural variability and we're trying to find a very 
small signal of climate change emerge from that. And one of the 
reasons for targeting the Arctic is with polar amplification 
hopefully we'd start to see a warming signal emerge in the 
Arctic regions before we see them elsewhere. That's another 
reason why we've targeted the Arctic as an early warning 
indicator. Of course, what I'm saying--nothing I'm saying leads 
to distinguishing early warming in the Arctic as being 
differentiated from natural from anthropogenic. And, in fact, 
the results, the Overpeck, et al., results that Dr. MacDonald 
showed up there, show that this polar amplification clearly 
goes back in time during natural variability as well. So it's 
not just an artifact of anthropogenic warming, though people 
are certainly putting a lot of effort into determining ``Is 
there a unique Arctic signature to anthropogenic warming that 
doesn't show up in natural warming?'' And there had been some 
tantalizing finds that that was the case but further studies 
suggested that they weren't the most robust indicators of 
diagnosing this problem.
    So for those reasons there's been a certain amount of--a 
lot of attention and excitement over changes in the Arctic by 
the global climate community, not just the polar scientists, 
though it's always encouraging to us that there's so much 
change going on in the Arctic. It certainly makes it 
interesting, though, of course, people's lives are disrupted. 
``Interesting'' might not be the appropriate euphemism.
    Now, with that polar amplification and sort of the role of 
the Arctic, let me give a little background information, if you 
don't mind, as to why we might even expect the Arctic to play a 
role in global climate.
    May I have the next. First of all, I'm going to grossly 
oversimplify the Earth's climate system with just this visual 
and the next one. And, essentially, what it shows is in the 
Equatorial regions, as people that live up here in Alaska are 
aware, at least as we go farther north, you have the incoming 
solar radiation from the sun, the primary source of heating to 
this Earth, certainly for our climate. That's just directed 
dead on to the Equator, a very intense beam, just like taking a 
flashlight and aiming it straight down at a table. You get a 
very concentrated beam of solar radiation and it's very 
effective at heating the planet down there. As you go farther 
up on the spherical Earth those same incoming beams of solar 
radiation get spread out. They're hitting the Earth at an 
oblique angle and they get spread over broader area and, as a 
consequence, the heating is less efficient. And, of course, 
when you finally get to the polar latitudes, it's spread very 
thin and, in the wintertime, of course there's no solar 
radiation at all except at the fringe of the Arctic region.
    Now, what the consequence of this is, as you all learned in 
high school we get an excess amount of heat at the Equator and 
a deficit of heat at the Poles. This leads to a very strong 
temperature contrast between the Equator and the Pole and, in 
the most simplistic--I apologize to my distinguished colleagues 
here--in the most simplistic presentation of what climate is: 
Climate is nothing more than the Earth's attempt at 
distributing the excess of heat at the Equator to the heat-
starved polar regions. That's it. And the broader this great 
(indiscernible) qualifiers at the mid-latitudes, of course, 
play a role in this, too. The stronger the gradient the more 
energetic the system can become and excess transfer of heat 
from the Equator towards the Poles and the rotation of the 
Earth, that's what drives the climate system and the 
circulation and all the interesting varieties of climate that 
we have. So for this reason one might expect that changes in 
the polar regions which change the Equator to Pole temperature 
gradient may, in fact, lead to changes in global climate. 
Taking into account this oversimplification but people are 
aware of the impact of that.
    Now, if I can have the next one. Another thing. What about 
the sea ice? What role does this sea ice play in this 
regulation of the polar temperatures? Well, the sea ice plays a 
very important and interesting role in the physics of the 
system. One, as any of you know that have spent any time 
walking outside on a bright sunny day in the snow, the sea ice 
and the snow cover is highly reflective surface, very 
reflective. Therefore, what little sunlight is getting in, a 
huge fraction of it, 80 to 90 percent of it, is reflected back 
into space because of this highly reflective surface. And, as a 
consequence, the solar radiation is less effective in warming 
the polar regions because of this albedo effect. That's the 
reflectivity of the ice, known as the albedo. Twenty to 80 
percent--I'm sorry--80 to 90 percent of it's reflected back but 
the ice actually very often has cracks in between the flows, as 
you can see in the photograph there which was from an Arctic 
experiment we had called SHEBA. A couple of years ago we 
occupied a site for a year up in the Central Arctic near the 
North Pole. And these cracks, which are known as leads where 
the open ocean appears--and the open ocean is a dark surface. 
It is as effective in absorbing solar radiation as the ice is 
in reflecting it. So wherever there's water suddenly about 80 
percent of that incoming solar radiation is absorbed. So we get 
tremendous amount of change in the ability to heat the surface 
when there's water instead of ice. And you can imagine, because 
of this extreme contrast in the reflectivity between those two 
surfaces, if you displace a little bit of ice with water, 
you'll have a tremendous difference in the amount of absorbed 
solar radiation, therefore, the warming.
    Another important aspect of the ice is it serves to 
insulate the relatively warm ocean water from the frigidly cold 
atmosphere. It's like having a well triple-glazed glass windows 
to your house. The ocean water, of course, cannot be colder 
than the freezing point which is a couple of degrees, minus two 
degrees centigrade, say, on average. And the atmosphere can be 
minus 30, minus 40, up there, degrees centigrade. And 
effectively this ice prevents a direct contact of that warm 
water from the atmosphere and, if you remove the ice, like 
opening the windows to your house in the wintertime, the heat 
would leave the water, go into the atmosphere, immediately warm 
the atmosphere, and you're talking something like a 40 to 70 
degree temperature warming. Because thermal capacity to water 
is so much, it would overwhelm the atmosphere and it would 
dominate the temperatures. And as long as we have that ice 
there that's what permits the temperatures to be so frigid in 
the Arctic. As far as the atmosphere is concerned, the Arctic 
looks like an ice-covered continent, except for these small 
amount of leads which maybe occupy a half to 1 percent of the 
entire Arctic ice cover. So the distribution between ice and 
water plays a tremendous role in the atmospheric temperature 
over the Arctic and, of course, the circum-Arctic region 
surrounded by this ice cover.
    Can I have the next. Now, I'm not going to go through this 
in detail because Professor Walsh already showed the composite 
curves that go into this but, of course, you have seen that the 
sea ice extent is undergoing fairly dramatic changes. I'd say 
in the last two decades on average the NASA scientists have 
shown that on the last two decades it's disappearing at a rate 
of about 3 percent per decade relative to the 1970 values. And 
Professor Walsh and his team have reconstructed or attempted to 
reconstruct ice extent all the way back to the beginning of the 
last century and you can see, as he said, that since the middle 
of the last century this decrease in the ice cover seems to 
have been taking place.
    Next one, please. So, of course, we're dramatically 
changing the balance between water and ice and that's one of 
the reasons why we expect to see a polar amplification in this 
region and enhanced warming, particularly in winter. In the 
winter the only source of heat to the polar atmosphere is from 
the ocean. In the summer it's the sunlight. In the winter it's 
the ocean. And that insulating cover of the ice serves very 
well to keep the heat in the ocean.
    Now, in addition to a retreat of the ice cover, we also 
have indications from a lot of good studies that have recently 
been done that the ice is also being reduced in its thickness. 
And their best estimates, which are a little tenuous, but the 
best estimates show that it's being decreased on the average of 
maybe 40 percent over the last several decades. So it's getting 
thinner and it's getting less extensive. Some of the modeling 
results, and as is pointed out--Dr. Untersteiner pointed out 
that the models have a lot of problems, which is true and 
that's why we're trying to understand the system better to 
improve the models among other things--but one of the things is 
the good modelers know how to take advantage of the model 
strengths while circumventing their weaknesses. And when they 
do that and do a comparison between some of the better model 
results and the observations, it looks like the ice that is 
disappearing is the thicker, multier (ph) ice. And the 
interesting thing there is there's been a number of studies, 
theoretical studies on energetics of the system and modeling 
studies. And these both agree, these different approaches 
agree, that there's an interesting phenomenon here in the 
Arctic. And that is the system seems to be able to exist in one 
of two stable States. One stable State is the current one where 
we have a perennial year-round thick ice cover. The other 
stable State is where the winter ice cover is gone and we 
essentially only have ice in the summer. That's a seasonal sea 
ice cover which is typical of the Antarctic region. And 
according to these studies what happens is, because of the 
energetics of the system, as you start to melt the perennial 
ice cover and make it thinner and less extensive because of 
these feedback mechanisms I just mentioned about the--you start 
to absorb more heat in the ocean and that starts to warm up the 
regional atmosphere which melts more ice, absorbs more heat, 
melts more ice, et cetera--Well, because of that what happens 
is, once the perennial ice starts to retreat, these studies 
suggest that you'll hit a threshold and that will--retreat will 
continue on much faster and the system will tend to transition 
to the other State which, in this case, would be transition 
from the perennial ice cover to a seasonal ice cover. 
Obviously, the implications of that to the native people and 
the wildlife is fairly severe but I don't want to just sit here 
and do as it's often tempting to do and yell that the sky is 
falling. But presumably, as Dr. Smith said, that, ``Yes, 
accompanying climate change, as well as there being negative 
effects, there is a very strong potential of having benefits.'' 
But in order to reap those benefits, we need to anticipate the 
changes and, if we have to make infrastructure changes, put 
those in place in order to take advantage of the beneficial 
changes that accompany this change.
    So--if I can have the next slide--in addition to the 
changes in the sea ice cover, which are most obvious and 
they're the easiest to document and observe, there have also 
been a great number of other changes going on in the Arctic 
Region. And these have been documented by a number of 
scientists who have been studying Arctic change. There's a new 
program called SEARCH, the search for Environmental.
    Mr. Newton. Environmental Arctic Change.
    Dr. Martinson [continuing]. Thank you. Yeah. It's called 
``SEARCH.'' Anyway, this program has gotten a collection of 
people together in an effort to identify the various changes 
that have been documented so far, with this sort of poor 
sporadic data set, and to work out what are the remaining 
issues that we have to resolve in order to improve our 
understanding of this system and where it might go in the 
future. And these changes are very tantalizing. Some of them 
are listed there on the right. The expansion of what we call 
the ``Atlantic layer,'' warm salty water from the Atlantic, the 
subtropical Atlantic, works its way up into the Norwegian Sea 
and eventually works its way into the Arctic. And as it cools, 
it sinks down and makes a layer that is below the surface layer 
of the Arctic Ocean and that helps set the stratification of 
the ocean and it's the stratification that allows it to form an 
ice cover. Absolutely--the ice cover is absolutely intimately 
coupled to the stratification of the ocean. You change the 
stratification of the ocean and you change the ability of the 
Arctic to support an ice cover. And we've seen that this 
Atlantic layer has gotten warmer. It's gotten saltier. Loss of 
cold halocline layer, I'm sorry I didn't decode that one. That 
is a special insulating layer that lays above the Atlantic 
layer and below the surface layer, that layer that's in direct 
communication with the atmosphere. And that cold halocline 
layer is a very effective insulator that keeps the warmth of 
the Atlantic layer away from the sea ice that sits on the very 
top of the ocean. That cold halocline layer, that insulating 
layer, has disappeared in the 1990's in the vicinity of the 
North Pole. And our estimates are that, with the loss of that 
layer, we would expect the ocean to contribute a considerable 
amount of ocean heat to the ice such that the ice growth will 
be reduced by something like 80 percent in the wintertime. I'm 
not saying the entire net thickness will change but the ice 
that normally would grow in that region near the North Pole, 80 
percent of that will not grow because of this ocean heat flux. 
All right. And we also, of course, I've already mentioned the 
decrease of the sea ice cover of 3 percent per decade. Another 
interesting observation is that the snow cover in the circum-
Arctic, the continental region surrounding the Arctic--the snow 
cover's also disappearing at a rate comparable to the sea ice. 
It's going at about 4 percent per decade. That number's not as 
well known because the snow is a little harder to interpret. 
There's been a tremendous difference in the storm tracks. The 
storms are now originating in different locations. They're 
becoming more intense and they're more frequent. And the ocean 
circulation is changing with the overlying atmosphere and it's 
doing it in such a way that the fresh water input from the 
rivers, particularly the Siberian rivers, is being rerouted to 
different parts of the Arctic and this is having a very 
important influence on the stratification of the ocean, again. 
And as I said, that'll impact the sea ice and the circulation 
of the system.
    So the interesting thing about having an ensemble of 
observations like this, even if they're a little tenuous 
because we don't have the most solid long-term coherent data 
base, is these observations add all sorts of texture to the 
problem. It's like diagnosing an illness. It's one thing to say 
you have a rash. It's another thing to say you have a rash, 
your white blood cell count's through the roof, et cetera. The 
same thing with this. When we get all these things, they 
seriously constrain the hypotheses we can advance to explain 
what's going on in the Arctic and how it's responding to this 
global warming. And these things are invaluable in adding these 
different insights. They give us all sorts of different--well, 
they keep us honest because, if we understand it--well, we hope 
we're honest anyway but we--if we understand the system 
properly, we should be able to predict or at least anticipate 
all of these changes with our interpretations that we put 
forth.
    If I can have the next one. Now, Dr. Untersteiner mentioned 
the shutdown in the North Atlantic deep water. The North 
Atlantic deep water originates where that big green X is. And, 
essentially, what happens is water from the North Atlantic that 
drifts up there and cools, as it cools, it becomes denser and 
it sinks. And from there, it starts to follow that blue path. 
It travels around the world and, when it sinks, it takes up 
CO<INF>2</INF>. It takes up nutrients, all sorts of various 
quantities. And it more or less stores those in the deep ocean 
reservoir where that reservoir is not exposed to the atmosphere 
for sometimes thousands of years. The water makes its way into 
the Pacific where eventually it's up-welled to the surface and 
it slowly makes its way back to that starting point following 
the red arrows. Now, my fellow oceanographers are fairly loathe 
to sometimes show this figure because it's felt that it grossly 
oversimplifies a very complex system but it certainly conveys 
the essence of the system. And one of the--well, as Dr. Broker 
has called it the Achilles Heels of climate, is the thought 
that, if we change the sea ice that's exported from the Arctic 
into the North Atlantic, that sea ice, when it enters the North 
Atlantic or the regions where North Atlantic deep water is 
produced, it tends to melt. That freshens the surface and the 
fresher the surface is the less likely it is to sink. And 
there's the possibility that if we altar the Arctic climate 
system that ice will change, the fresh water at the surface 
will change and we have the possibility of shutting down what 
this conveyor belt, which is called the thermal hyaline 
circulation. Now, the implication there is that it's--warm 
water's the Gulf Stream which you all know of or have heard of. 
The Gulf Stream is subtropical waters that flow along the 
eastern seaboard of the United States, break away and, then, 
continues across the ocean up into the Norwegian Seas there and 
it's relatively warm subtropical waters and it's been long 
assumed that it's that heat from the subtropics that's what 
keeps the United Kingdom and Northwestern Europe so anomalously 
warm during the wintertimes. And if we shut down the North 
Atlantic circulation, the North Atlantic deep water 
circulation, we're not going to be pulling that warm water up 
there. And as a consequence, there's the potential of abruptly 
sending some of those regions into colder climates because you 
won't be having this warm water bringing the heat up. That 
theory, actually, is being called into question just recently 
by a number of scientists that are saying actually the United 
Kingdom and Northwestern Europe are not anomalously warm; in 
fact, it's the Northeastern United States that are anomalously 
cold. So they're saying that what keeps the United Kingdom and 
Europe warm is the presence of ocean water. And whether it's a 
couple of degrees warmer because it comes from the south, from 
the subtropics, or whether it's just sort of resident 
temperatures up there, it still contributes a lot of heat to 
those regions and would not necessarily have a big impact. Of 
course, this hypothesis stems from some of the paleoclimate 
records Dr. MacDonald referred to. Those records, indeed, show 
dramatic what we call abrupt warming events through time and 
people have ultimately tracked it back and assumed or have 
worked out that the cause of those abrupt warming events were 
due to the shut down of the thermal hyaline circulation that 
I've just referred to. And that's why this has often been 
targeted as something that we're sort of nervous about.

                           PREPARED STATEMENT

    So that, with that--if I can have the next one--getting on 
to projections for the Arctic as you were interested in--and 
Dr. Walsh covered this, I thought, very nicely. In fact, we're 
more or less dependent upon the models. And the models have a 
lot of flaws but the models also have a lot of strengths. There 
you can see some of the model trends. This is actually from a 
paper that Dr. Walsh was one of the coauthors on. And you can 
see some of the observations and dots and certain trends that 
Dr. Walsh and others have computed are straight lines on there, 
like that straight blue line. And effectively what all of the 
models show more or less across the board is that, if we 
continue to have global warming, the ice will continue to melt. 
And most of them, as I said, because of this polar 
amplification, the ice will start to melt even at a faster 
rate. And in order to, I would say, flesh that out with more 
detail and better estimates, we need to be able to represent 
the detailed processes, these feedbacks between the ocean and 
the ice better. The clouds, they're a constant source of 
trouble. And we need to understand the feedbacks. If you remove 
ice, you expose the ocean and the water of the ocean to the 
atmosphere and you can evaporate it up and make more clouds. 
And the clouds, they come in and they serve as an umbrella; 
they shade the surface and they make it cooler but, at the same 
time, they absorb heat and they tend to radiate this heat 
downward like a warm thermal blanket. And the polar regions, 
which are rather unique, seem to have a different response to 
the clouds than some of the other areas on the Earth. The 
results of our SHEBA study a couple of years ago seem to 
suggest at this early stage that the insulating blanket wins. 
It seems to have more of an effect than the umbrella effect of 
the clouds.
    So, with that, I will close.
    Senator Stevens. Thank you very much. Mr. Newton.
    [The statement follows:]

               Prepared Statement of Douglas G. Martinson

    Mr. Chairman, Thank you for giving me this opportunity to present 
my impressions on Climate Change in the Arctic at this hearing. My name 
is Doug Martinson. I received a Ph.D. in 1981 from Columbia University 
on paleoclimate (studying the Ice Age cycles, and considering the role 
of the Arctic and Antarctic polar oceans in these cycles). I am an 
Adjunct Professor in the Department of Earth and Environmental Sciences 
at Columbia University and a Senior Research Scientist at Columbia's 
Lamont-Doherty Earth Observatory. I am a physical oceanographer, 
specializing in air-sea-ice interaction in high latitude oceans, and 
the role of this interaction, as well as the role of the sea ice fields 
in global climate. I do both modeling studies and fieldwork, and have 
been to the Arctic and Antarctic polar oceans numerous times. I am a 
member of a number of national and international committees dealing 
with global climate change, and the role of Polar Regions in climate. I 
am not a member of the National Academy of Sciences (NAS) though I was 
asked to be their representative for this hearing. I was chairman of 
the National Academy of Sciences Panel on Climate Variability over 
Decade to Century Time Scales, and have been a member of the NAS Global 
Change Research Committee and am currently (since 1990) a member of the 
NAS Climate Research Committee. I have just completed a 5-year term as 
the on the Science Steering Group for the WCRP (World Climate Research 
Programme, a program of the UN's WMO) CLIVAR project (Climate 
Variability and Prediction), am a member of the Science Steering Group 
for the WCRP ACSYS (Arctic Climate System) project and was a member of 
the WCRP Task Force defining the new CLIC (Climate and Cryosphere) 
project, among others. I have also served as chairman or member of a 
number of advisory committees to NSF and NASA, as well as to the 
American Meteorological Society. I teach a graduate level course on 
statistical methods for data analysis (focusing on the mathematical 
techniques, their proper use and interpretation) and have taught this 
course since 1985 in the Department of Earth and Environmental Sciences 
at Columbia University.

                          POLAR CLIMATE PRIMER

    I intend to explicitly address each of the points articulated in 
the invitation letter for the hearing, but would like to start by 
presenting a few fundamental facts regarding the Arctic and its role in 
the Earth's climate system to put some of my comments into a broader 
(global) perspective.
    Sea ice has covered the majority of the Arctic Ocean, year-round, 
with a 9-foot thick blanket of ice as expansive as the United States, 
for as long as civilization has been aware of it. In sunlight, this 
vast area is blindingly radiant; a reflective surface remarkably 
efficient in reflecting sunlight back into space, before its warming 
rays can heat the region. Likewise, the presence of sea ice serves to 
insulate the frigid atmosphere from the relatively warm ocean water 
(which cannot be colder than the freezing point). This prevents the 
ocean from warming the atmosphere to more moderate levels.
    Sea ice is such an efficient insulator, that the exposed ocean 
water in its absence would warm the overlying air by some 20 to 40 
degrees in winter. Moreover, the exposed ocean is nearly as impressive 
in its ability to absorb the warming sunlight as the ice is in 
reflecting it. Consequently, the presence or absence of ice leads to 
considerable differences in the temperature (and with that, 
circulation) of the overlying atmosphere. This dramatic contrast makes 
polar climate highly sensitive to changes in sea ice--even small 
changes in the sea ice can result in large changes in the polar 
climate. On a grander scale, these same characteristics that constrain 
the polar temperatures help define the temperature contrast between the 
tropics and the poles. Since climate is nothing more than the Earth's 
attempt to eliminate this contrast, that is, redistribute excess heat 
received in the tropics to the heat-starved Polar Regions, anything 
that influences polar temperatures can influence global climate.
    Though we have been aware of the potential sensitivity of the 
climate system to changes in sea ice cover for many years, only since 
the early 1970s have we finally been able to obtain regular 
observations of the sea ice fields through constant monitoring via 
satellites. Since then, we have observed a clear and steady decline in 
the extent of the Arctic sea ice cover, showing it to be disappearing 
at a rate of approximately 3 percent of the early 1970 coverage each 
decade. There have also been a number of recent exceptional years, even 
in light of the steady decline: in the 1990s we experienced the four 
smallest summer ice extents ever observed. Furthermore, other, less 
complete records of the sea ice suggest that the decline has been 
continuous over this entire century. While the reduction in ice extent 
is unequivocal, changes in thickness are also apparent. Recently, 
during a year long experiment in the Arctic, the thickest ice floe we 
could find to establish our SHEBA (Surface Heat Balance of the Arctic) 
ice station on was only 60 percent of the mean thickness we expected to 
find. Conditions in the upper ocean showed an excess of freshwater 
consistent with the interpretation that the thin ice was a result of 
excess melting the previous year. Likewise, we have recently documented 
changes in other parts of the Arctic Ocean that are strongly suggestive 
of additional ice thinning. Results from submarine surveys under the 
ice suggest considerable thinning (of the order of 40 percent) in 
recent decades.
    The causes for these changes are still uncertain, though we have 
some candidates, such as global warming that has been documented over 
the majority of the last century. Relative to mean global temperatures, 
temperatures in the Polar Regions show the same general trends, but are 
amplified relative to the changes observed in lower latitudes. 
Therefore, warming of a degree or two averaged around the globe is 
equivalent to a warming of approximately twice that much in the polar 
regions as seen in the figure. The changes in the sea ice do indeed 
correspond to changes in polar temperature though whether this is a 
cause or effect is unclear. Furthermore, changes in the polar upper 
ocean observed in some regions strongly suggest that the winter ice 
growth will be reduced by 70-80 percent in those regions, since the 
changes serve to introduce considerable heat from the ocean to the ice, 
preventing strong ice formation in winter. Because the observations of 
change are so new, we have not yet had time to test, or formulate the 
potential mechanisms and impacts associated with such changes (our 
current research is focused on determining the spatial and temporal 
characteristics of this upper ocean change). While we have an idea of 
what might be driving the immediate changes observed, the bigger, 
unanswered question at this time is whether the changes are part of a 
long-term trend, or part of a cycle, in which case the trends can be 
expected to reverse themselves in the future. At present there is 
evidence that may support both viewpoints, in which case the most 
likely future projection would involve a long term decline, tempered in 
some years by an expanding phase of the cycle, and enhanced in other 
years by coinciding with the retreating phase of the cycle.

                             ARCTIC CHANGE

    In addition to the changes in the Arctic upper ocean, it is 
interesting to note all of the other recently documented changes taking 
place in the Arctic and surrounding regions. These include changes in 
ocean characteristics that reflect differences in the nature of the 
circulation and the nature of the ocean-ice interaction (i.e., an 
insulating layer that separates the warm deep Atlantic water from the 
frigid surface layer disappeared in the vicinity of the North Pole); 
differences in sea ice and snow extent and thickness (i.e., the sea ice 
coverage has been decreasing by nearly 3 percent/decade over the last 
couple of decades, and has shown considerable thinning, by 40 percent 
on average; the circumArctic snow fields appear to be decreasing at a 
comparable, or slightly faster rate, nearly 4 percent/decade); 
differences in surface air temperature and permafrost distribution show 
dramatic trends in air temperature (most of which show warming, though 
some isolated cooling regions are also apparent). The details of these 
changes are still being evaluated, since our documentation of the 
region over the last 50 years has been rather sporadic in both time and 
space. Fortunately, serious international efforts to combine all 
existing data working toward a coherent picture of the change has 
afforded us significant new insights. These changes seem to be 
accompanying changes in the nature of the overlying atmosphere that 
appears to reflect a change in its fundamental mode of circulation. The 
Arctic changes appear to track those in global climate (particularly 
global warming), and the circulation changes are such that we expect 
the river runoff from the Siberian rivers to be distributed differently 
in the Arctic Ocean. This has major implications for the sea ice 
distribution, since the freshwater from rivers plays an important role 
in establishing ocean conditions favorable for sea ice formation. 
Recent modeling work and observational analysis suggests that the river 
water is now injected farther eastward in the Arctic relative to the 
Siberian shelves, and this can explain much of the changes in sea ice 
distribution, though we are not positive that this is the explanation.

                         ARCTIC CHANGE RESEARCH

    In an effort to better document and understand the extent of the 
changes, and deduce their implications and broader scale impacts a 
major interagency (NSF/ONR/NOAA/NASA/DOE) study has recently been 
initiated (championed by scientists at the University of Washington's 
Polar Science Center, with contributors from Alaska's IARC and other 
universities as well), called the Search for Environmental Arctic 
Change (SEARCH). The program has focused, to date on articulating the 
key outstanding questions that must be answered in order to most 
efficiently advance our understanding of Arctic change, and in 
identifying those issues that must be resolved in order to answer the 
questions. Key findings are that we need more comprehensive and 
systematic Arctic observations, focused modeling efforts, as well as a 
number of specific process studies needed to help improve the manner in 
which key polar processes are represented in the climate models. These 
will complement the findings from the recently completed NSF/ONR SHEBA 
field program, which provided the most comprehensive documentation of 
the various processes involved in regulating the surface energy balance 
of the Arctic. Results from this field program should greatly improve 
our ability to represent the Arctic region in global climate models, 
though even as thorough as this program was, the complexity of the 
polar climate system demands further such studies, as each one will 
incrementally advance our understanding and allow model improvements 
and diagnosis that will ultimately allow us to make reasonable 
projections of Arctic response to changes in the atmospheric forcing 
(e.g., greenhouse warming or the injection of sulfate aerosols 
associated with volcanic eruptions, which have been shown to lead to 
significant warming events in the Arctic region).
    Our analyses suggest that changes in sea ice just north of Alaska 
covary with changes in the surface air temperature in the western 
tropical Pacific Ocean, perhaps reflecting a connection between the El 
Nino phenomenon and northern Alaska. In particular, anomalous air 
temperatures in the western tropical Pacific appear to portend to some 
extent the upcoming winter ice conditions north of Alaska in the 
upcoming winter. We also find that southwestern Alaska covaries with 
the sea ice concentration near the northeastern tip of Greenland, and 
oppositely with the ice concentration in the Labrador Sea (of the 
northwest Atlantic Ocean) as seen in the figure.
    Because of the complexity of the climate problem, it requires 
coordinated international efforts. In this respect, the WCRP has formed 
a project that focuses international attention on the cryosphere (cold 
regions) and climate. Part of our needs outlined in the initial CLIC 
science plan suggest that a coherent observational network be 
established to better document changes taking place in the highest 
latitudes. Canada is contributing significantly to this effort with 
their extensive network, though the network is threatened by recent 
budget cuts to the Meteorological Services of Canada (MSC). This has 
led to the closing of some stations, including some that have already 
been shown to be critical to recent analyses of Arctic change. Further 
cuts may lead to additional closings by the Canadians have requested 
additional funds to keep the stations operating. At present, U.S. 
contributions to the MSC have proven critical in helping to maintain 
the observational network (continuing talks between MSC and U.S. NOAA 
would probably prove useful in helping the Canadians optimize their 
resources). The Canadians are also formulating a plan to contribute to 
the international (WMP) Global Climate Observing System (GCOS), which 
is designed to provide a global observing network that will address a 
large fraction of our climate observational needs. The Canadians are 
also in the process of switching over, like many countries, to 
automated weather observing instruments, though this leads to problems 
of data quality continuity, while helping open new frontiers to 
observation.

                          OBSERVATIONAL NEEDS

    At present, our best estimates of what mechanisms are responsible 
for these changes, and how sensitive the mechanisms are to future 
change, what their net influence is, and how a change in the earth's 
climate may influence the ice cover and thus the climate itself, is 
gauged through model studies. This reflects the fact that it is 
extremely difficult to collect data in the hostile Polar Regions so we 
are hindered in our ability to fully address these issues through 
observations themselves (as is sometimes possible, and most desirable, 
in other regions). Regardless, consistent observations over periods of 
time long enough to document the climate variations of interest are 
essential for initializing, diagnosing and improving the models. 
Unfortunately, such observations, and their regular maintenance is 
expensive and labor intensive, and existing subArctic observational 
networks are in danger of being undermined because of budgetary and 
sometimes safety issues. This is currently the problem faced by the 
Meteorological Service of Canada (MSC) which maintains an extensive 
subArctic observing network, though a number of stations, including 
ones that have been shown to play an important role in recent 
assessments of past circumArctic change, have been eliminated (some of 
the network is being preserved by critical U.S. agency contributions; 
and talks between MSC and U.S. NOAA have proven very helpful). The 
models, while still crude in a number of respects, help us determine 
which observations are most critically needed, and which processes 
should be targeted for more detailed study. Even at their present level 
though, models provide strong support to the notion that changes in the 
Polar Regions may significantly influence global climate. For example, 
a recent study using NASA's Goddard Institute of Space Studies (GISS) 
global climate model suggests that reasonably sized changes in the ice 
albedo, or other surface polar conditions have consequences that are 
ultimately felt globally. Most dramatically, greenhouse warming 
scenarios with that model given a doubling of the atmospheric 
CO<INF>2</INF> content, suggests that 38 percent of the greenhouse 
warming that results from this doubling is due to the melting of sea 
ice in the polar regions.

  FUTURE PROJECTIONS OF CLIMATE CHANGE IN THE ARCTIC (THE ``DEC-CEN'' 
                                PROBLEM)

    Climate prediction is a difficult proposition, but climate research 
and dedicated observational networks have led to tremendous advances 
over the last couple of decades, most notably seen in the successful 
prediction of the largest climate phenomenon existing (El Nino) and its 
various regional impacts around the globe. Unfortunately, the fact that 
the background climate state appears to be changing continuously 
implies that we will have to keep studying even this well known 
phenomenon in order to preserve our excellent predictive capabilities 
that we have already achieved. Furthermore, we need to identify and 
evaluate more climate patterns (undoubtedly of smaller significance in 
the overall scheme of climate), in an attempt to eventually achieve 
predictive capabilities for other regions of the Earth. While El Nino 
does indeed drive considerable variability in the Antarctic, its 
influence on the Arctic region is much less clear. The Arctic is 
subjected to another large scale climate pattern whose state also has 
considerable implications to regional climate in the North Atlantic and 
surrounding environs; this pattern is known as the Arctic Oscillation 
(AO), or alternatively, the North Atlantic Oscillation (NAO). While we 
can make some climate predictions for the Arctic according to the 
diagnosed state of the AO (e.g., a high state is often accompanied by 
an increase in the number and strength of Arctic storms; cyclones), we 
are not clear what drives the state of the AO, though the state of the 
sea ice fields is likely to play a role, and models suggest that the AO 
tends towards a high state with global warming (though there is 
considerable uncertainty in this).
    For Arctic climate predictions on long time scales, we currently 
rely on climate models; most of which seem to agree that continued 
global warming (whether natural or anthropogenic) will lead to further 
retreat of the Arctic winter sea ice cover. Numerical models as well as 
theoretical studies suggest that the Arctic sea ice fields can exist in 
only one of two stable configurations: (1) perennial sea ice cover, as 
we currently have; or (2) seasonal sea ice cover with little to no 
summer sea ice as is typical of the Antarctic polar oceans. These 
studies also suggest that once the perennial ice fields start to thin 
and the winter cover decreases (as is currently happening), eventually, 
the sea ice field will reach an unstable state and make the transition 
rather rapidly to the other stable state (i.e., the perennial ice pack 
will begin to disappear at an accelerated rate and quickly transition 
to a seasonal sea ice cover). Recent predictions, though highly 
uncertain, suggest that the transition to seasonal sea ice state could 
occur in as little as 50 years given the current melting rate. Much of 
this acceleration reflects the fact that we appear to be melting away 
the thickest ice first, so the surviving ice is thinner, and easier to 
eliminate with a comparable amount of melting. Once the winter ice 
cover is eliminated or significantly reduced, presumably the winter 
conditions would be considerably moderated, as the winter air would now 
be warmed by direct contact with the relatively warm ocean waters (this 
positive feedback mechanism is part of what is known as the ice-albedo 
feedback mechanism--it suggests that once ice begins to melt, the melt 
itself will contribute to additional changes that will lead to more 
warming, and thus more melting). The impact to polar wildlife and 
native people relying on regular natural seasonal cycles of climate and 
ice conditions presumably would also be considerable, as seasonal 
cycles would be greatly altered.
    While this is a worse case scenario, some of the future change, if 
properly anticipated could prove beneficial. The anticipation of change 
occurring over relatively long time scales, as we are dealing with in 
the Arctic (and much of the rest of the globe) has associated with it 
particular problems that are not apparent in the study of more rapid 
and short time scale change (this is best summarized from one of our 
recent National Academy Reports dealing with climate variability, 
excerpted here from my contribution to the report).
    Climate research on decade to century (``dec-cen'') time scales is 
relatively new. We have only recently obtained sufficient high-
resolution paleoclimate records allowing examination of past change on 
these long time scales, and acquired faster computers and improved 
models allowing long simulations for studying such change. From this it 
has become clear that the heretofore-implicit assumption of a 
relatively stable mean climate state over dec-cen time scales since the 
last deglaciation, about which considerable seasonal and interannual 
variations occur, is no longer a viable tenet. The paleo records reveal 
considerable variability occurring over all time scales, while model 
and theoretical studies indicate modes of internal and coupled 
variability driving variations over dec-cen time scales as well.
    A significant fraction of these insights have only become apparent 
in the last decade. Consequently we are on the steep end of the 
learning curve with new results and dramatic insights arising at an 
impressive rate. The fundamental scientific issues requiring our 
primary attention are thus evolving rapidly. Flexibility and 
adaptability to new directions and opportunities is thus imperative to 
optimally advance our understanding of climate variability and change 
on these time scales.
    Furthermore, the paradigm developed to successfully study climate 
change on seasonal to interannual time scales cannot be applied to the 
study of dec-cen climate problems. That is, we have realized 
considerable success studying short time-scale climate problems by 
generating hypotheses and models that are quickly diagnosed and 
improved based on analysis of the amply long historical records or 
quickly realized future records. For dec-cen problems, the paleoclimate 
records are still too sparse and the historical records too short. 
Future records will require multiple decades before even a nominal 
comparison to model predictions is possible. Compounding the problem, 
the change in atmospheric composition as a consequence of anthropogenic 
emissions represents a forcing whose future trends can only be 
estimated with considerable uncertainty. As a result, progress requires 
considerable dependence on improved and faster models, an expanded 
paleoclimate data base, and imposed anthropogenic emission scenarios. 
Heavy reliance on these methods and assumed forcing curves, without the 
benefit of real-time observations for constant model validation and 
improvement, implies a considerable effort toward model validation 
through alternate means, improved understanding of the limits and 
implications of proxy indicators constituting the paleoclimate records, 
and detailed monitoring of emissions to help track actual rates. As for 
future observations, we can only now begin collection of these data 
that will ultimately aid future generations of scientists in their 
understanding of dec-cen climate variability and change.
    Thus it is fundamental that we have support to gather the necessary 
observations, build, test and improve climate models including detailed 
representation of the Polar Regions, and continue field programs to 
improve our understanding of the processes underlying the interactions 
and changes taking place.
    I would welcome any questions that you might have.

STATEMENT OF HON. GEORGE B. NEWTON, JR., CHAIR, U.S. 
            ARCTIC RESEARCH COMMISSION

ACCOMPANIED BY DR. GARY BRASS

    Mr. Newton. Thank you, Senator Stevens. I appreciate this 
opportunity to discuss the needs for climate change research in 
the Arctic.
    As you know, the Arctic Research Commission was established 
in 1984 by the Arctic Research and Policy Act. Under the Act we 
have a number of responsibilities but our chief product is our 
biennial Report on Goals and Objectives for Arctic Research. We 
call it the Goals Report. I have included several copies of it 
in my testimony.
    One of the principal purposes of the Goals Report is to 
provide guidance to the Federal agencies with research programs 
in whole or in part in the Arctic.
    I might insert at this point, Senator, as you prepare for 
testimony--you probably are familiar with this--when you 
prepare, you write in a vacuum and when you're late in the 
agenda, many of your pearls have been put on the table. But I 
think, if you hear them again, I think it will serve as added 
emphasis for the importance that we collectively feel for this 
particular problem.
    It is appropriate I believe that I precede your agenda for 
the afternoon for it is the Commission's responsibility to 
recommend research, policies and priorities to both the 
President and Congress and to oversee the coordination of the 
Arctic research activities of the Federal agencies.
    Climate change in the Arctic is already upon us. Warm and 
salty Atlantic water has increased its penetration into the 
Arctic Ocean. There is enough heat in this Atlantic water to 
melt at this time all the ice in the Arctic Ocean. The surface 
layer of colder fresher water which insulates the ice is being 
eroded by this warming from below. Additionally, Arctic sea ice 
is thinned by about 40 percent and the extent of the summer sea 
ice has decreased by 5 to 10 percent over the last 30 years or 
so. These changes will have major impacts on fisheries and 
transportation through the Northern Sea Route and Northwest 
Passage. Deep ocean convection in the Greenland Sea drives the 
ocean's conveyor belt and draws warm, Gulf Stream water north 
to maintain the reasonably comfortable climate of Scandinavia, 
Great Britain and the rest of Northern Europe. Changes in the 
Arctic may cause a slowing of this conveyor belt with major 
climactic consequences and reduce the climate of Northern 
Europe and Great Britain to somewhat akin to Northern Quebec 
and Southern Nunavuk.
    Fisheries have already changed in the Bering Sea. The 
species of crab caught today are different from those caught in 
abundance a decade or two ago. Herring are scarcer and salmon 
are found in places where they had not been found before while 
other salmon fisheries such as in Bristol Bay have suffered 
serious declines. Marine mammals and sea birds have undergone 
substantial change in recent years as well, a regime shift 
occurring in the Bering Sea in the 1970's causing major changes 
in fish populations. Recently, a new phenomena has occurred. 
Sea ice is melting earlier in the Bering Sea changing the 
composition of spring plankton bloom which is causing changes 
in fish-feeding success.
    Long-term observations in permafrost also show the 
temperatures are increasing. The date of snow-melt in Barrow 
now comes 40 days earlier than it did 30 years ago. Plants and 
animals are shifting their distribution pattern, routes of 
travel, nesting and birthing sites and other aspects of their 
ecology and behavior. And changes in temperature are causing 
changes in plant growth. This warming will have serious effects 
on roads, forests, bridges, ports, buildings, pipelines and 
airports. I note that Caleb mentioned the change in the 
treeline in the Nome vicinity. A friend of Caleb's recently 
shared with me that the treeline has grown from 6 miles east of 
Nome to 40 miles west of Nome in his life time. That's probably 
around 40 years, a significant change.
    In 1947 a Navy evaluation board reviewed the 1931 
expedition to the Arctic by the submarine Nautilus under the 
direction of Sir Hubert Wilkens. The review states that.

    Very little is known about the real Arctic and, in view of 
its strategic military importance, it is necessary that basic 
information and scientific data be collected upon which to 
formulate future plans in all phases of global warfare.

    True then and just as true today but its impact has 
expanded for all aspects of the Arctic, including climate 
change.
    In the Commission's Goals Report we have made four 
principal recommendations for research initiatives. These are 
studies of the Arctic region and global change, studies of the 
Bering Sea region, health of the Arctic residents and applied 
research. Each of these recommendations address climate change 
issues. Now let me discuss these recommended research programs 
contained therein.
    The Interagency Arctic Research Policy Committee, called 
IARPC, has constructed a new program for the Study of 
Environmental Arctic Change called SEARCH. SEARCH is an 
interdisciplinary, interagency program for the study of rapid 
environmental change ongoing in the Arctic. The Commission 
recommends support of the SEARCH Program when it comes before 
Congress in fiscal year 2003. Dr. Colwell, who is Chair of the 
IARPC, and other agency heads in your afternoon panel will no 
doubt have more to say about the SEARCH Program.
    The SEARCH Program currently contains a section on rapid 
change in the Bering Sea. The Commission recommends that this 
section of the SEARCH Program be developed into a new 
interagency program for an intensive study of the Bering Sea 
with a comprehensive research approach aimed at continuous 
improvements in our ability to predict the behavior of the 
Bering Sea system and, thus, enable management of the ecosystem 
through foresight and understanding.
    The North Pacific Research Board will conduct an organizing 
meeting in Anchorage tomorrow and Thursday of this month. The 
Commission is a member of the NPRB and we expect that it will 
play a vital role in the study of the Bering Sea.
    The BERPAC Program is a collaborative U.S.-Russian program 
for the study of the Bering Sea and its surroundings supported 
through the Department of the Interior. The Commission strongly 
recommends that the tempo of this program be increased to 
annual cruises and that funds be appropriated to allow this 
increase in program activity.
    Climate change is also affecting the healths of Arctic 
residents in subtle ways. We have recommended a third 
interagency program in Arctic health. We recommend to the 
Committee the section on Arctic health in the Goals Report. The 
Commission also recommends support of the Alaska Traditional 
Food Safety Program proposed by the State of Alaska as an 
important first initiative in that area.
    The Commission has supported two workshops on Arctic ports 
done by Dr. Smith who spoke earlier. We are aware of the 
proposals by the National Ocean Service of NOAA for a program 
of improvements and upgrades in the maritime transport system. 
Climate change will play a major role in changing maritime 
transportation. We support this program with a special emphasis 
on Alaskan ports and transportation facilities.
    The Commission also has an interest in research into the 
problems of the oil on ice-covered seas. Clearly it would be 
better for us all if research into these questions were 
conducted before a serious spill in the Arctic occurs rather 
than after the fact and in the face of legal difficulties which 
might arise. The Commission supports the proposal for the 
Center for Advancing Marine Spill Response from NOAA-NOS as an 
excellent venue for such studies.
    The U.S. Navy is considering their response to climate 
change in the Arctic as well. The Commission hopes that 
opportunities to improve these capabilities will receive your 
support, particularly through increased research by the High-
Latitude Program of the Office of Naval Research which, for 
your information, has--the budget for which has declined 87 
percent in the last decade.
    Because of the unique nature of the Arctic, research 
facility requirements are every bit as important as the 
research itself. NSF has made great progress in recent years in 
the support of Arctic research logistics. The Commission 
supports their planning efforts for new facilities at Toolik 
Lake and at Barrow.
    The University of Alaska Institute for Marine Science and 
the Woodshole Oceanographic Institution are engaged in design 
studies for new research vessels capable of operating in high 
latitudes and in the marginal sea ice zone. The Commission 
supports these efforts of these two outstanding institutions to 
design and build new marginal ice zone ships.
    The SCICEX Program has ended and the Commission is 
searching for new opportunities to gather data on climate 
change in the Arctic Ocean. The Commission remains in contact 
with the Navy Submarine Force to find creative ways to continue 
the SCICEX Program in some form.
    Autonomous Underwater Vehicles capable of taking over where 
the SCICEX submarine cruises ended are not currently available. 
A substantial design and development effort is called for which 
the Commission supports and recommends to you as well.
    For the long future, the Navy is considering the potential 
needs for a replacement of submarine NR-1, the Nation's only 
nuclear-powered research submarine. The SEARCH committee, in a 
separate workshop, has indicated an overwhelming importance of 
Arctic capability in the design of such a replacement. The 
Commission supports these efforts.
    I wish to leave you with some important points. I call them 
my Arctic one-liners in that they describe what I believe is 
the urgency of this problem. The Arctic drives the world's 
weather engine. The Greenland Sea drive-wheel of the conveyor 
belt is of critical importance. And it's the most poorly 
understood area of the planet, that being the Arctic. And 9 out 
of 10 people in this world live on continents that border the 
Arctic Ocean. Additionally, 80 percent of this State of Alaska 
is underlain in permafrost. The infrastructure impacts are 
considerable should that permafrost erode. We talked earlier 
about ice albedo and, certainly, as this ice pact disappears, 
it sets up positive feedback for further and accelerated 
dissipation of Arctic Sea ice on an annual long-term basis.
    Climate change most likely is a combination of a long 
natural cycle and man-induced change will affect each and 
everyone of us in this room. In this century the world will see 
great changes in the land and its freeze/thaw cycle and the 
resulting impact on our infrastructure. There will be changes, 
as well, in terrestrial vegetation and marine life and there 
will be changes in our presence in the Arctic Seas, commercial 
use of the Northern Sea Route and the Northwest Passage as 
short routes between markets, a quicker way to get a car made 
in Japan to a market in Hamburg, Germany. And it's not just a 
little change. That's a 40 percent difference in distance if 
that route is viable for commercial interests. There will be 
easier transportation of Arctic-based resources out of Alaska, 
out of Russia, out of Europe. And concurrently another ocean 
for our military to protect, a thought that has not really sunk 
in yet in what the Navy is doing in their long-term planning.

                           PREPARED STATEMENT

    To counter and properly exploit these changes we, as a 
Nation, must be ready. We must correctly identify and 
anticipate the magnitude of environmental changes. We can't 
tell where we're going until the models tell us where we are 
now and where we will go in the future. That means continued 
support for basic and applied research, support for all means 
of data collection, land, sea, air and space, and support for 
the logistics necessary to perform that research properly. To 
understand the Arctic we must go and work there.
    Thank you very much.
    [The statement follows:]

              Prepared Statement of George B. Newton, Jr.

    Thank you Senator Stevens for this opportunity to discuss Arctic 
research needs with the Committee. As you know, the Arctic Research 
Commission was established in 1984 by the Arctic Research and Policy 
Act (ARPA). Under the ARPA we have a number of responsibilities but our 
chief product is our biennial Report on Goals and Objectives for Arctic 
Research (the Goals Report). I have included several copies with my 
testimony and the Commission office can supply more if you need them.
    One of the principal purposes of the Goals Report is to provide 
guidance to the Federal Agencies with research programs in whole or in 
part in the Arctic. These agencies make up the Interagency Arctic 
Research Policy Committee (IARPC). IARPC uses the guidance in the Goals 
Report to conduct the biennial revision of the National Arctic Research 
Plan, a five year plan for Arctic research. This plan is submitted to 
the President for approval and to the Congress as the nation's 
established plan for research activities in the Arctic. In what follows 
I will describe the major recommendations of the Goals Report and their 
implementation in the National Arctic Research Plan.

                  CLIMATE CHANGE IMPACTS IN THE ARCTIC

    Climate change in the Arctic is already upon us. For example, in 
the last decade scientists have observed substantial changes in the 
Arctic Ocean. Oceanographic studies have shown that warm and salty 
water from the Atlantic Ocean enters the Arctic Ocean through the Fram 
Strait between Svalbard and Greenland. This water mass has increased in 
volume and penetration into the Arctic Ocean and the temperature at its 
core has increased by as much as 2 degrees Celsius. There is enough 
heat in the Atlantic water to melt all of the ice in the Arctic Ocean 
but it is trapped below a surface layer of colder fresher water above 
the ``cold halocline.'' This cold halocline is being eroded by warming 
from below and may, in fact, be gone for parts of the Arctic Ocean near 
Svalbard.
    At the same time, measurements made from US and British nuclear 
submarines have shown that Arctic sea ice is thinning and that the 
reduction has been about 40 percent over the last thirty years or so. 
During the same time the extent of sea ice in the Arctic summer has 
decrease by 5-10 percent. These changes in sea ice cover, if they 
continue at their current pace, will have major impacts on the Arctic 
Ocean. Transportation through the Northern Sea Route and the Northwest 
Passage along the northern coasts of Russia and Canada may be 
substantially increased. Fisheries may expand into regions no longer 
covered by ice while marine mammals and sea birds dependent on the ice 
edge environment may find their lives more difficult.
    The world ocean circulation is fed from the Arctic. Deep convection 
in the Greenland Sea north of Iceland produces cold, dense water which 
sinks into the abyss to circulate around the globe in what has become 
known as the ``Conveyor Belt.'' Changes in temperature and salinity of 
Arctic waters are occurring which may have major effects on the 
``Conveyor Belt.'' The deep convection in the Greenland Sea draws new, 
warm, Gulf Stream water into the region which maintains the anomalously 
warm climate of Scandinavia, Great Britain and the rest of Northern 
Europe. A decrease in deep Arctic convection due to climate induced 
freshening of surface seawater in the region would threaten the 
economies of this important part of the developed world.
    In a similar way, climate change is affecting the Bering Sea. Study 
of climatological and oceanographic records indicate that a ``regime 
shift'' occurred in the Bering Sea sometime in the 1970s. Major changes 
in fish populations occurred during this regime shift including a 
notable expansion of walleyed pollock populations along with declines 
in some other fish stocks.
    More recently, a new phenomenon has occurred in the Bering Sea. 
Changes in the time when sea ice recedes in the Bering Sea change the 
composition of the spring plankton bloom. Massive blooms of 
coccolithophorid algae occur when sea ice leaves the Bering Sea early, 
replacing the diatoms which prevail in more normal years. The small 
animals which feed on these single celled plants do poorly when 
attempting to feed on coccolithophorids and the pollock which eat these 
small animals suffer as a consequence. As climate change continues we 
may see further changes in Bering Sea ice cover.
    Fisheries are changing in the Bering Sea. The species of crab which 
constitute the majority of the catch today are different from those 
caught in abundance a decade or two ago. Herring are scarcer and salmon 
are found in abundance in places where they had not been found before 
while other salmon fisheries such as in Bristol Bay have suffered 
serious declines. Some marine mammals and sea birds have undergone 
substantial changes in recent years. The relationships of these 
phenomena to climate change are only poorly understood but they are so 
important to the State and the Nation that they deserve intensive 
study.
    Similar changes are observed on land. Long term observations of the 
temperature in wells drilled to study permafrost show that subsurface 
temperatures are increasing. Native communities have remarked on 
permafrost destabilization in their villages. Evidence has accumulated 
showing a change in the date of snowmelt at Barrow which is now 40 days 
earlier than it was 30 years ago. When the snow melts, the ability of 
the ground surface to absorb solar radiation increases eight fold with 
the consequence that the ground warms more as well as earlier. to As 
climate change continues changes in permafrost distribution and 
stability will affect much of the Arctic.
    Plants and animals are shifting their distribution patterns, routes 
of travel, nesting and birthing sites and other aspects of their 
ecology and behavior in the Arctic. Satellite studies at the University 
of Alaska have shown that the date of ``greenup,'' when the tundra 
plants begin to grow in the spring, has profound effects on the success 
of caribou calving and calf survival. Experiments at the University's 
research site at Toolik Lake in the Brooks Range show that even minor 
changes is thermal regime cause substantial changes in plant growth and 
nutrient cycling.
    In the Goals Report we have made four principal recommendations for 
research initiatives. These are:
  --Studies of the Arctic Region and Global Change,
  --Studies of the Bering Sea Region,
  --Health of Arctic Residents and
  --Applied Research.
    I will discuss briefly each of these recommendations and how we see 
them carried out.

                     RECOMMENDED RESEARCH PROGRAMS

    The Interagency Arctic Research Policy Committee (IARPC) has 
constructed a new program for the Study of Environmental Arctic Change 
(SEARCH). The SEARCH Program is an interdisciplinary, interagency 
program for the study of rapid environmental change which is already 
occurring in the Arctic region. This program is composed of elements 
from many Federal Agencies. Current activities are based upon current 
(FY 2001) and planned (FY 2002) budgets and are aimed at a combined, 
interagency budget proposal in fiscal year 2003. The purpose of the 
program is to bring the powers of those agencies conducting research in 
the Arctic to bear on the problems and promises of change in the 
region. The Arctic Research Commission is charged with the 
responsibility to work towards integration and the reduction of 
redundancy and overlap in Federal Arctic research programs. For this 
and many other reasons the Commission recommends the support of the 
SEARCH program when it comes before the Congress in fiscal year 2003. 
Dr. Colwell, Chair of IARPC, will, no doubt have more to say about 
SEARCH in her testimony.
    The SEARCH Program currently contains a section on rapid change in 
the Bering Sea. The Commission has recommended in the Goals Report that 
this section of the SEARCH Program be developed into a new program for 
an intensive study of the Bering Sea to be organized on the same 
interdisciplinary, interagency lines as the SEARCH Program. Because 
changes in the Bering Sea include changes in exploitation, technology 
and population which are independent of environmental change, this 
program will be broader in research scope but narrower in regional 
focus than SEARCH. The goals of this program are to develop an 
integrated program which brings together all of the disciplinary 
studies on individual aspects of the Bering Sea into a coordinated 
whole which emphasizes the connections between such diverse studies as 
the physical circulation of Bering Sea water masses and the changes in 
the populations of such top predator species as the Steller Sea Lion. 
In addition, the Commission recommends that this program focus on 
continuous improvements in our predictive capacity through model 
development and data assimilation programs. Every improvement in our 
ability to predict the behavior of the Bering Sea system takes us 
farther away from management by crisis and closer to management of the 
ecosystem through foresight and understanding with the concomitant 
reduction in stresses not only on the environment but also on the 
people who take their livelihood from the Bering Sea. In many ways this 
approach mimics the successful ``Nowcast/Forecast'' model followed by 
the Oil Spill Research Institute and the Prince William Sound Research 
Center--a project which the Commission has followed for some time and 
which has had great success in the study of Prince William Sound.
    In this regard we place high hopes on two other research programs 
for the region: the North Pacific Research Board (NPRB) and BERPAC. The 
NPRB is beginning to organize its research activities. It will, in 
fact, conduct an organizing meeting in Anchorage on the 30th and 31st 
of this month. The resources established for the NPRB place it in a 
strong position to guide and focus the formation of the comprehensive 
Bering Sea research program which the Commission has recommended. We 
are hopeful that the NPRB can play this important role.
    The second program which the Commission has recommended is the 
BERPAC Program, a collaborative U.S.-Russian program for the study of 
the Bering Sea and its surroundings. This study is supported through 
the Department of the Interior and has conducted field studies in the 
Bering Sea on a schedule of roughly one research cruise every three or 
so years. The Commission strongly recommends that the tempo of this 
program be increased to annual cruises and that funds be appropriated 
to allow this increase in program activity. Occasional cruises make for 
difficulties in planning for the home agency. Funds for these exercises 
must be found in the face of the demands of ongoing, base programs. The 
incorporation into the Department's budget of annual field and research 
activities for the BERPAC program will assure that this vitally needed 
information on the Russian side of the Bering Sea will continue to flow 
into the U.S. research and management community.
    Past BERPAC cruises have employed Russian research vessels and 
have, as a consequence, been able to operate in the Russian Exclusive 
Economic Zone without the bureaucratic difficulties which have made 
expeditions on U.S. vessels rare and difficult. In addition, 
participation by Russian scientists in the BERPAC Program has forged 
ties between U.S. and Russian colleagues which, in turn, lead to 
fruitful exchanges of data and information, especially about the 
western part of the Bering Sea where there is little U.S. presence.
    The Arctic Research Commission has recommended a third interagency 
program on Arctic Health. While some of the concerns of this program 
are affected by climate change, the program is largely devoted to 
understanding current and potential causes of ill health in Arctic 
populations and finding ways to prevent or ameliorate them. I recommend 
to the Committee the section on Arctic Health in the Commission's 
Report on Goals and Objectives.
    One of the aspects of climate change which the Commission has 
focussed on for some time is the effect of climate change on civil 
infrastructure. Changes in climate will result in major effects on 
roads, bridges, buildings, airports and other structures. The 
degradation of permafrost in the extensive areas of discontinuous 
permafrost and the increase in the thickness of the seasonally thawed 
active layer in regions of deep, continuous permafrost will result in 
destabilization of structures. In other regions, the final loss of 
permafrost will simplify civil engineering practice and increase the 
durability of structures. Similar benefits and problems will affect 
basic infrastructure requirements for water, waste water and housing. 
While these appear as practical problems, there is much that research 
can do to assist Arctic residents. Research into climate change and 
permafrost changes are part of the basic research activities already 
mentioned but research into appropriate materials, building 
technologies, coatings, corrosion and thousands of other applied topics 
are similarly required.
    Coastal erosion is another facet of climate change needing applied 
research. Much has been spent on projects to moderate or prevent 
coastal erosion but the research base necessary to understand such 
climate change effects as sea level rises and changes in the frequency 
and severity of storms along with the deterioration of coastal 
permafrost which underlies and supports much of the Alaskan coast line 
is clearly insufficient to meet Alaska's needs.
    The Commission recognizes these research needs but finding the 
appropriate Federal Agencies to take on these research tasks is 
difficult and progress is piecemeal with small programs here and there 
throughout the government. The foundation of the Denali Commission is a 
giant step forward in addressing these questions. In addition, the 
Commission has recommended and supported the conclusion of a new 
arrangement for cooperation between the U.S. Army Cold Regions Research 
and Engineering Laboratory (CRREL) and the University of Alaska. CRREL 
is a world class center of excellence in civil engineering in cold 
climates. Their agreement with the University of Alaska assures the 
U.S. Arctic of the resources and expertise necessary to deal with 
infrastructure problems associated with climate change.
    In a similar vein, the Commission has supported two workshops on 
Arctic Ports as a result of our field studies of maritime facilities in 
Alaska. Climate change may bring major changes to the activities of the 
maritime transport system in the Alaska region. These workshops have 
outlined the scope of the problem. The potential for climate change to 
open the Northern Sea Route along Russia's northern coast and the 
historic Northwest Passage in the Canadian North hold the potential for 
major increases in maritime traffic through the Bering Sea. The 
Commission is aware of proposals by the National Ocean Service of the 
National Oceanic and Atmospheric Administration (NOAA-NOS) for a 
program of improvements and upgrades in the maritime transport system 
and supports this program with a special emphasis on Alaska ports and 
transportation facilities.
    Climate change will also affect fisheries. While the Commission 
hopes to address basic research questions in the region through the 
SEARCH and Bering Sea Programs which we have already recommended, a 
vast array of applied fishery research needs continue to be unmet. The 
Commission recommends that Federal Agencies work aggressively to 
address such problems which may result from climate change in the 
Arctic region.
    Climate change will play an important role in the development of 
petroleum resources in the Arctic. Some effects such as earlier 
snowmelt and later onset of winter will hinder exploration and 
construction. Others such as an improved sea transportation season will 
help. In the somewhat longer run, the Commission is aware that climate 
change on the North Slope will change the requirements for restoration 
of abandoned sites and that climate change may be as important an 
influence on Arctic flora and fauna as petroleum exploitation 
activities. Since much of the research in this area is conducted by the 
petroleum producers, the academic research community needs to become 
familiar with their activities and vice versa. Federal Agencies need to 
make themselves aware of all of these results and to take climate 
change into account in their regulatory and environmental impact 
assessment processes.
    At present there is little use of marine transportation for the 
shipment of petroleum in the Arctic but changes in the sea ice cover of 
the Arctic Ocean can be expected to increase interest in this 
inexpensive and efficient means of transportation. The Commission has a 
long history of interest in research into the problems of oil in ice 
covered seas. Many important questions remain to be addressed. Clearly, 
it would be better for all concerned if research into these questions 
were conducted before a serious spill in Arctic waters occurs rather 
than after the fact and in the face of the legal difficulties which 
might arise. The Commission notes the proposal for the Center for 
Advancing Marine Spill Response from NOAA-NOS. Such a center operating 
in concert with other activities established as a result of the spill 
in Prince William Sound could address these problems directly and 
effectively. The Commission supports and recommends to you the 
formation of this center.
    The Arctic Research Commission in cooperation with the Navy/
National Ice Center, the Oceanographer of the Navy and the Office of 
Naval Research recently sponsored a two day workshop on the roles and 
missions of the Navy in an Arctic Ocean in which climate change had 
caused serious regressions in ice cover including becoming ice-free in 
the summer. This workshop, based on the estimates of the future for the 
Arctic marine environment in a warming climate, concluded, among other 
things, that a an expanded program of Arctic Measurement, Modeling and 
Prediction (AMMP) would become essential for evaluation of Navy 
operations in the Arctic Ocean. The workshop participants concluded 
that the Arctic Ocean contains three significant features which require 
an AMMP program: the Arctic is very poorly known or understood, our 
observing network in the Arctic is virtually non-existent, and climate 
change will probably have greater effects in the Arctic than in any 
other potential operating area for the Navy. The Navy's response to 
these conclusions will require some time to formulate and become part 
of their planning. In the mean time, the Commission hopes that 
opportunities to improve these capabilities will receive your support, 
particularly through increased research by the High Latitude Research 
Program at the Office of Naval Research which, for your information, 
has declined by 87 percent over the last decade.

                     RESEARCH FACILITY REQUIREMENTS

    The University of Alaska Institute for Marine Science and the Woods 
Hole Oceanographic Institution are engaged in design studies for new 
research vessels capable of operating in high latitudes and in the ice 
margin zone. While not icebreakers, these ships will be able to study 
this biologically active region without fear of accident due to an 
encounter with sea ice. These ships are being designed to be the most 
advanced fisheries research vessels in the academic fleet. The marginal 
ice zone is one of the most productive regions in the world and 
facilities to work in that environment are crucial for our 
understanding of climate change and its effects on fisheries. The 
Commission supports the efforts of these two outstanding institutions 
to design and build new, marginal ice zone ships.
    From 1993 to 1999 the U.S. Navy carried civilian scientists on 
dedicated science cruises aboard U.S. nuclear fast attack submarines. 
This program, known as SCICEX (for Science Ice Exercises) brought a new 
dimension to Arctic oceanography. SCICEX gave researchers the 
opportunity to visit the Arctic in any season, to travel in straight 
lines for many miles at relatively high speeds, to stop and survey 
novel oceanographic features such as eddies and fronts and to gather 
extensive geophysical survey data of a quality and quantity not 
previously available in the Arctic. SCICEX data illuminated the changes 
noted above in the position of the Atlantic water front. SCICEX 
observations of the thickness of sea ice, when compared with earlier 
submarine observations, demonstrated the surprising reduction in ice 
pack thickness. In 2000 the L. MENDEL RIVERS, the last operational 
submarine of the Arctic capable SSN 637 Class conducted a brief 
``opportunity cruise'' during its trip from the Atlantic to the Pacific 
Northwest where it was decommissioned and will soon be scrapped. This 
ended the era of annual, dedicated science cruises in the Arctic, 
cruises which conservatively doubled our data on environmental 
conditions in the region.
    The Arctic Research Commission was the primary agent for the 
civilian research community in enabling the SCICEX Program in the early 
nineties. We are now searching for new opportunities to gather data on 
climate change in the Arctic Ocean. While the end of the SSN 637 Class 
has brought about a very severe reduction in the number of Arctic-
capable submarines, there are two members of the Los Angeles or SSN 688 
Class which have equivalent design features necessary for safe Arctic 
operations. The Commission remains in contact with the Navy submarine 
force to find ways to continue the SCICEX program.
    In a similar vein, the Commission has conducted discussions with 
experts in the design of Autonomous Underwater Vehicles (AUVs). While 
these lack human presence and, as a result, lack the ability to exploit 
the unexpected, they are excellent vehicles for the systematic survey 
of water mass distributions, water properties, ice distributions and 
geophysical studies of bathymetry, gravity, magnetics and sediment 
structure. Unfortunately, AUVs capable of taking over where the SCICEX 
submarine cruises ended are not currently available and a substantial 
design and development effort is called for which the Commission 
supports and recommends to you as well.
    For the long future, the Navy is considering the construction of a 
new dedicated research submarine known as NR-2 to replace the current 
NR-1. Unlike NR-1 which has limited depth, range, speed and endurance, 
it is expected that NR-2 will have improved capabilities in these 
areas. The research community has indicated the overwhelming importance 
of Arctic capability in the design of NR-2. When the opportunity arises 
for the Appropriations Committee to consider support for NR-2 we will 
be glad to expand on the importance of this ship for the study of the 
Arctic Ocean and its role in global change.
    In conclusion, Mr. Chairman, let me make it clear that global 
change is already active in the Arctic and that its effects are 
expected to be greatest in the far North. Nine out of ten people on 
this Earth live on continents bordering the Arctic yet it remains the 
most poorly understood region of the world. The U.S. Arctic Research 
Commission through its Report on Goals and Objectives for Arctic 
Research has recommended a comprehensive schedule of research aimed at 
understanding and accommodating these changes. Thank you again for this 
opportunity to appear before you.

    Chairman Stevens. Well, thank you all very much. I'm glad 
that you take the time to come make this record. I just sit 
here and wish that my colleagues were here to hear you because 
it's extremely important, the presentations that you all have 
made.
    Are there limiting factors now in our climate modeling? I'm 
thinking about the generation of computers we're dealing with 
or the sensitivity of the sensors we're dealing with. Do we 
have the technological basis to precede now to another phase of 
basic monitoring? Comments?
    Mr. Newton. Additional data is always valuable and----
    Chairman Stevens. I'm talking about the technology base to 
provide it. Dr. Martinson.
    Dr. Martinson. I do think we have the technology to start 
to improve our data base. And as far as the modeling goes, you 
are right. We have been limited for a long time by computer 
power, all sorts of issues about where we acquire our 
computers, et cetera. Those, I believe, have been resolved now. 
And this is particularly important for representing the Arctic 
region in global climate models because one of the things that 
the Arctic demands is very, very high spacial resolution in the 
models. We need finer resolution in the vertical and very small 
resolution from one grid cell to the next. And to put it in 
context, what dictates the resolution of a model is typically a 
certain dynamic characteristics of the basin we're studying. 
And these things all have great technical words, the Rosby 
radius of deformation (ph). And when you look at these 
characteristic scales, they dictate how small a grid cell has 
to be in order to resolve the physics that we need to resolve. 
And because of the stratification and the nature of the Arctic 
Ocean, this radius is so small that it demands that we have as 
many grid scales across the Arctic to resolve it properly as we 
need to have across the Pacific Ocean to resolve it. So as far 
as the models are concerned, we have to have as much power put 
into the Arctic as the entire Pacific Ocean. And every time you 
add a new grid cell or a higher resolution, you tremendously 
add a lot of computing time to the models and that limits our 
ability to make multiple runs or long, long runs. And we have 
to make long simulations in order to evaluate these long-term 
climate changes.
    Chairman Stevens. Did you have something to say, Dr. 
MacDonald?
    Dr. MacDonald. I would just add, in terms of tools, one of 
the key ways in which we can test these models in terms of 
their general predictions of Earth climate systems and in terms 
of their ability to get variability right is by comparing their 
results to paleoclimatic records. You can run a simulation when 
they had less CO<INF>2</INF>; you can run a simulation for a 
climate 125,000 years ago when there was a lot of 
CO<INF>2</INF> and there's probably a little bit--less sea ice 
than today. Our problem or our need in supplying the data that 
they require--we're good with summer temperatures; we still 
have spacial sparsity in our network of sites. We are pretty 
poor with winter temperatures and we're still trying to develop 
techniques in which we can reconstruct winter conditions or 
reconstruct precipitation. The models are getting better at 
precipitation. We need to catch up with them there. And, 
finally, one key area--it's not an area I work in but--is 
getting proxies for where the sea ice was in the past, how it's 
changed in terms of past climate. We have a hard time 
understanding where sea ice was 6,000 years ago, 125,000 years 
ago. And that's a proxy record that really needs to be 
developed.
    Chairman Stevens. Dr. Brass.
    Dr. Brass. Mr. Chairman, the Commission actually visited 
the National Center for Atmospheric Research in Bolder last 
summer. And the climate modelers at NCAR are concerned about 
the limitations on their purchasing of supercomputers and 
supercomputer power. The United States is no longer the leader 
in producing super-duper high-speed, very high-speed computers 
and ``Buy America'' requirements restrict NCAR in what they can 
purchase. And they were quite concerned about that. I don't 
know if it's changed since.
    Chairman Stevens. Pardon me. It's Dr. Brass. I'm sorry. 
Thank you. What about our computer here, Mr. Newton? Is it 
sufficient for your needs?
    Mr. Newton. It is being 100 percent utilized now, as I 
understand it. And it certainly is an outstanding--I can't 
speak to the sufficiency of the needs but I have not heard 
people say that it is inadequate.
    Chairman Stevens. Dr. Martinson, is there a limitation 
because of the ``Buy America'' concept on your research?
    Dr. Martinson. Well, indirectly. I myself am not running 
these models on those machines but the community as a whole has 
felt crushed by the, you know, our restrictions. They have to 
run on the now slower machines and that issue has, apparently, 
been resolved. And I understand it's one for policymakers and 
we, of course, defer to your good judgment on that. But, yes, 
it does. We need very, very powerful computers to do these 
simulations.
    And if you don't mind, I'd like to add one other comment to 
your earlier question about technological--are we there 
technologically to get the observations we need? Well, I can 
think of two instances where we are working on it but we're not 
there. One is, yes, we can see the sea ice extent. That's 
pretty easy to pick up. But we can't get the thickness. And 
everything we know about the thickness has come, or a huge 
fraction of what we know about the thickness, has come from 
this submarine, this SCICEX Program, which has been invaluable 
to our community. It's such a shame to see that go away. And 
some upward-looking sonar devices that have been put around 
here and there throughout the Arctic, we need to have some way 
to come up with an ability to remotely sense the thickness. 
It's a tough challenge. The other thing we need to get is an 
ability to remotely sense the salinity, the surface salinity, 
of the ocean waters which are essentially crucial to this 
conveyor belt and the insulating layer and everything else and 
salt is the fundamental property of interest in the high-
latitude oceans. Temperature is the fundamental property in the 
low latitudes. But we can't get salt from these satellites very 
well right now.
    Chairman Stevens. And I don't want to prolong this but that 
slide you had which was entitled ``A Great Ocean Conveyor 
Belt,'' can you call that back up? That's it. Let me 
congratulate you on your charts that you presented to us. Our 
prominent oceanographer here at the University showed me once 
that there was a northern pattern of--water from Prince William 
Sound that goes up through the chain and goes up into the 
Arctic. Is there a similar sink in the Pacific above the Bering 
Straits that has any impact on the rest of the world?
    Dr. Martinson. Gee, I hate to answer to the Senator from 
Alaska no on that. But to the best of our knowledge the answer 
is no and that has been--a long-term fundamental oceanographic 
question is why on earth does all this deep water start in the 
North Atlantic? What's so special about the North Atlantic as 
opposed to the Pacific? And there have been studies that have 
suggested, during glacial periods, maybe we did have deep 
intermediate waters formed where you ask in the Alaskan regions 
and stuff radiating out of the Pacific. But it has to do with 
the primary atmospheric circulation patterns and what we think 
is the Pacific Ocean receives an excess of fresh water so it's 
just too fresh. And because of the Rocky Mountains. The 
atmospheric circulation pattern is steered so that we have a 
lot of evaporative cooling or evaporation out of the Atlantic 
which makes it a lot saltier. So this water's evaporated out of 
the Atlantic, deposited into the Pacific. And, as I mentioned 
before, it's the salinity which really sets the ability of this 
water to sink and form the deep waters and, right now, the 
Pacific's just not up to the task.
    Chairman Stevens. What I'm looking for is to see whether 
there's any moderating currents here that might offset, in our 
region--Dr. Royer (ph) was the one that did this--gave us a 
presentation once in Washington. I wonder are there any 
moderating factors at all that we know of in Eastern Russian 
and Northern Alaska that might offset some of the trend we're 
talking about?
    Dr. Martinson. Well, I'm not actually not an expert on the 
local currents here. Dr. Royer actually is so if he says there 
is I would defer to that.
    Chairman Stevens. No, he told me there are but I don't know 
whether they're sufficient enough to moderate what you're 
predicting--what the models show us as far as our region is 
concerned. Dr. Brass.
    Dr. Brass. Senator, there is a connection and that is the 
water from the Pacific that comes up through the Bering Sea 
goes through the Bering Straits and tends to run toward the 
east along the north side of the Canadian Archipelago and to 
filter down through there into the Labrador Sea. The Labrador 
Sea is an important site for making deep water as well. I don't 
think anybody yet knows what effects changes in the Pacific are 
going to have on that because, unfortunately, there have been 
very few measurements that flow through the Archipelago. As 
part of the International Arctic Science Committee's 
activities, called ASOF which is the Arctic/Subarctic Ocean 
Flux Program, the Canadians are beginning to spin up a 
measurement program up there in the Canadian Arctic to see how 
that saltier Pacific water filters its way down to the Labrador 
Sea and what effect it may have there. It has an interesting 
signature because it's much higher in nutrients than the 
Atlantic water.
    Chairman Stevens. Do you know if there is a current across 
the top? We've got an open Northwest Passage now, an open 
passage across the top of Russia, I understood, the current 
flow from Russia over to the Bering Sea. Do we know which 
side--what's the flow of the current across the top of our 
continent?
    Mr. Newton. It tends to move from the west to the east.
    Chairman Stevens. West to the east.
    Mr. Newton. From Alaska, the Alaska coastline, along the 
Canadian Archipelago but it has changed significantly. One of 
the things that I am not capable of explaining the North 
Atlantic oscillation and the Arctic oscillation, if you will, 
which have changed the pattern flows of sea ice and currents in 
the Arctic Ocean by its movement in the central Arctic Basin. A 
traditional low pressure area that exists in that area has 
moved dramatically in the last few years. These are all the 
reasons that additional data collection is just so vital in the 
area that is so poorly understood.
    If I may, Senator, to give you an example of how the 
paucity of information on the Arctic and the Arctic Ocean, 
which is really the driving force behind this global climate 
change as we view it. In the SCICEX Program in its 6 years of 
existence, 211 days under sea ice about 57,000 miles, 92,000 
kilometers under sea ice collecting data on the ocean itself 
and ice thickness, we've essentially doubled the store of 
Arctic information available to science. I mean, that's all we 
did. We just doubled it and we did it for 6 years. When you 
compare that to the information and knowledge that exists about 
the temperate oceans where the access is easy and the costs of 
logistics are so much lower, you get an idea of how absolutely 
vital it is that we point resources in the direction of the 
Arctic in order to study it better.
    Chairman Stevens. We get too subjective. I know you 
gentlemen deal with the Arctic as a global situation. We deal 
with the Arctic as our Arctic.
    Mr. Newton. A State situation.
    Chairman Stevens. But I remember so well coming on the 
Manhattan--I don't know if you all know that in 1969 a group of 
us came around on an ice-breaker tanker, trying to get through 
the Northwest Passage. Finally, it beat its way through but it 
was very difficult and, as it went back, it was hit by an 
iceberg and it broke through its double hull. We never use 
tankers to take the oil from the northern part of Alaska 
eastward because of that trip. But the impression I had of 
grinding, that grinding, breaking of that ice, day after day 
and, now, to know that it's open. It's been open now for 3 
years. We need to know more about that. Where's that water 
coming from? How long is it predicted to occur? Is that going 
to sell? We've had applications, I understand, for cruise ships 
to come across through the Northwest Passage next year. And 
should we work with Canada to permit that? Currently, they're 
barred. I don't know. There's lots of questions out there for 
us from a policy point of view. Again, just provincial for us 
in Alaska, but I do think they're important to us to try to 
find out what can we learn about this and is it going to 
continue. I assume, from what your projections are, you don't 
project any reversal of the current warming trend in the 
Arctic, right? So we should anticipate that the Northwest 
Passage and the passage across to Russia--I think they call 
that the Eastward Passage.
    Mr. Newton. Northern Sea Route.
    Chairman Stevens. Northern Sea Route? That will remain open 
also. It has tremendous military impact, tremendous.
    Mr. Newton. Significant and certainly the political 
aspects, Senator, of dealing with foreign countries who claim 
that those particular passages are their national space as 
opposed to our interpretations of their being an archipelago 
and, therefore, ships are eligible for the right of innocent 
passage. There are tremendous concerns as the ice decreases on 
what we can do and how we can do it.
    Chairman Stevens. Again, I'm indebted to all of you for 
coming and I apologize for the absence of my colleagues. We 
will reconvene here at 2 o'clock for the--it is 2 o'clock, 
isn't it?
    Unidentified. two o'clock, right.
    Chairman Stevens. two o'clock for the afternoon panel. And 
I call your attention to the fact that we do have very 
distinguished witnesses: Dr. Margaret Leinen of the U.S. Global 
Climate Research Program, Mr. Dan Goldin, the Administrator of 
NASA, Dr. Rita Colwell, the Director of the National Science 
Foundation, Scott Gudes, the Acting Director of NOAA, and Dr. 
Charles Groat, the Director of the U.S. Geological Survey.
    Thank you very much, gentlemen.
    Unidentified. Thank you, sir.
    Chairman Stevens. I want to thank you for your willingness 
to come and meet here and to contribute to our knowledge 
concerning climate change and its relationship to the Arctic 
Region.
    This afternoon our panel is primarily of people who are 
involved in the Federal side of this operation. And I apologize 
to Margaret Leinen. I've been mispronouncing your name. Another 
senior moment, if you'll forgive me. We'll start with Margaret. 
She's involved with the U.S. Global Climate Research Program. 
Thank you very much.

                      NATIONAL SCIENCE FOUNDATION

STATEMENT OF DR. MARGARET LEINEN, CHAIR, SUBCOMMITTEE 
            ON GLOBAL CHANGE, ASSISTANT DIRECTOR FOR 
            GEOSCIENCES

    Dr. Leinen. Thank you, Senator Stevens. I am the Assistant 
Director for Geosciences at the National Science Foundation but 
I'm here in my capacity as Chair of the Subcommittee on Global 
Change Research which oversees the U.S. Global Change Research 
Program.
    I'd like to thank you for the opportunity to appear before 
the committee here in Alaska and to discuss this program. The 
U.S. Global Change Research Program or USGCRP was established 
by Congress through the Global Change Research Act of 1990 to 
coordinate all of the national research effort on global 
change.
    Understanding global change is probably the most extensive 
and most challenging scientific endeavor ever undertaken. And I 
realize that's a provocative statement but, when you think 
about the global scope, the complexity of the problems and the 
systems and the impact that this can have on all of our 
institutions, it's easy to see what a challenge it is.
    USGCRP has assembled ten agencies involved in all aspects 
of global change. We are the program that coordinates all of 
the agency work that's done by Federal agencies in global 
change. All of the agencies that are appearing with me today 
are part of the U.S. Global Change Research Program and many of 
the scientists that you've heard from today have been funded by 
that program.
    During the last decade the USGCRP agencies have had 
significant accomplishments, some of which you've seen and some 
of which are in the written testimony. Since we're meeting here 
in Fairbanks, many of us have highlighted those discoveries 
with relevance to Alaska and the Arctic. However significant 
these accomplishments have been, I must tell you that our work 
has really only begun. And you've seen that highlighted by the 
scientists who have talked about the uncertainties and the 
lengths between processes and impact that we need to develop. 
We have observed much of it on climate change here and around 
the world and have identified key factors that contribute to 
climate change. But for far too many aspects we're still 
uncertain of how the processes are related to the impacts. It's 
essential that we continue this research in order to establish 
a firm understanding of the important climate processes and the 
impacts that they will have on this Nation and on the world.
    In bringing the agencies together, the USGCRP provides 
added value to the work of individual agencies. Let me explain. 
The first way that the program adds value is by insuring that 
studies can be put in the proper context of scale. Changes in 
Alaska take place in a tapestry of changes that are taking 
place around the world. There are often complex links between 
processes taking place in different parts of the world and 
understanding the links requires international collaboration as 
well as U.S. science. USGCRP supports this international 
collaboration and has developed a number of large scale 
international programs that have led to significant 
discoveries.
    One important example comes from paleoclimate. Next slide. 
In order to understand whether the changes that we see in one 
region, like Alaska and that you saw described by Dr. MacDonald 
this morning, are unusual or whether they're just part of the 
fabric of natural climate variability, we look to the geologic 
record. Scientists in a program called PAGES made paleoclimatic 
reconstructions from geologic records extending back before 
instruments were available to create a temperature record for 
the entire Earth for the last 1,000 years. And you saw part of 
that in Dr. MacDonald's talk. The upper panel here shows the 
instrumental record from thermometers over the last--since 
1860. The lower records shows that paleo-record developed for 
the last 1,000 years and it allows us to see how unusual the 
changes from the most recent century--on the far right hand 
side of the lower diagram--are in comparison with the entire 
last 1,000 years of temperature records. Assembling the data 
from many regions into one coherent picture requires the input 
of hundreds of scientists working collaboratively on records 
from all over the world. Their work demonstrated that the 
global average temperature increased by amount 1 degree 
fahrenheit during the last 100 years. While this is a small 
number, you can see from the diagram that it is a temperature 
change that is unprecedented over the last 1,000 years.
    While processes are often global, the principal impacts of 
climate and global change are regional. Alaska's northern 
location and dependence on natural resources make it 
particularly vulnerable to climate change, as Dr. Martinson 
pointed out. Over the past few decades many changes have 
occurred in Alaska. Average temperatures are up by about 4 
degrees fahrenheit since the 1950's. The growing season is 14 
days longer than during the 1950's. The permafrost is as much 
as 7 degrees fahrenheit warmer than during the last century.
    Conversely, many of the trends in Alaska could have far-
reaching impacts on the globe as a whole. For example, warming 
permafrost could release large quantities of carbon, either as 
carbon dioxide or as methane, a more potent greenhouse gas. 
Local and regional changes in land use and land cover here and 
elsewhere and other human activities can also contribute to the 
global climate. Examples are changes in the reflectivity of 
Earth's surface due to land-cover change. Another is changes in 
carbon dioxide uptake as a result of changing land use.
    Thus, in the U.S. Global Change Research Program we 
consider both down-scaling--that is looking at the global 
changes and how they impact an individual region--as well as 
up-scaling, looking at what's happening in regions and the 
impact that it will have globally.
    A second way that USGCRP provides value is by insuring 
interdisciplinary approaches to problems. Few agencies have 
staff or mandates that cut across the entire scope of global 
change problems. USGCRP has assisted them in enlisting a superb 
cadre of scientists in academic and research institutions, as 
well as in Federal Government, with the competence to address 
these global change problems.
    An example of why this is important comes from the carbon 
cycle. Next slide. While we put CO<INF>2</INF> into the 
atmosphere, the emissions--at the top of this slide--from 
energy production, deforestation and other activities, plants 
take it out of the atmosphere by photosynthesis. Another U.S. 
Global Change Research program, the Global Change and 
Terrestrial Ecosystem Program, determined that several factors 
affect the amount of carbon taken up by plants on land, 
including the regrowth of forests, fire suppression and other 
management practices such as reduced tillage. Also the 
beneficial effects of increased CO<INF>2</INF> in the 
atmosphere on plant growth and the deposition of nitrogen on 
landscapes from some forms of pollution. The comparisons 
between the emissions of CO<INF>2</INF>, measured by 
atmospheric scientists--the top number--as well as the uptake 
of CO<INF>2</INF>, the flux to land--the bottom number--which 
comes from terrestrial biologists, and the uptake of 
CO<INF>2</INF> by the ocean, measured by oceanographers, all 
show that the uncertainties in the uptake numbers are very 
large compared to what we know is in the atmosphere. There's 
growing evidence that there's a missing sink for carbon and all 
evidence points to it being in the Northern Hemisphere and 
being closely related to the biological cycling of carbon on 
land. Understanding this sink will require a broad range of 
disciplines and it's of tremendous policy significance for the 
management of carbon in the atmosphere. And so identifying, 
characterizing and predicting the fate of this Northern 
Hemisphere carbon sink will be an important part of the 
research of USGCRP in the next few years.
    Another interdisciplinary example comes from water-cycle 
studies. Next slide. The National Academy of Sciences has 
stated that, quote, ``Water is at the heart of both the causes 
and the effects of climate change.'' It is essential to 
establish the rates and possible changes in precipitation--
shown here, the trends for the last 100 years in precipitation, 
with green dots showing increasing precipitation, brown dots 
showing decreasing precipitation. Better time-series 
measurements are needed for water runoff, river flow and, most 
importantly, the quantities of water involved in various human 
uses. Studies of the water cycle and its relationship to 
climate change, globally and regionally, will be an important 
part of our work in the next decade. This is not just an issue 
of physical flows of water and energy, water and clouds and 
precipitation. There's also a strong biological component 
because plants transfer large amounts of water from the land to 
the atmosphere, so much so that they determine the climate in 
many regions such as the tropical rain forests. So 
understanding changes in precipitation and water availability 
will require very large interdisciplinary research effort and 
will rely on several techniques that are represented by the 
agencies that are with me today. For example, NASA's 
satellites, the National Science Foundation's long-term 
ecological research stations and so forth. Third, the USGCRP 
provides an effective mechanism for participating agencies to 
engage in planning coordinated future activities. These 
planning efforts involve input from the scientific community to 
identify important and achievable objectives and interagency 
working groups make sure that the individual efforts of 
agencies, when integrated, will meet the agreed scientific 
objectives.
    USGCRP is nearly finished drafting a new long-term strategy 
for the next decade. It is involved in close collaboration 
between many scientists, both in academic institutions and in 
the agencies. The over-arching goal for the second decade of 
the program will be to improve our capacity to project global 
change, to diagnose vulnerability and evaluate opportunities 
for enhancing the resilience of Earth's systems and our human 
systems and, finally, to provide useful knowledge for decision-
making by governments, communities and the private sector. The 
program must address issues from basic natural science to 
socio-economic impacts. Only through the entire scope of these 
areas can we span these difficult issues.
    In Alaska--next slide--you've seen trends in polar bear 
activity, animal migration, growing seasons, et cetera, that 
may be related to 20th century climate change. Such studies 
reveal the vulnerability of ecosystems to global change. My 
written testimony cites work done under the auspices of USGCRP 
in publishing a national assessment which was published this 
last fall called ``Climate Change Impacts on the United 
States'' and your office has copies of this. It outlines the 
potential impact of climate change on the Nation as a whole, on 
several important socio-economic sectors like agriculture and, 
also, on specific regions. In December 1999 we published an 
assessment of the potential consequences of climate variability 
and change for Alaska and many of the agencies here were 
involved in sponsoring and making sure this assessment took 
place. The national assessment identified several key issues of 
concern in Alaska, thawing of permafrost, sea ice melting--
which you've heard about today--increased risk of fire and 
insect damage to forest, the sensitivity of fisheries and 
marine ecosystem, and the increased stress on subsistence 
livelihoods. USGCRP will continue to provide the scientific 
foundation for such assessments and will continue to coordinate 
undertaking such assessments.

                           PREPARED STATEMENT

    I hope that these comments show you the way that USGCRP 
serves to coordinate the activities, the broad and successful 
programs of research that are undertaken by the agencies 
through ensuring appropriate scale, through ensuring 
interdisciplinary approaches, through planning and through 
ensuring that we can assess the impacts of climate change. The 
sustained bipartisan support of Congress and of the 
Administration have made this possible. It's also resulted in 
investments which have developed a new generation of tools that 
promise more rapid progress in the years ahead. We will all 
benefit from the unprecedented amounts of high-quality data 
about the Earth that will be developed by the program and the 
more accurate and realistic models to project the changes 
ahead. Most importantly we expect to learn much more about the 
potential impacts of climate change and the way that we can 
manage them.
    Thank you for your time.
    [The statement follows:]

               Prepared Statement of Dr. Margaret Leinen

                              INTRODUCTION

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to discuss with you the U.S. Global Change Research Program 
(USGCRP) and its potential to help us understand global change in polar 
regions. The USGCRP is the U.S. interagency program charged by Congress 
to coordinate the national research effort on global change. You will 
hear next from the agency heads of the National Science Foundation 
(NSF), the National Aeronautics and Space Agency (NASA), the National 
Oceanographic and Atmospheric Administration (NOAA), and the U.S. 
Geological Survey (USGS), three of the ten agencies that have research 
activities included under the rubric of the USGCRP. The USGCRP began as 
a Presidential Initiative in 1989 and was formally established by the 
Global Change Research Act of 1990. Every Administration and Congress 
has strongly backed the program since its inception. I know the Members 
of this Committee are strong supporters of this research program, which 
is one of our nations's most important scientific efforts. I want to 
thank you for your support on behalf of the scientific community. We 
look forward to working with the Congress to carry on this bipartisan 
tradition of support for sound science on global change.
    I am submitting this testimony to outline some of the significant 
accomplishments of USGCRP-supported research and to cite a few key 
results of the U.S. National Assessment, particularly those related to 
Alaska. My statement also includes a description of key aspects of the 
Administration's fiscal year 2002 budget proposal for global change 
research, the current structure and research activities of the USGCRP, 
and new developments in planning the future of the USGCRP.

                GLOBAL CHANGE AND THE CONTEXT FOR ALASKA

    Global change is an extremely complex and challenging scientific 
topic. Our research of the past decade has shown us that Earth's 
climate system includes intricate links between the atmosphere, the 
ocean, the biosphere and our human activity. Furthermore, it is clear 
that large scale phenomena in one region, like the El Nino-Southern 
Oscillation in the tropical Pacific, reverberate through this climate 
system to create impacts in regions far from their origin, like Alaska. 
To understand which of the many changes that we are now seeing here in 
Alaska are related to global phenomena, which are related to natural 
climate variability, and which are due to human activity, requires that 
study of polar regions be done in a global context. Likewise, many 
climate-related trends in Alaska may result in complex feedbacks that 
have far reaching effects on the global climate. Thus, it is necessary 
for us to consider both ``downscale'' processes, i.e., the global-scale 
effects on regions, and ``upscale'' processes, i.e., regional-scale 
effects on the global scale. The USGCRP is a powerful means of ensuring 
that we can do both. Explaining how the Earth system functions, how it 
is changing, and how it is likely to change under human interventions 
in the future requires a coordinated research effort that cuts across 
many different scientific disciplines.
    During this hearing you will hear testimony from four agencies 
related to their climate change studies. Much of that work has been 
done as a part of the USGCRP. In other cases the work has been 
interpreted in the context of global-scale studies. The USGCRP is the 
``glue'' that allows us to coordinate across agencies to integrate 
across disciplines and enhance understanding of the implications of 
individual studies of climate change.
    I would like to highlight some program accomplishments that 
exemplify links between global changes and changes in Alaska. 
Scientists working under the auspices of the USGCRP have:
  --Observed and understood the growth in atmospheric concentrations of 
        chlorofluorocarbons (CFC) that deplete the stratospheric ozone 
        layer, and increased our understanding of how this layer in the 
        stratosphere protects living organisms from exposure to higher 
        levels of ultraviolet (UV) radiation. Ongoing research and 
        observations have shown that CFC emission controls implemented 
        under the Montreal Protocol treaty on depletion have begun to 
        decrease the concentration of several man-made of these ozone-
        depleting gases in the atmosphere. Controls on the emission of 
        CFC's are especially important for high-latitude regions like 
        Alaska because they help prevent the destruction of the ozone 
        layer and exposing people to potentially harmful levels of UV 
        radiation.
  --Determined from paleoclimatic reconstructions of pre-instrumental 
        temperatures that the 1990s appear to have been the warmest 
        decade (and 1998 the warmest year) in the past 1,000 years, and 
        confirmed that the observed 20th Century warming far exceeds 
        the natural variability of the past 1,000 years. Scientists 
        concluded that the observed increase in global average surface 
        temperature during the past century is consistent with a 
        significant contribution from human-induced forcing. You will 
        hear several examples of trends in Alaska that are consistent 
        with warming: thinning sea-ice, permafrost thawing, etc. But it 
        will only be through studying these trends in the context of 
        the global climate that we can understand whether they are 
        caused by human activity. Scientists understand that there may 
        be far-reaching consequences of warming in high northern 
        latitudes. The permafrost regions include large areas where 
        methane, an important greenhouse gas, is trapped by freezing. 
        Substantial thawing of the permafrost could release large 
        quantities of this methane, further aggravating greenhouse 
        effects. Thus, it is also necessary for us to ``upscale'' 
        impacts from the polar region to their global effect.
  --Documented during the past decade that regional air pollution can 
        be transported over long distances and affect atmospheric 
        composition on a global scale. Plumes of polluted air from 
        industrializing areas of Asia reach Alaska, mineral dust from 
        the Sahara Desert and smoke and ash from Mexican forest fires 
        have also been shown to reach the U.S. The particles in these 
        plumes, called aerosols, can have important health effects. But 
        they also have an important role in the climate system and can 
        result in changes in cloud cover and affect atmospheric 
        temperatures.
  --Detected and attributed to 20th Century climate change, alterations 
        in ecosystems such as shifting of animal ranges and migration 
        patterns, increases in the length of the growing-season, 
        earlier plant flowering seasons, changes in tree growth and 
        reproduction, and die-off of tropical corals. In Alaska you 
        have seen trends in polar bear activity, animal migration, and 
        plant growing seasons that may also be directly related to 20th 
        Century climate change. Such studies reveal the unique and 
        serious vulnerability of ecosystems to global change.
  --Successfully predicted the onset of the 1997-1998 El Nino and the 
        subsequent La Nina, as well as some of the resulting climate 
        anomalies around the world. Improvements in the accuracy and 
        lead times of predictions of seasonal climate fluctuations are 
        providing important information to support decisions for 
        resource planning and disaster mitigation. While the major 
        impacts of these systems is on tropical and mid-latitude 
        regions, other climate components, such as the Pacific Decadal 
        Oscillation in the Northern Pacific Ocean, may permit extended 
        climate outlooks for other regions as well. These global scale 
        oscillations are central to understanding variability of 
        climate and natural resources in Alaska--whether winters are 
        cold or warm and whether salmon are abundant here or in the 
        Pacific Northwest.
  --Identified decreases in the extent and thickness of Arctic sea-ice 
        during the past several decades, and demonstrated that the 
        extent of such decreases may exceed what would be expected from 
        natural variability alone. These changes are important for 
        high-latitude marine life and those who draw sustenance from 
        these natural resources.
  --Concluded that land use change (including recovery of forest 
        cleared for agriculture in the 20th Century) and land 
        management (such as fire suppression), and reduced tillage, 
        along with CO<INF>2</INF> fertilization, nitrogen deposition, 
        and climate change, all appear to play important roles in the 
        North America terrestrial carbon sink.
    These examples of the way that climate change in Alaska is related 
to the planet as a whole hold true for virtually every large region of 
the globe and demand strong interactions between regional studies and 
global studies. Thus, although global in scope, the USGCRP nonetheless 
relates many of its activities and accomplishments in terms of specific 
regional issues.
    Let me note one additional accomplishment. In response to the 
requirements of the Global Change Research Act, the USGCRP helped to 
produce the first national assessment, Climate Change Impacts on the 
United States, recently submitted to Congress. The purpose of the 
assessment was to synthesize, evaluate, and report on what is known 
about the potential consequences of climate variability and change for 
the nation. It includes a detailed examination of the possible impacts 
of change on various geographic regions and socio-economic sectors.
    The overall USGCRP assessment process consisted of three elements: 
(1) the overview cited above, (2) sectoral evaluations for agriculture, 
water, human health, coastal areas, and forests, and (3) a number of 
regional reports. Most of the USGCRP participating agencies have 
sponsored specific sectoral or regional activities. The Alaska report, 
Preparing for a Changing Climate (1999), was one of the first regional 
reports published. It was sponsored by DOI/USGS, NSF, NOAA, and by the 
non-governmental the International Arctic Science Committee, and 
outlined a number of critical issues facing the state. A few of the key 
issues include: permafrost thawing and sea-ice melting, increased risk 
of fire and insect damage to forests, sensitivity of fisheries and 
marine ecosystems, and increased stresses on subsistence livelihoods. I 
will return to them later in the testimony.
    In later testimony you will hear about changes in the fisheries in 
Alaska, especially the critical salmon fishery. You will hear about 
these changes in the context of the complex relationship between fish 
catches and climate changes. During the past decade we have begun to 
understand that tropical and mid-latitude climate events, such as El 
Nino, influence and modify the climate systems of the North, such as 
the Pacific Decadal Oscillation, and that these northern systems 
directly affect the temperature, precipitation and runoff in Alaska. 
Some believe they exert a strong control on fishery success. 
Improvements in the accuracy and lead times of predictions of seasonal 
climate fluctuations are providing important information to support 
decisions for resource planning and disaster mitigation in many parts 
of the U.S. They also allow us to develop a deeper understanding of the 
way that Alaska's fishery resource is affected by far-reaching global 
changes.
    Over the next several years, in addition to supporting research 
that will continue to improve our understanding of the Earth's 
environment and how it is changing, we expect the USGCRP will continue 
to promote efforts to advance our knowledge about the implications of 
such change for society. We intend to do this through research that 
focuses on the interactions of multiple stresses with resource patterns 
and demands created by populations in particular places. In addition, 
the program will continue to support activities that assess the 
potential consequences of global change and conduct periodic 
assessments as called for under the Global Change Research Act. By 
developing the capability to tie the new knowledge gained through 
research to the needs of people in communities, we are striving to 
assist the country to adapt to change and avoid detrimental outcomes.

     CLIMATE CHANGE VULNERABILITIES AND POTENTIAL IMPACTS IN ALASKA

    Alaska's northern location and dependence on natural resources make 
it particularly vulnerable to climate change. The region could 
experience some benefits from climate change, including more favorable 
conditions for ocean shipping and offshore drilling operations (from 
reduced sea-ice) and new commercial timber development (from expansion 
of some forests). However, such potential benefits must be considered 
in the context of 100-200 years of potential ecological upheaval during 
the transition to a fundamentally different environment.
    Over the past few decades, many changes have been observed in 
Alaska:
  --Average temperatures have increased statewide by about 4 degrees F 
        since the 1950s. The largest warming, of about 7 degrees F, has 
        occurred in the interior regions in winter, and summers in the 
        interior are becoming much warmer and drier
  --The growing season has lengthened by more than 14 days since the 
        1950s
  --Precipitation increased by 30 percent over much of the state 
        between 1968 and 1990
  --Continuous permafrost has warmed as much as 7 degrees F during the 
        last century, and all permafrost measurement sites in Alaska 
        warmed between the mid-1980s and 1996
    These changes have already produced impacts. In contrast to other 
regions of the U.S., most of the most severe environmental stresses in 
Alaska at present appear to be climate related. Global climate models 
project continued rapid Arctic warming. Climate models used in the U.S. 
National Assessment project that average annual temperatures in Alaska 
could increase 5-18 degrees F by 2100. Because there are many 
uncertainties in model estimates, we cannot make a firm prediction at 
regional scales, although temperature increases in this range are 
judged a possibility.
    The National Assessment addressed and documented several key issues 
of concern in Alaska. I have summarized some of their results but in 
the interest of brevity, have omitted detailed citations.
    Permafrost Thawing.--Extensive thawing of discontinuous permafrost 
has already been accompanied by increased erosion, landslides, sinking 
of the ground surface, disruption of forested areas and major impacts 
on human infrastructure. Present costs of thaw-related damage to 
infrastructure have been estimated at about $35 million per year. 
Continued warming is expected to result in the thawing of the top 30 
feet of discontinuous permafrost during the next 100 years, which would 
result in much greater impacts than those currently being experienced. 
For example, replacing the supports for the Trans-Alaska pipeline is 
estimated to cost approximately $2 million per mile. Large-scale 
thawing of ground ice can result in the transformation of landscape 
through mudslides, subsidence of up to 16 feet, formation of flat-
bottom valleys, and formation of melt ponds that can grow for decades 
to centuries.
    Sea-ice Melting.--Evidence indicates that the extent and thickness 
of Arctic sea-ice has been decreasing since the 1960s, and climate 
models project that losses will continue. Some models project that 
year-round ice will disappear completely by 2100. Recent modeling 
calculations indicate that recent sea-ice trends are consistent with 
the effects of present greenhouse warming and are highly unlikely to be 
the result of natural climate variability. Retreat of sea-ice increases 
coastal erosion and the risk of inundation, and also causes large-scale 
changes in marine ecosystems, thus threatening the population of marine 
mammals and polar bears. Aerial photography has revealed erosion of up 
to 1,500 feet over the past few decades along some stretches of the 
Alaskan coast, threatening villages in some locations.
    Increased Risk of Fire and Insect Damage to Forests.--The recently 
observed warming has increased forest productivity in coastal areas, 
but reduced it in some interior areas where forests are more moisture-
limited. Warming has been accompanied by large increases in forest 
disturbances, including blowdown, insects, and fire. Since 1992 a 
sustained outbreak of spruce bark beetles has caused more than 2.3 
million acres of tree mortality on the Kenai Peninsula, the largest 
loss from a single outbreak documented in the history of North America. 
There are no clear trends in forest fire frequency at this time. The 
overall area of Alaska, Yukon and Northwest Territories of Canada have 
show almost a doubling in the average annual burn area since 1960. 
Additional research is needed.
    Sensitivity of Fisheries and Marine Ecosystems.--The Gulf of Alaska 
and the Bering Sea support the Nation's largest commercial fishery, 
employing about 20,000 people and accounting for revenues of about $1.5 
billion in 1995. There is increasing evidence that yearly and decadal 
climate variability, likely having its origin in the tropics and mid-
latitudes, is a factor in the fluctuating productivity of these marine 
ecosystems, along with ocean circulation and human harvesting 
practices. Further research is needed to explain the relative effects 
of the multiple stresses on fisheries. Rapid and extreme shifts in the 
organization of these ecosystems occurred in 1924 and 1946. There is 
some evidence for another shift in the mid-1990s, with large declines 
in the Bristol Bay Sockeye salmon run accompanied by huge runs of Pink 
salmon. Projected climate change could have a large effect on these 
ecosystems.
    Increased Stress on Subsistence Livelihoods.--Subsistence practices 
are probably more important in Alaska than any other state. The 
subsistence harvest by rural residents is about 43 million pounds of 
food annually, or about 375 pounds per person. The significance of such 
practices in Alaska goes beyond the provision of food. Subsistence 
activities are also associated with harvests making important 
contributions to health, culture, and identity. Climate changes in 
Alaska are already causing serious harm to subsistence livelihoods. 
Many local populations of marine mammals, fish, and seabirds have been 
reduced or displaced. Reduced snow cover, shorter river ice seasons, 
and permafrost thawing all obstruct travel and the harvest of wild 
food. Continued warming is likely to lead to further ecosystem changes.
    While continued increases in CO<INF>2</INF> concentrations and 
temperatures are likely to bring significant climate change to Alaska, 
there are many remaining uncertainties about the actual rate and 
magnitude of change that will occur, the regional effects of 
temperature change on the hydrological cycle, and, perhaps most 
importantly, about the adaptive capacity of species and the most likely 
effects on ecosystems and human communities. The USGCRP is working with 
its international research partners in the other countries with lands 
in the Arctic region to conduct a major assessment of Arctic changes 
over the next several years that should help reduce these 
uncertainties. The monitoring and analysis of changes in Alaska will 
continue to be an important priority for the USGCRP in the years ahead.

                    THE BUDGET FOR FISCAL YEAR 2002

    The overall fiscal year 2002 USGCRP Budget Request is approximately 
$1.64 billion about 4 percent less than last year's enacted level. 
About $804 million of this total is devoted to scientific research, 
which is basically level with last year's budget. Within the total 
request, surface-based climate observations at NOAA are increased by 
$13 million (about 100 percent), continuing the vital upgrade of these 
capabilities that was begun last year. The space-based observation 
component of the budget is reduced by about $89 million (about 10 
percent), to a total of $819 million. This decrease is mainly a 
consequence of decreases in NASA development costs as the first 
generation Earth Observing System (EOS) satellites (e.g., Terra, Aqua 
and Aura) are completed and launched.
    Some important highlights of the budget proposal include:
  --Improved Climate Observations.--The fiscal year 2002 budget 
        provides $26 million (an increase of $13 million) to enhance 
        NOAA surface-based observations. Measurements of atmospheric 
        trace gases, aerosols, ocean temperatures, and ocean currents 
        will also be expanded, and implementation of the Climate 
        Reference Network to provide, for the first time, simultaneous, 
        automated, and well-located measurements of changing 
        temperatures, precipitation and soil moisture across the U.S., 
        will be continued.
  --Carbon Cycle Science.--The fiscal year 2002 budget request 
        continues strong support for carbon cycle science, providing 
        $225 million (an increase of $9 million or 4 percent) to study 
        how carbon cycles between the atmosphere, the oceans, and land, 
        and the role of farms, forests, and other natural or managed 
        lands in capturing carbon. Key agencies include NOAA, USDA, 
        DOE, NASA, NSF, DOI/USGS, and the Smithsonian Institution.
  --Research on Human Dimensions of Global Change.--The fiscal year 
        2002 budget provides $107 million to study the impacts of 
        global change, including stratospheric ozone depletion and 
        climate variability and change, on communities and human 
        health, an increase of $7 million, or 7 percent. Key agencies 
        include NIH, EPA, NSF, DOE, and NOAA.
        organization of the u.s. global change research program
    The agencies that participate in the USGCRP include the USDA, DOC/
NOAA, DOD, DOE, HHS/NIEHS, DOI/USGS, EPA, NASA, NSF, and the 
Smithsonian Institution. Each year these agencies join to refine 
research priorities for the program. In 1998, the National Research 
Council (NRC) released its report, Global Environmental Change: 
Research Pathways for the Next Decade (NRC, 1998), often referred to as 
the ``Pathways'' report. This report, like many others about the USGCRP 
issued by the NRC, was commissioned by the program and continues to 
strongly influence the definition of the nearterm research challenges 
for the program.
    For fiscal year 2002, the USGCRP is currently addressing a series 
of closely linked program elements that are directly responsive to the 
scientific challenges described in the cited NRC report:
    Understanding the Earth's Climate System.--The focus is on 
documenting past and current causes and rates of change and improving 
our understanding of the climate system as a whole, and thus improving 
our ability to predict climate change and variability. In fiscal year 
2002 $487 million is proposed for USGCRP climate research efforts. 
Climate is a naturally varying and dynamic system with important 
implications for the social and economic well being of our societies. 
Understanding and predicting climate changes across multiple time 
scales (ranging from seasonal to interannual, to decadal and longer) 
offers valuable information for decision making in those sectors 
sensitive to rainfall and temperature fluctuations, including 
agriculture, water management, energy, transportation, and human 
health. Improving our understanding, of climate change, and determining 
how much of the observed changes in the climate are attributable to 
human activities, and how much to natural variability, requires that we 
improve our understanding of both natural variability and human 
effects. Such improvement depends on a balance of observations, studies 
of underlying Earth system processes (such as the El Nino-Southern 
Oscillation, the Pacific Decadal Oscillation, and the Arctic 
Oscillation), and predictive modeling.
    Composition of the Atmosphere.--The focus is on improving our 
understanding of the impacts of natural and human processes on the 
chemical composition of the atmosphere at global and regional scales, 
and determining the effect of such changes on air quality and human 
health. In fiscal year 2002 $310 million is proposed for this research 
area. Changes in the global atmosphere can have important implications 
for life on Earth, including such factors as the exposure to 
biologically damaging ultraviolet (UV) radiation, the abundance of 
greenhouse gases and aerosols (which in turn affect climate), and 
regional air pollution. Human activity that can affect atmospheric 
composition includes the use of chlorofluorocarbons and other 
halogenated hydrocarbons, fossil fuel combustion and the associated 
release of air pollutants, and changes in agricultural and forestry 
practices that affect the concentration of gases such as nitrous oxide 
and methane, as well as that of smoke. As a result, this research is a 
central component of our effort to understand global change.
    Carbon Cycle Science.--The focus is on improving our understanding 
of how carbon moves through the Earth's atmosphere, land, and water, 
the sources and sinks of carbon on continental and regional scales, and 
how such sinks may change or be enhanced. This area continues as a very 
high priority for the USGCRP, with $225 million proposed in fiscal year 
2002 for the comprehensive examination of the carbon cycle as an 
integrated system, with an initial emphasis on North America. 
Comparison of North America to other regions will also be important for 
understanding the relative importance of this region in the global 
context. Data from atmospheric and oceanographic sampling field 
campaigns over the continent and adjacent ocean basins will be combined 
with atmospheric transport models to develop more robust estimates of 
the continental and subcontinental-scale magnitude and location of the 
North American terrestrial carbon sink. Local-scale experiments 
conducted in various regions will continue to improve our understanding 
of the mechanisms involved in the operation of carbon sinks on land, 
the quantities of carbon assimilated by ecosystems, and how quantities 
might change or be enhanced in the future.
    The Global Water Cycle.--The focus is on improving our 
understanding of how water moves through the land, atmosphere, and 
ocean, and how global change may increase or decrease regional water 
availability. For fiscal year 2002 $312 million is proposed. The 
cycling of water through the land, atmosphere, and ocean is intimately 
tied to the Earth's climate through processes including latent heat 
exchange and the radiative effects of water in its vapor, liquid, and 
solid phases. The global water cycle is emerging as a top research 
priority in part because changes appear to be occurring already. Long-
distance atmospheric transport of water, along with evaporation and 
precipitation, are the principal inputs in hydrologic process and water 
resource models. The primary goal of this research is a greater 
understanding of the seasonal, annual, and interannual variations of 
water and energy cycles at continental-to-global scales, and thus a 
greater understanding of the interactions among the terrestrial, 
atmospheric, and oceanic hydrosphere in the Earth's climate system.
    Biology and Biogeochemistry of Ecosystems.--The focus is on 
improving understanding of the relationship between a changing 
biosphere and a changing climate and the impacts of global change on 
managed and natural ecosystems. The budget includes $198 million in 
fiscal year 2002 for ecosystem research. The biosphere consists of 
diverse ecosystems that vary widely in complexity and productivity, in 
the extent to which they are managed, and in their economic value to 
society. Ecosystems directly provide food, timber, fish, forage, and 
fiber, as well as other services such as water cycling, climate 
regulation, recreational opportunities, and wildlife habitats. 
Management of ecosystems and natural resources will be an important 
aspect of society's response to global change. Better scientific 
understanding of the effects of multiple stresses and the processes 
that regulate ecosystems, will improve our capability to predict 
ecosystem changes and evaluate the potential consequences of management 
strategies for sustainability.
    Human Dimensions of Global Change.--The focus is on explaining how 
humans affect the Earth system and are affected by it, and on 
investigating the potential response strategies for global change. The 
budget includes $107 million in fiscal year 2002 for the study of the 
human dimensions of global change. Scientific uncertainties about the 
role of human socio-economic and institutional factors in global change 
are as significant as uncertainties about the physical, chemical, and 
biological aspects of the Earth system. Improving our scientific 
understanding of how humans cause changes in the Earth system, and how 
society and human health and well-being, in turn, are affected by the 
interactions between natural and social processes, is an important 
priority for the USGCRP.
    A much more detailed description of accomplishments and plans in 
each of these research areas will be included in the fiscal year 2002 
edition of Our Changing Planet, the USGCRP annual report, which we plan 
to deliver to Congress in the near future.

                     NEW DIRECTIONS FOR THE USGCRP

    The USGCRP is drafting a new long-term research strategy that will 
increase the program's focus on understanding the resilience of natural 
and managed ecosystems as well as the vulnerability of these systems 
and human society to global change. The planning process has been 
informed by a series of NRC reports, including ``Pathways'', Our Common 
Journey, A Transition Toward Sustainability, (NRC, 2000), Grand 
Challenges in Environmental Sciences (NRC, 2000), and a number of other 
focused NRC reports, scientific assessments and internal analyses.
    A particular need identified in many of these documents is to 
improve understanding of the potential consequences of global change, 
especially at regional scales such as those experienced in Alaska. We 
know that regional impacts will vary significantly, but do not yet have 
the ability to project regional variations accurately. In addition, 
local and regional changes in land use/land cover and in other human 
activities can also combine to affect global climate. Examples are 
changes in planetary albedo due to land cover change and changes in 
carbon dioxide uptake as a result of changing land use. The importance 
of regional research efforts is most recently highlighted in the 
January 2001 NRC report, The Science of Regional and Global Change: 
Putting Knowledge to Work. It states that a high-level focus is needed 
to ensure that ``regionally focused environmental research and 
assessments are developed to complement global-scale research and 
transform its advances into usable information for decision making at 
all spatial scales''. Thus ecosystem research, land-use/land-cover 
change research, and regionally focused environmental research are 
critical elements of our long-range planning.
    Another critical need is to improve understanding of the cycling of 
carbon, nitrogen and water through the Earth's atmosphere, vegetation, 
soils, oceans and hydrological systems. The interactions of climate 
change with the Earth's water cycle and carbon cycle are particularly 
important. The Pathways report identified improved understanding of the 
changing global biogeochemical cycles of carbon and nitrogen as a 
research imperative. It noted that better understanding of carbon 
sources and sinks was needed to ``understand the fractional impacts of 
any industrial or agricultural input to that natural system''. The 
Pathways report also stated that ``. . . water is at the heart of both 
the causes and the effects of climate change. It is essential to 
establish the rates and possible changes in precipitation, 
evapotranspiration, and cloud water content (both liquid and ice). 
Additionally, better time series measurements are needed for water 
runoff, river flow, and most importantly, the quantities of water 
involved in various human uses.''
    The complex relationships between atmospheric composition and human 
activity continue to remain high priorities for our future research, as 
does study of climate variability and change--whether anthropogenic or 
natural.
    Improving our understanding of biogeochemical cycling and regional-
scale impacts requires more sophisticated multi-scale observing 
systems, more powerful computing systems and more capable models, and 
the design and implementation of regional-scale process studies and 
large scale ecosystem manipulation experiments. All of these points are 
strongly emphasized in the Pathways report, which found that modeling 
and climate prediction were key crosscutting themes, and that improving 
the USGCRP observations program is essential. The NRC has emphasized 
the need for improved high-end climate modeling and long-term climate 
observations in three focused reports sponsored by the USGCRP, Capacity 
of U.S. Climate Modeling to Support Climate Change Assessment 
Activities (1998), Adequacy of Climate Observing Systems (1999), and 
Improving the effectiveness of U.S.
Climate Modeling (2001).
    The technical needs identified in these reports include:
  --Procurement of new supercomputers to be dedicated to climate 
        modeling and development of improved climate models;
  --Upgrade of existing ground-based measurement networks for 
        temperature, precipitation, vegetation, soil moisture, snow 
        depth and snow cover, and river flow, and installation of new 
        more advanced measurement stations;
  --Upgrade of atmospheric chemistry measurements, including improving 
        the quality of existing stations, adding new stations to 
        measure change in chemistry and fluxes of carbon dioxide 
        between the atmosphere and terrestrial ecosystems.
  --Procurement of new satellite systems and maintenance of selected 
        existing systems (especially Landsat and some parts of NASA's 
        Earth Observing System) over the long-term, and ensuring 
        research quality measurements on the NPOESS satellite system 
        that is now being developed by NASA, DOD, and NOAA; and
  --Increasing the number and quality of measurements of sea-surface 
        temperatures and currents.
    We believe that the distributed interagency approach to global 
change research is one of the USGCRP's greatest strengths. It brings 
the entire research capability of the federal government to bear on 
this enormously complicated problem. In addition, it effectively 
leverages intellectual and financial resources from research efforts 
taking place in federal agencies and in the academic community 
supported by federal funding. It also brings a high level of scientific 
oversight and review. Our current program has proven very effective at 
coordinating among the USGCRP agencies, each of which has a distinct 
mission and budget. However, our new strategic plan emphasizes tightly 
integrated scientific research and explicitly links research on global 
change with the information needs of resource managers, communities, 
and the economy.
    Our strategy for achieving this integration involves three 
elements: scientific guidance, interagency coordination, and program 
integration by the Subcommittee on Global Change Research (SGCR). The 
U.S. science community brings essential expertise to the USGCRP 
activities and we will develop a scientific steering mechanism for each 
of the elements of our program, as well as for the overall integrated 
program under the guidance of the SGCR. This mechanism will be used to 
develop detailed science plans for each of the elements.
    Once science plans have been developed and reviewed by the 
community, interagency working groups of program officers must 
translate them into implementation plans that can guide budget 
priorities and the planning of specific research campaigns, joint 
announcements of research opportunity, and other mechanisms for 
integrated research. The interagency working groups will provide annual 
program level evaluation of progress toward the scientific goals; 
review will also be provided by the scientific steering groups.
    The USGCRP planning process has identified a number of 
opportunities where the USGCRP is poised to make significant progress 
on these issues. I would like to highlight two areas in my testimony 
today--climate modeling and climate observations.

                            CLIMATE MODELING

    Modeling is among the most important components of the USGCRP. 
Climate change research and analysis are particularly dependent on 
modeling studies, which are an essential tool for synthesizing 
observations, theory, and experimental results to investigate how the 
climate system works and how it is affected by human activities. Model 
experiments provide the only means for predicting near-term 
oscillations in climate (such as the onset of El Nino or La Nina 
conditions) and projecting the longer-term response of the climate to 
increases in greenhouse gas concentrations. They are thus critical for 
resource and community management and planning, scientific assessment 
of climate change, and evaluation of the potential effects of policy 
choices.
    Given the importance of these activities, the USGCRP commissioned 
the NRC to prepare two reports to provide guidance on how to further 
develop U.S. modeling efforts, Capacity of U.S. Climate Modeling to 
Support Climate Change Assessment Activities, and Improving the 
Effectiveness of U.S. Climate Modeling. These reports provide valuable 
guidance to improve U.S. climate modeling efforts.
    The USGCRP sees its challenge as maintaining and strengthening 
research that will help to establish a common modeling framework, 
developing a strategy and implementation plan for enhancing high-end 
modeling, and developing criteria for determining when the high-end 
modeling effort has become primarily an operational activity and hence 
no longer solely the province of the research program.
    A number of significant steps have already been taken towards 
meeting these challenges:
  --The capability and capacity of computing facilities at several 
        major U.S. modeling centers have been upgraded or are scheduled 
        for upgrading. For example, facilities at DOE's Oak Ridge 
        National Laboratory have recently been upgraded, and the 
        National Center for Atmospheric Research (NCAR) is finalizing 
        plans to upgrade the Climate System Laboratory (CSL) computer.
  --Common modeling frameworks are being developed to improve the 
        compatibility and portability of model codes, thus ensuring 
        that software advances can be more easily shared among centers 
        and laboratories. DOE and NASA have requested proposals to 
        further develop these common frameworks.
  --Investigation of the suitability of distributed memory, high-end 
        computers for climate modeling are underway through the DOE 
        Scientific Discovery to Advance Computing (SciDAC).
  --NASA, NOAA, DOE, and NSF are increasing their coordination of 
        modeling activities. A number of bilateral interagency 
        activities have shown substantial progress, and current 
        strategies to support their evolution to a unified modeling 
        framework are underway. For example, the NSF and DOE Avant 
        Garde Software Project is developing a software engineering 
        framework for the Community Climate System Model. In addition, 
        NCAR, NASA, and DOE are committed to a jointly held software 
        repository to support collaboration and possible of modeling 
        activities. This is targeted at building a model to support 
        applications from data assimilation to climate assessment, and 
        those provide a controlled experimental environment to bring 
        together information obtained across the complete range of 
        time-scales from weather to multi-decadal.
    Additional near-term steps are underway to support the objective of 
adding new capacity for high-end modeling in a fashion that permits 
building on the many strengths of the current U.S. modeling program.
    Steps include:
  --Formation of a task force to develop specific recommendations on an 
        approach and schedule for developing high-end modeling 
        capacity. The recommendations of the task force will be 
        reviewed and acted upon by the SGCR and will be included in the 
        USGCRP Strategic Plan.
  --Development of a multi-agency implementation plan that identifies 
        current agency efforts and needed functional augmentations to 
        assure that a focused systematic modeling capability is 
        developed to meet the stated goals. This requires integration 
        with observing systems activities.
  --Development of a multi-agency response that addresses the human 
        resources and performance challenges outlined in the above 
        mentioned reports.

                     LONG-TERM CLIMATE OBSERVATIONS

    The NRC report, Adequacy of Climate Observing Systems (1999), which 
warned of degradation of U.S. capabilities, has had a significant 
effect on the USGCRP. Briefly, over the past several years, many in the 
national and international climate science community have pointed out 
serious and growing problems in our existing observation system, and, 
in particular, a need for additional attention to preserving and 
enhancing surface based observational capabilities.
    The fiscal year 2002 budget augments NOAA's budget by $13 million 
to enhance the long-term surface-based observations that are needed for 
climate change research. This includes funding for the U.S. Climate 
Reference Network which will establish an in situ network to meet long-
term climate observing requirements. Automated stations in selected 
sites will make very accurate measurements of precipitation, 
temperature, and soil moisture. There is also fiscal year 2002 funding 
for upgrade and expansion of the long-term measurements of atmospheric 
trace gases and aerosols at the Alaska, Hawaii, Samoa, and Antarctica 
observatories, and also for enhanced observations of the oceans. 
Finally, we have included support for improving the availability and 
distribution of these climate data and forecasts to the scientific 
community and general public.
    These new resources will be managed within the context of the 
USGCRP, and they will help us build on the progress of the last year, 
which has seen a series of important enhancements to our nation's 
observational programs, both inside and outside the traditional USGCRP. 
We are improving our ocean observing capabilities by deploying 
additional buoys in the Atlantic and northern Pacific oceans and 
modernizing the cooperative observer network that supplies temperature 
and precipitation data that are useful for both climate and weather 
research. Most significantly, we have seen the successful deployment of 
a number of new NASA satellites, including LANDSAT-7, QuikSCAT, 
ACRIMSAT, and EOS Terra, and look forward to EOS Aqua and Aura in the 
future. It is no exaggeration to say that we have begun a new era in 
Earth observations. These new satellites will provide unprecedented 
amounts of high quality data on land cover, clouds, vegetation, surface 
winds, solar irradiance, ocean temperatures, and other variables to 
USGCRP-supported researchers and other users. These data are critical 
to understanding how the Earth system is changing, and I am confident 
that we will be able to look back in ten years and see that their 
availability led to major scientific advances. The successful 
development and deployment of these missions is a credit to NASA and 
its international and interagency partners.
    An important aspect of getting the most out of these improvements 
in technology over the long term will be the development of a closer 
relationship between the research and operational communities in both 
space-based and surface-based observing programs and scientific 
research programs. We are making progress in this area as well, with 
deeper involvement by the USGCRP research community in the design and 
development of the next generation of operational systems, such as the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS).

                               CONCLUSION

    This description shows that the USGCRP is continuing a broad and 
successful program of research on global change that is improving our 
understanding of how the Earth system is changing, and of the human 
role in such change. It also demonstrates the clear need to develop new 
capabilities to understand the regional contributions to global change, 
to develop finer scale regional projections of change, and to link 
researchers and potential users more closely in assessment of impacts 
and adaptation options, so that the nation can prepare for change 
before it occurs. As we look ahead to the next year, and the next 
decade, we can expect to develop a much fuller understanding of the 
processes of change. The sustained bipartisan support for global change 
research has not only enabled steady scientific progress, but has also 
resulted in the development of a new generation of tools that offer the 
promise of more rapid progress in the years ahead. We will benefit from 
unprecedented amounts of data about the Earth, and these data will be 
of higher quality than ever before. We will develop more complex and 
accurate models that permit more realistic simulation of the Earth 
system. Most importantly, we can expect to learn much more about the 
potential consequences of change for ecosystems and for human society.
    Thank you, Mr. Chairman, for your attention today. I would be happy 
now to answer your questions.

    Chairman Stevens. Thank you very much, Ms. Leinen. Our next 
witness is the Administrator of NASA. I apologize to him 
publicly. I introduced him as the Administrator of NOAA at 
noon, but Scott's got a replacement there already. I do thank 
you very much, Dr. Goldin, for coming and being part of this 
process and I would like to have your testimony now. Thank you.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF DANIEL S. GOLDIN, ADMINISTRATOR

    Dr. Goldin. Thank you, Mr. Chairman. Thank you for inviting 
me to testify along with my colleagues on this very crucial 
subject of climate change.
    The trip I made to your beautiful State last summer was a 
real eye-opener for me. This is such a diverse land and most of 
us who live in the lower 48 States have little understanding of 
the true challenges faced by your constituents. After talking 
with the people here and seeing first-hand the environmental 
conditions they face where they live and work, it became clear 
to me that Alaska is being under-served by America's space 
program. And I'm here to tell you that NASA can and will do 
better and, in fact, tomorrow we'll be going to a workshop in 
Anchorage to bring together the scientific leadership of Alaska 
with our NASA people to see how we could better utilize our 
space resources.
    What the agency brings to this scientific discussion is the 
ability to put the climate changes we see in the larger 
planetary context. Our view of Earth from space allows us to 
study our planet as a dynamic system of land, oceans, 
atmosphere, ice and life. This view from space allows us to see 
that the Earth's climate is regulated by a giant thermostat 
where the continual cycling of water and carbon interact to 
maintain global temperatures. The polar regions play a 
significant role in this thermostatic regulating mechanism. 
That is why Earth, alone among its neighbors in our solar 
system, supports such abundant and diverse life. This view 
allows us to see climate changes, adjustments, the setting of 
this global thermostat with a magnitude and consequences we are 
just beginning to understand. I might point out Venus had a 
runaway greenhouse effect because it didn't have the cleansing 
of the carbon dioxide out of the air by the precipitation of 
rain that scrubs carbon out. Our thermostat does that for us 
here on Earth. So Venus is now 700 degrees. Mars doesn't have 
the tectonic activity which recycles the carbon from the 
carbonates that fall on the rocks and go into the oceans and 
come back up the volcanoes and, as a result, Mars is cold and 
dry with a very thin atmosphere. By studying relative 
planetology, we better understand our own and are very 
fortunate to have this thermostat I talked about.
    It is fitting we hold this hearing in Alaska because its 
immense area has a great variety of physical characteristics. 
Nearly one-third of the State lies within the Arctic Circle. 
The southern coast and the panhandle, at sea level, are fully 
temperate regions but in the adjourning Canadian areas lies the 
world's greatest expanse of glacial ice outside Greenland and 
Antarctica. Changes in Alaska in the polar regions are the best 
early indicators of global climate change. Alaskans are already 
seeing some dramatic changes in the environment and the members 
of the morning panel and the distinguished members on this 
panel will be talking about those issues. While it is unclear 
at present how much is due to human influences, it is clear 
that both human and natural factors are at work and the impacts 
are real. Damage to structures and infra-structure due to just 
permafrost thaw today is costing Alaska $35 million. Other 
changes are apparent as well. For example, we have been 
developing models of sea ice processes that control and are 
influenced by climate changes. This has been greatly 
facilitated by all-weather instruments such as passive 
microwave sensors and, more recently, active microwave sensors 
such as scatterometers and synthetic aperture radar. These 
instruments are providing important new insights to sea ice 
processes. Recent accomplishments in this area have included 
detection of a decrease in seasonal and perennial sea ice cover 
dynamics, initial estimates of ice thickness and separation of 
thin ice development. We are also using advanced lasers to 
measure changes in glaciers and ice caps and ice sheets for a 
comprehensive analysis of changes in the Arctic land ice. These 
new observational capabilities enable studies of the sensitive 
marginal ice zones in ways that were not previously possible.
    I'd like to show you a brief video capturing examples of 
some of these global and regional scale changes and how NASA 
enables the world to observe them.
    Let's begin far from the marble halls of our Nation's 
capital, Washington D.C. Out of space we see the Earth in a 
whole new light, a shining sphere of water, air and land. Let's 
for moment suspend time and speak about NASA's vision.
    Have you ever wondered why the Earth alone among its 
neighboring planets harbors highly-diversified life forms? The 
answer is that on planet Earth the water and carbon cycles work 
together to form a giant thermostat that operates to keep 
global temperatures in a livable range. A combination of 
natural and human-induced factors is at work to adjust this 
global thermostat but even slight adjustments can have sizeable 
impacts.
    Now, what does all this mean to Alaska and the rest of 
North America? Here we see differences in the ice pack around 
the Pole. Shifting like an ethereal breath, ice flows like ease 
of bell-weathers of climate change. By keeping a close eye on 
their condition, we maintain an early-warning system of our 
planet's health.
    Research into climate change is one of NASA's most 
important charges. Ours is the task of providing policy-makers 
with information to make sound decisions.
    Here in Alaska you know that change can be both subtle and 
profound. The churning blue surrounding the North Pole in these 
images highlights a gap in atmospheric ozone. NASA experts on 
the international research mission called SOLVE determined that 
a particular type of cloud is responsible for disintegration of 
ozone. Where these clouds form ozone levels drop. This is a 
process of change in the North that we at NASA are working to 
understand better.
    But what of life? The physical sciences of purely 
intellectual exercises cannot relate to our lives. We're 
looking here at the heartbeat of the planet's life cycle, the 
pulse of carbon as it gets absorbed and released by all living 
things over the world as the seasons endlessly turn. Here we 
see plumes of light bursting from rivers and jets of plankton 
powering the processes of global oxygen production and 
sustainable fisheries. These moving tapestries of life are akin 
to a baseline medical checkup for life on Earth.
    This work requires powerful engines. For an agency that 
knows something about engines, it's important to say that we're 
also on the cutting edge of another time. These are the engines 
of the information age. Currently NASA is working on a 
computational leap so profound that it vastly surpasses current 
capacities.
    Here's a glimpse of the future. This is a picture of the 
Earth's climate at work as seen by the virtual brain of a 
present-day supercomputer. The wispy white trails indicate 
water vapor. Soil moisture appears as mottled greens and 
browns. Models like these are the leading edge of the 
revolution in Earth Science.
    We once built and flew entirely independent satellites and 
asked ourselves afterwards whether their data could be combined 
somehow to answer Earth System questions. Today we are flying a 
fleet of four complimentary Earth-observing satellites. We are 
developing new ways to field constellations of complex, semi-
autonomous instruments capable of studying the Earth as a 
system, exploring how its various parts interact to produce 
weather. Future missions like global precipitation measurements 
call for coordinated fleets of highly-reliable advanced 
satellites designed to deliver near real-time information to 
climate experts and water-resource managers. But the future 
urges us to monitor other events, too, including ozone layer 
changes, Earth's overall energy budget, trends in ocean forcing 
(ph) and trends in ocean waters to see how our giant thermostat 
is being adjusted.
    From space the State of Alaska shines as the Nation's North 
Star. Your history, your people and your insatiable thirst for 
adventure inspire all of us at NASA to reach beyond the limits 
of imagination.
    Today we push back the boundaries of what we know so that 
we may see beyond the frontiers of tomorrow.
    Dr. Goldin. I hope this video has succeeded in conveying 
the scope and magnitude of the challenge of global change 
research. As you could see, NASA and its sibling agencies are 
rising to that challenge. Key pieces of the climate research 
endeavor are being conducted right here at the University of 
Alaska in Fairbanks. These include the polar dimensions of the 
global water cycle where much of the world's fresh water exists 
as ice. This great University also hosts the Alaska SAR 
Facility that collects vast amounts of data on how land surface 
change influences the climate system.
    I want to make three points to you this afternoon and leave 
you with one key message about how we need to move forward.
    The first point is that climate change research is a 
marathon, not a sprint. We have learned enough to know that 
human civilization is having an impact on the climate system, 
but it is difficult to accurately and quantitatively 
distinguish this from natural variability. It will take decades 
to completely understand the climate system. In the meantime, 
the Federal science agencies must provide timely, useful 
information to decision-makers who cannot wait for final 
answers to take action. We at NASA are committed to providing 
the best scientific understanding in the fastest possible time 
to support these decision-makers in government and industry.
    Which brings me to the second key point: We need to 
understand all the ways that human activities affect the global 
environment and document the full range of forcing factors and 
responses in the climate system. The science programs that 
underlie policy discussions need to be comprehensive. We need 
to be sure that, as a society, we do not get locked into one 
single-point solution and have no place to go if it doesn't 
work out politically or economically.
    Third and finally, we need to make the investments in 
research that will answer the key science questions and prepare 
us for the future. We need to continue on the path the 
Administration has endorsed for scientific observation of the 
Earth and continue the technological innovation that will 
expand coverage of the polar regions. We are taking the first 
step in deploying the Earth-observing system. This is now in 
full swing. For example, ICEsat, which will be launched this 
winter, will provide the first-time comprehensive and repeated 
coverage of the Arctic Regions, enabling the detection of 
changes in elevation of ice masses in order to assess their 
contributions to sea level changes. The EOS terra and aqua 
satellites will provide unprecedented detailed information on 
the spacial extent of snow cover, surface temperature and cloud 
properties over the Arctic Region. The measurements of sea 
surface winds heighten dynamics by adjacent and Quick-sat 
satellites will enable our understanding of ocean circulation 
and energy exchanges within the Arctic and Equatorial Regions 
of the globe.
    I thank the President for his decision to fund the 
development of the next phase of EOS in the fiscal 2002 budget. 
This will assure continuity of the key measurements and enable 
new ones required to further enhance our understanding of the 
Arctic Regions and their critical role in the global climate 
system.
    We are also developing the next generation of radar 
altimeters that will provide all-weather observation to the 
Arctic Regions. This advanced technology will enable estimates 
of the height of sea ice above the water level, free board 
height, from which ice thickness can be deduced.
    In addition, we are also developing techniques, initially 
using aircraft and, then, hopefully later spacecraft, to 
determine the surface salinity of the water which is key to 
understanding the thermal conductivity and heat capacity of the 
ocean and getting at the energy balance talked about this 
morning.
    This is the one message I'd like to leave you with today. 
We have an opportunity to take another giant step towards the 
goal of understanding the role of the Arctic Regions in the 
global climate system. In preparing for this hearing it became 
abundantly clear to me that we don't place a high enough 
priority on the Arctic research in the Federal establishment. 
Those of us who oversee, fund and manage climate research 
agencies have the opportunity to give our Nation and its 
children and grandchildren a great gift. That gift is the 
capability to understand and predict changes and the 
consequences of change in this cosmic thermostat that enables 
planet Earth to sustain life.

                           PREPARED STATEMENT

    Mr. Chairman, this morning I have talked with Dr. Rita 
Colwell, Director of the National Science Foundation and 
Chairperson of the Interagency Research Policy Committee, along 
with Mr. Scott Gudes of NOAA and Dr. Chip Groat, the head of 
the USGS. We all agreed to work together through the IARC under 
Dr. Colwell's leadership, as a vehicle to bring together the 
relevant Federal agency heads to establish how we could focus 
our collective effort on the Arctic Region in response to your 
challenge of making faster progress in this slowly changing 
region of our Nation. We intend to work focused and hard and we 
thank you for inviting us to this important hearing.
    [The statement follows:]

                 Prepared Statement of Daniel S. Goldin

    Mr. Chairman: Good afternoon. I am pleased to be here today with my 
colleagues from NASA's sister agencies to testify on the very crucial 
subject of climate change.
    The climate change issue has been getting a lot of press attention 
lately, along with considerable dialog among scientists and economic 
experts. Discussions center around a few key questions: To what extent 
climate change is due to natural variability and/or human-induced 
factors, what are the magnitude of future changes, and what if anything 
we can or should do about them. Decision-makers in both government and 
industry are watching this exchange and trying to glean from it some 
reliable information on which to base the multi-billion dollar policy 
and investment decisions they face. They have to make those decisions 
while we are in the midst of a multi-decade climate research endeavor. 
It is the job of the Federal science agencies to provide them the best 
available input, at each point in time, in a clear, understandable 
form, with clarity on the robustness and uncertainties in our state of 
knowledge.
    It is fitting that we hold this hearing here in Alaska. It is the 
general understanding of the science community that changes in Alaska 
and the polar regions are the best early indicators of global climate 
change. If substantial change occurs in the climate system, it is 
expected to show up first and largest in the polar regions. This is due 
to the prevalence of ice and permafrost in the polar regions, coupled 
with the close proximity of average temperatures to the freezing point 
during significant portions of the year. Small changes in temperature 
bring large expanses closer to water's phase change from solid to 
liquid over longer periods of time. And this can have major effects on 
plant, animal, and human life in this broad expanse.
    Today, I would like to review with you the science behind climate 
change, some of the evidence of change both globally and here in 
Alaska, what we know and don't know about climate change, and how we 
are going about finding out.

                  SCIENCE AND SIGNS OF CLIMATE CHANGE

    The Earth has a wonderful natural capacity to regulate surface 
temperatures to make life comfortable for humans and other life forms. 
The Earth's climate system, alone among other planets, constitutes a 
thermostat of cosmic proportion.
    We know now that the operation of this thermostatic mechanism is 
based on external forces such as the solar energy we receive from the 
sun and a set of complex interactions that take place among the 
atmosphere, oceans, continents and life on Earth. For example, the two 
physico-chemical cycles: the carbon cycle through the Earth's 
atmosphere, ocean and the lithosphere on the one hand; and the water 
cycle between the atmosphere, rivers and land, and the oceans on the 
other play a major role in operation of Earth's climate thermostat. 
Together, they serve to capture just the right amount of incoming solar 
energy as heat in the atmosphere. The process by which gases such as 
water vapor and carbon dioxide help to keep energy from escaping into 
space is called the ``greenhouse effect,'' and it's a good thing; the 
Earth would be too cold in its absence to support human life.
    Both the carbon and water cycles are responsible for removing 
carbon dioxide from the atmosphere. Carbon dioxide dissolved in rain 
water slowly, but relentlessly, attacks rocks through the process of 
``weathering.'' The resulting carbonates find their way through rivers 
to the oceans and the ocean floor, where they slowly accumulate and 
constitute enormous limestone deposits. Except for the activity of the 
Earth's interior and the constant recycling of the Earth's crust, 
carbon would have long disappeared from the atmosphere and oceans, thus 
making the Earth forever sterile for life as we know it. As far as we 
know, this is what happened on Mars. In contrast to Mars, Earth has 
active plate tectonics that constantly recycle its crust; no piece of 
the ocean floor is older than 200 million years. The result of this 
recycling causes constant outgassing of carbon dioxide into the 
atmosphere, thus replenishing the carbon supply for life to thrive on. 
On geological time scales, what keeps carbon dioxide from building up 
too much is the evaporation and precipitation of water through the 
atmosphere, which is driven by incoming sunlight. Had the water cycle 
failed to control the on-going accumulation of carbon dioxide through 
precipitation, the Earth's atmosphere would have suffered a runaway 
greenhouse effect and made conditions unlivable at the surface of the 
planet. Such, apparently, was the fate of Venus. On either side of 
Earth, Mars and Venus represent planetary systems unregulated by carbon 
and water cycles. Earth, as Goldilocks might have said, ``is just 
right.'' It has its own thermostat, comprised of these two cycles, to 
keep temperature and precipitation in balance.
    Over hundreds of thousands of years, the natural variability in 
this system has produced what appear to us as extremes, such as ice 
ages, where low temperatures persist for long periods. The past ten 
thousand years has been marked by a very stable climate regime. 
However, the last 150 years have witnessed some important changes. The 
industrialization of human society and the clearing of land for 
agriculture have resulted in carbon dioxide levels 30 percent higher 
than in pre-industrial times, with even larger increases in other 
concentrations of methane, aerosols (dust particles such as soot), and 
wholly new chemicals such as chloroflorocarbons. Today, carbon dioxide 
levels are higher than any time in the past few hundred thousand years. 
The past 150 years have also seen an increase in global average surface 
temperature of more than 1F (.75C), after being stable for the previous 
thousand years. This has been accompanied by a rise in sea level of 
about 1.5mm/year over the past hundred years, due in part to thermal 
expansion of the oceans.
    These changes are reported in global averages, but in fact they are 
not evenly distributed over the globe. As I mentioned earlier, the more 
dramatic changes are occurring at the poles. NASA-sponsored researchers 
have determined that over the past few decades, Arctic sea ice has 
decreased 4 feet (about 40 percent) in thickness and summer sea ice 
extent is declining about 3 percent per decade. Our aircraft altimetry 
flights over Greenland have shown that the ice sheet is thinning on the 
coasts and thickening in the interior. Here in Alaska, surface 
temperatures have increased 4 to 7F (2 to 4C) since the 1950's, and 
precipitation increased 30 percent between 1968 and 1990. These changes 
are having real impacts on Alaskans, as documented in a recent report 
on the regional impacts of climate change--Climate Change Impacts on 
the United States: The Potential Consequences of Climate Variability 
and Change (2001), by the U.S. National Synthesis Team facilitated by 
the U.S. Global Change Research Program, undertaken to fulfill the 
assessment requirement of the Global Change Research Act of 1990. These 
range from a two week lengthening in the growing season to a sustained 
infestation of spruce bark beetles which caused widespread tree deaths 
over 2.3 million acres on the Kenai Peninsula. Permafrost thaw-related 
damage to structures and infrastructure is estimated to be $35 million 
per year at present.
    The key questions are: Are these changes due to natural variability 
in the Earth system, or to human-caused changes in the composition of 
the atmosphere, or both? And if so, what can or should we do about it? 
It is the business of the Federal science agencies to answer the first 
question, and to provide decision-makers with tools to think about the 
second.

           WHAT WE KNOW AND NEED TO KNOW ABOUT CLIMATE CHANGE

    The causes of climate change have been a subject of scientific 
speculation for a long time. Benjamin Franklin proposed that volcanic 
eruptions could affect atmospheric temperatures, a prediction borne out 
by the global impact of the eruption of Mt. Pinatubo. In the late 19th 
century, the Swedish physicist Svante Arrhenius proposed that carbon 
dioxide (CO<INF>2</INF>) emissions could enhance the Earth's natural 
greenhouse effect, leading to global warming. In the 1970's, cooler 
than average temperatures briefly were a cause for concern. But by the 
late 1980's, the century-long trend in warming had resumed, and the 
very hot summer of 1988 turned national attention to the prospects of 
global warming due to increasing concentrations of greenhouse gases in 
the atmosphere. The story is not a simple one, however. A recent 
National Academy of Sciences report, Reconciling Observations of Global 
Temperature Change (NRC, 2000), notes that surface temperatures are 
rising, but lower to mid-troposphere temperatures have risen much less. 
A team of NASA-sponsored researchers has worked over the past few years 
to assemble a consistent satellite data record of global atmospheric 
temperatures, providing the motivation for this NRC study.
    One might ask why NASA is in the climate science business. After 
all, we are most closely associated in the public mind with exploration 
beyond the bounds of Earth. The answer is simple. Climate change is a 
global phenomena involving all major components of the Earth system--
its land, oceans, atmosphere, ice, and life. And if we want to 
understand global-scale phenomena, we have to have a global view of 
Earth--the view that the vantage point of space provides. It is this 
global view and the resulting ability to study the Earth as a dynamic 
system that NASA provides. We provide the larger context in which, for 
example, the National Oceanic and Atmospheric Administration (NOAA) can 
study ocean impacts on weather and climate. This is an active area of 
collaborative research between the two agencies. NASA technology 
produced the Landsat program which enables the U.S. Geological Survey 
(USGS) and NASA to examine land cover change and its impacts on the 
atmosphere. NASA is the world's premier innovator of advanced remote 
sensing instruments and related research for the study of the Earth 
from space, and we are the key source of improvements in our partners' 
operational systems. The U.S. Global Change Research Program serves to 
coordinate climate research among the participating Federal agencies.
    NASA is tackling questions that are at the frontiers of our 
understanding, that have substantial societal relevance, and that 
cannot be addressed without the contribution of the global view from 
space. We seek to understand:
  --Variability in the Earth system, and to identify trends in the 
        midst of this variability;
  --Forces acting on the Earth system due to both natural and human-
        induced factors, and the proportional impact on near and long-
        term climate; for example, increasing aerosol (particle) 
        concentrations in the atmosphere and how they either reflect or 
        scatter incoming solar radiation, or formulate or dissipate 
        rainfall and snow;
  --Responses of the Earth system to change, such as changes in ocean 
        circulation patterns, and how some of these responses feed back 
        to become forcings themselves;
  --Consequences of change in the Earth system in such areas as 
        regional weather, ecosystems productivity, and fresh water 
        availability; and
  --Prediction of change to forecast which trends will continue into 
        the future, which is where the real payoff is, e.g., reliable 
        forecasts of climate one season in advance for agriculture, 
        commercial fishing, and transoceanic shipping.
    An example is our work on the global water cycle. NASA seeks to 
understand how global precipitation, evaporation, and the cycling of 
water are changing. We want to know for two major reasons. First, the 
water content of the atmosphere is a key indicator of climate change. 
If the atmosphere is warming, we would expect increases in the 
atmosphere's water content. Second, and more important for society, 
these patterns of precipitation and evaporation are what determines 
fresh water availability worldwide. If these patterns change, specific 
regions could gain or lose fresh water resources, with significant 
implications for agriculture, hydroelectric power generation, human 
health and recreation.
    This Earth-as-a-system approach to the climate change problem has 
already proven extremely productive. For example, we now have a 
quantitative picture of the Earth's energy budget--that is, how much of 
the Sun's energy reaching the Earth is reflected, scattered in the 
atmosphere, absorbed in the atmosphere, reflected off the Earth's 
surface, or absorbed by the Earth's surface and re-emitted as heat. 
Accounting for all this incoming energy, which is an external force 
acting on the climate system, allows researchers to determine which key 
changes can result in adjustments to Earth's thermostat. Most of these 
measurements can only be made from above the Earth's atmosphere, though 
it is crucial to combine these with ground-based and in situ data to 
get the complete picture. We have also developed a long-term data set 
on cloud cover and cloud type, knowing that the water vapor comprising 
clouds is an important ``greenhouse gas'' itself. Using the TOPEX/
Poseidon spacecraft, we have developed a detailed picture of global 
ocean circulation, and can now measure sea-level change globally from 
space.
    One important outcome of this approach is the identification and 
estimation of the forcing factors that drive climate change. 
``Forcing'' is measured in units of Watts per square meter (W/
m<SUP>2</SUP>), analogous to measuring the pressure applied to a 
surface area. In this case, the `pressure' is the energy (in Watts) 
introduced or retained (via the greenhouse effect) in the atmosphere 
that eventually is manifested as heat, and the `surface area' is the 
atmosphere itself, treated as a two-dimensional blanket over the Earth. 
The attached graph displays a summary of these forcing factors and 
their strengths. Carbon dioxide, methane, ozone, black carbon (soot) 
and solar energy are shown to have a positive forcing, that is a net 
warming, effect on climate, while other aerosols (dust particles), 
cloud changes, and land cover alterations tend to show a negative 
forcing effect, i.e., a net cooling effect. The overall net effect is a 
positive forcing of 1.6 W/m<SUP>2</SUP> in total over the past 150 
years, which we believe translates into about a 1.2C increase in 
temperature. It is this increase that many scientists connect with the 
observed worldwide retreat of alpine glaciers, lengthening of the 
growing season and decline in sea ice in some high northern latitude 
regions, and modest increases in sea level. Because of the long 
response time of the oceans to such forcing, the effect of additional 
greenhouse gases on atmospheric temperatures is not immediate. We have 
only experienced about 0.75C increase in global average temperatures 
thus far; a further increase of about 0.5C is yet to come from 
greenhouse gases already in the atmosphere today. One key feature to 
note on this figure is the presence of the thin bars in each column, 
representing the uncertainty in the forcing influence of each factor. 
In some cases, particularly the clouds and aerosols, the uncertainty is 
as great as the estimates themselves!
    A principal goal of climate research is to monitor variability and 
trends in the climate system, to quantify the forcing factors acting on 
climate, and to incorporate this information into computer models 
representing climate system interactions to attempt to assess the 
responses of the Earth system to changes in these forcing factors. Such 
models are run against known past and current conditions to test the 
validity of the climate system relationships contained within it, and 
then employed to establish climate predictions for the future. However, 
even past occurrences of climate change are difficult to model even 
though the inputs and outcomes are known. Success in ``predicting'' 
present conditions from real, past data, enables some tentative 
predictions of changes 10 to a 100 years in the future. The outcome of 
the model depends significantly on what assumptions about future 
greenhouse gas emissions one adopts as input. In the climate change 
assessment community, these assumptions are called emission scenarios.
    The choices of what to put into a model are thus an essential part 
of the climate research challenge. They directly effect the 
consideration of the consequences of climate change and predictions 
outlined for the future. These latter two steps are, for government and 
private sector decision-makers, the all-important assessment processes 
that provide the basis on which they will be asked to make choices.

         CLIMATE ASSESSMENTS AND ALTERNATE SCENARIOS FOR ACTION

    Two assessments of climate change and potential impacts have been 
published in recent months. The first is Climate Change 2001: The Third 
Assessment Report of the Intergovernmental Panel on Climate Change 
(IPCC). The 3rd assessment predicts climate-related changes under a 
``business as usual scenario'', i.e., without constraints on human-
induced greenhouse gas emissions:
  --Global average surface temperature rise of 1.5 to 5.8C (2.5 to 10F) 
        by 2100;
  --Global mean sea level rise of 0.09 to 0.88 meters (4 to 35 inches) 
        by 2100;
  --Global average water vapor and precipitation increases, with 
        unknown impacts on storm frequency/intensity.
  --Continued widespread retreat of alpine glaciers, with ice sheet 
        mass losses in Greenland and increases in Antarctica.
    The second is Climate Change Impacts on the United States, referred 
to earlier, which uses two emissions scenarios in the mid-range of the 
IPCC set of scenarios to estimate impacts of climate change on eight 
specific regions of the country and six cross-cutting activities (e.g., 
forestry).
    These assessments predict substantial changes both globally and in 
the U.S., with substantial consequences for diverse populations around 
the world. Of importance to Alaska, for example, the Climate Change 
Impacts report predicts the complete disappearance of summer time 
Arctic sea ice by 2100.
    What are we to make of these things? As a science Agency, we can 
only speak to the scientific issues.
    I'd like to make two observations in this regard. First, over the 
past ten years, the worldwide scientific consensus has been building 
toward a view that climate is changing, and that human activities are 
partly responsible. This is based on two broad sets of evidence. One is 
the observation of increasing emissions and atmospheric concentrations 
of CO<INF>2</INF> and other greenhouse gases, and the results emerging 
from climate models that assimilate these data. The second is 
observations of current phenomena that may be the results of warming 
that has already occurred in this century, such as the increase in 
surface temperature, retreat of glaciers worldwide and the lengthening 
of the growing season in northern latitudes. There are some important 
skeptical voices, however; some scientists point out the limitations in 
climate models, such as how the role of clouds in moderating Earth 
climate should be represented. NASA's Earth Science Enterprise funds 
scientifically meritorious research on all sides of this question, 
including two scientists who have done the most work in attempting to 
construct a globally consistent atmospheric temperature record from 
satellite data.
    The second observation is that, while CO<INF>2</INF> emissions 
continue to increase, the average growth rate of CO<INF>2</INF> 
concentrations of the atmosphere has been nearly flat for the past two 
decades. This is due to the sequestration (storage) of carbon in the 
oceans and in forest regrowth, as well as a ``decarbonization'' of 
energy sources (e.g., increasing use of natural gas rather than coal). 
The IPCC emissions scenarios may be underestimating the potential for 
reduction of CO<INF>2</INF> growth rates from these factors.
    This opens the door to new possibilities for consideration by 
decision-makers in government and industry. One alternative scenario 
for action on the climate change issue has recently been proposed by 
Dr. James Hansen, Director of NASA's Goddard Institute of Space 
Studies. Dr Hansen co-authored a paper with four other scientists on 
climate change in the 21century, published in Proceedings of the 
National Academy of Sciences. In that paper, Dr. Hansen defines an 
``alternative scenario'' for the forcing agents that cause climate 
change, based on his fresh look at the Figure (Attachment I) describing 
the forcing factors acting on climate. In considering this figure, he 
notes that the combined impact to date of methane (CH<INF>4</INF>), 
ozone (O<INF>3</INF>), and black carbon aerosols (soot) are about the 
same as that of CO<INF>2</INF>. In contrast to the IPCC's ``business as 
usual'' scenario, in which temperatures will rise from 1.5 to 5.8C over 
the next 100 years in response to an increased forcing of 3 W/
m<SUP>2</SUP> over the next 50 years, Dr. Hansen believes the 
alternative scenario can manage this increased forcing down to 1 W/
m<SUP>2</SUP> or 0.75C (plus the 0.5C already in the pipeline). And 
this could occur with a constant, or slightly smaller, growth rate over 
the next 20 years (consistent with the past 20 years) in CO<INF>2</INF> 
concentrations. By controlling other greenhouse gas emissions in the 
near term, we might essentially buy time for new technologies to enable 
a more economically natural reduction of human-induced CO<INF>2</INF> 
emissions in mid-century.
    Dr. Hansen makes two additional observations of relevance to 
decision-makers. First, he posits that emissions of these three 
substances are easier (and thus less costly to the economy) to control 
than CO<INF>2</INF>. Second, he predicts that reduction of emissions of 
these three will have important human health benefits as well. Ozone 
and soot, two of the forcing factors cited by Dr. Hansen, are major 
contributors to respiratory infections and respiratory-related deaths 
worldwide. He quotes a recent study showing that air pollution in 
France, Austria and Switzerland alone cause 40,000 deaths and half a 
million asthma attacks annually. Dr. Hansen offers an alternative that 
addresses the other greenhouse gases; we need others in the science 
community to propose their ideas as well and provide decision-makers 
with some choices.

          HOW WE ARE MOVING TO ANSWER THE ESSENTIAL QUESTIONS

    It is important to keep in mind that the U.S. is doing more to 
understand the science of climate change than any other nation. In 
fact, the U.S. invests more in this area than the rest of the world 
combined, about $1.7 billion per year compared to approximately $1 
billion internationally. (These numbers are based on fiscal year 1999 
data, the last year for which international data is available. The 
fiscal year 2002 President's request is $1.6 billion, reflecting the 
passing of the peak funding year for the Earth Observing System. The 
U.S. numbers are totals are for the U.S. Global Change Research 
Program). The international numbers are derived from the 2000 report of 
the International Group of Funding Agencies for IPCC). These numbers do 
not include any nation's meteorological satellites even thought they 
are essential data sources. The U.S. is the world leader in this arena 
as well. NASA's Earth Science Enterprise comprises about $1.2 billion 
of the U.S. $1.7 billion investment; we are the largest provider of 
research as well as the principal supplier of Earth system 
observations. This is in addition to what our partner agencies are 
investing, who use some of these same data.
    All of this research is openly solicited and peer-reviewed, and 
most is conducted by researchers at U.S. universities. And, we have 
already learned a great deal. Working with NOAA, we have uncovered the 
mechanics behind the El Nino/La Nina phenomena, and are well on our way 
toward a true predictive capability. We now have a much better idea of 
how much rainfall occurs over the global tropics, which is the key 
factor in the exchange of heat energy between the tropics and the 
higher latitudes. We have a 20-year or more record of global land cover 
change and of incoming solar radiation to help us understand natural 
variability and long-term trends. And, we have made the first 
measurements of Greenland ice sheet thinning and thickening with an 
advanced laser system.
    Research In and For Alaska.--Much of the research and many of the 
observing capabilities NASA develops are directly beneficial to Alaska. 
We recently produced from Landsat data a land cover data set that can 
be used as a baseline against which to compare future changes. The 
Terra satellite allowed us to measure snow cover extent over all of 
North America this past winter. Last year, we funded the measurement of 
land surface topography around key Alaskan airports and other key 
infrastructures to help improve aviation safety and inform future civil 
engineering decisions. Early next year, we will launch ICEsat, the 
first space-based laser altimeter, which will measure the topography of 
the world's ice sheets. We have funded research in glacier volume, sea 
ice extent and thickness, and earthquake and volcano vulnerabilites. 
And, of course, we have invested $100M in the Alaska Synthetic Aperture 
Radar (SAR) Facility since 1993. The Alaska SAR Facility is the world's 
premier capability for acquiring and processing synthetic aperture 
radar data, performing these services for satellites from around the 
world. Together with our sister agencies, we are exploring a new 
cooperative research program called SEARCH that is specifically focused 
on the Arctic region to gain a long-term perspective on Arctic change 
and the impacts of change on regions such as Alaska. Finally, as we 
meet here, another meeting is taking place in Anchorage tomorrow. 
NASA's Earth Science Enterprise is sponsoring a joint NASA/Alaska 
regional workshop with state, local, and tribal officials to explore 
the application of remote sensing to practical problems faced by 
Alaskans.
    Climate Research Tools.--The two principal tools of climate 
research are observations of the climate system to characterize its 
variability, trends and responses, and models to help assess the 
consequences and predictability of future changes. These are closely 
related; observations are employed to establish the initial conditions 
to constrain model runs, and to capture properly the climate system 
relationships in the models. The need for better observations is 
established in part by the uncertainty bars seen in the figure 
depicting forcing factors (Attachment I). It is also apparent in 
thinking about the responses of the climate system to change. What is 
really happening to the polar ice caps, sea ice, sea level, ecosystems, 
and weather as a result of climate changes over decades and longer? The 
need for better models is apparent from the sheer complexity of the 
climate system compared to our current understanding, from the 
diversity of results from competing modeling efforts, and from the high 
stakes involved in the policy and investment decisions faced by 
governments and industries both here and abroad. I will address both 
observations and models below.
    Observations.--As I indicated earlier, we have made enormous 
progress in our early attempts to characterize the Earth system with 
such pioneering satellites as TOPEX/Poseidon. Currently, we are in the 
midst of deploying the Earth Observing System (EOS), the world's first 
satellite observing system designed to monitor the major components of 
the Earth system and probe the key interactions among land, oceans, 
atmosphere, ice, and life to identify their variability and trends. For 
example, the Terra satellite launched in 1999, provides our first 
integrated look at land, atmosphere and oceans, and directly addresses 
the impact of clouds in the climate system. The Aqua satellite, to be 
launched later this year, carries instruments to make the best direct 
global measurements of atmospheric temperature and humidity. These 
instruments are also prototypes of the next generation weather sensors 
that will improve the accuracy of 3 to 5 day forecasts to better than 
90 percent and enable extension of the range of weather forecasting to 
7 days. The Aura satellite, planned for launch in 2003, will attempt 
the first measurements of ozone in the lower atmosphere from space and 
will enable study of the chemical processes that control atmospheric 
composition. The ICEsat instrument, to be launched at the end of this 
year, will yield for the first time precise, global measurements of ice 
sheet topography to help us understand changes in the mass balance of 
ice sheets. Other EOS measurements will continue ocean surface height 
and ocean surface winds measurements to probe the connection between 
weather and climate, and improve the Nation's ability to forecast 
hurricane landfall and occurrences of El Nino. Complementing EOS, a 
series of small exploratory satellites will attempt the first 3-D 
measurements of clouds and aerosols in the atmosphere, with the 
specific purpose of reducing the uncertainties of their impact on 
climate change.
    The Administration has funded the next generation of EOS sensors in 
its fiscal year 2002 budget request. This includes continued 
development of a ``bridge mission'' that will transition climate-
quality measurements to the operational weather satellite system to 
ensure the long-term data record that climate science requires. This is 
an essential point. We need decades of data to fully distinguish 
climate trends from natural variability, and natural from human-induced 
influences on climate. The solar cycle, for example, is eleven years 
long, and we only have two cycles' worth of data thus far to help us 
understand the impact of solar variability on Earth's climate 
variations. The President's fiscal year 2002 budget request also funds 
a Global Precipitation Measurement (GPM) mission. Precipitation is the 
heat engine of atmospheric circulation, governing the transfer of 
energy from the tropics to the higher latitudes. GPM will help us to 
understand how are global precipitation, evaporation, and the cycling 
of water changing. We want to know this for two reasons. First, the 
water content of the atmosphere is a key indicator of global climate 
change. If the atmosphere is warming, we would expect increases in the 
atmosphere's water content. Second, and more important for society, 
these patterns of precipitation and evaporation are what determines 
fresh water availability worldwide. If these patterns change, specific 
regions could gain or lose fresh water resources. GPM will help us 
observe and understand patterns of rainfall over continents that will 
in turn feed models of water storage and river flow. We need reliable 
forecasting capabilities that will help us manage these water resources 
effectively. GPM will also provide precipitation data to weather 
forecasting models, dramatically improving hurricane track prediction 
and forecasts of landfall. I thank the President for his support of an 
aggressive climate observation and research program in the fiscal year 
2002 budget request.
    NASA has already begun to envision where Earth observations should 
go toward the end of this decade and beyond. For example, today's 
geostationary weather satellites do not permit observation over the 
polar regions, yet climate and weather are strongly influenced by ocean 
and atmospheric changes occurring over the poles. Polar weather is 
strongly influenced by frequent sharp temperature contrasts between sea 
ice, open ocean and land and the effects of local topography. Available 
data sets needed for input into numerical weather models typically lack 
the time and space resolution needed to provide good forecasts. This is 
especially true for predicting mesoscale features such as ``polar 
lows,'' which present severe hazards to shipping and the fishing 
industry. While improved surface-based observation networks are needed, 
the remote nature of the polar regions points to the need for 
increasing reliance on satellite data. One possible future course of 
evolution for Earth observation (as resources become available in the 
future) might be sentinel satellites beyond geostationary orbit to give 
us the polar coverage we need to spot those early warning signs. 
Sentinel satellites at L1 and L2 (the neutral gravity points on either 
side of the Earth on the Earth-Sun line), for example, would provide 
those polar views, as well as continuous, full-disk, day and nighttime 
observations of the Earth to observe diurnal change and global 
temperatures. If global average temperatures rise, it would show up 
clearly in global nighttime lows. Other priority observations that 
could be made, as resources become available, are measurements of the 
responses of the Earth system to change, and the factors such as 
aerosols that influence those responses. Observing capabilities to 
follow up on others beginning in the EOS-era, such as ice sheet 
topography and atmospheric chemical constituents, are highly desirable 
as well. However, the observations funded by the President's fiscal 
year 2002 request provides a robust capability for climate research 
that will get us well on our way.
    While I've focused on space-based observations, it is important to 
recognize the essential role of surface, balloon, and aircraft-based 
observations. These make many measurements not possible from space 
today, as well as provide a means to calibrate and validate satellite 
data. The ability of scientists to study climate depends as much on 
data from ocean buoys and air and water sampling networks as it does on 
satellite data. I'm sure my colleagues from our sister agencies who 
operate these observing systems will make this point better than I can.
    While much work remains to be done in establishing the required 
observations, we are on the right path. We know what observations are 
required and what kinds of missions and networks can provide them. We 
have a plan for observing missions for the next decade and an expanding 
web of domestic and international partnerships to produce an integrated 
observing system.
    Models.--What requires greater national attention is state of 
climate modeling in the U.S. Climate predictions, such as those used by 
the IPCC and the U.S. National Assessment, are based on computer models 
that represent the physics of the climate system in mathematical 
equations. These models are initialized by real-world observations, and 
those initial conditions are then allowed to evolve along pathways that 
reflect our best attempts to simulate the forces acting on the climate 
system and its own innate variability.
    In the opinion of the National Research Council (NRC) and some 
quarters of the climate modeling community in the U.S., the U.S. leads 
the world in focused modeling of selected Earth system components, but 
has fallen behind Europe and Japan in global Earth system modeling. 
This is viewed as a strategic shortcoming, since international 
discussions on climate change are thus being fed by models from other 
countries, and because, given the growing economic value of climate 
prediction data, some other countries are not sharing data freely and 
openly, as has been the practice in the past. The fact that two foreign 
models and no American ones were used as the basis for the Regional 
Assessment of Climate Change on the U.S. resulted in criticism of that 
assessment process and its report in both Congress and the NRC.
    Two reasons are cited as to why the U.S. has fallen behind. One is 
that U.S. modeling efforts are fragmented, with no overall guiding 
strategy. While the existence of competing modeling centers is seen as 
a strength, the fact that they have different standards and procedures 
means that collaboration is difficult. The NRC [Capacity of U.S. 
Climate Modeling to Support Climate Change Assessment Activities, 
1998], while recommending the development of a National Climate Model 
for use as a reference standard, believes this can be accomplished 
through better coordination. However, the NRC states that agencies 
engaged in climate research are not now performing this function, and 
need to establish a coordinated national strategy, including a common 
modeling and data infrastructure (software, model code, etc).
    The second is that U.S. researchers do not have access to the 
computers they consider best suited to run climate models, which are 
made in Japan. Both European and Japanese climate modeling centers are 
using these Japanese-built machines. Much is made of this point, 
perhaps too much. There are four legs supporting the modeling stool--
observations, computational capability, software, and the modelers 
themselves. An argument can be made that all four face current 
limitations, and future investments in model improvement must be 
balanced across them to achieve the most improvement for the dollar. As 
important as computing power is the software engineering that enables 
efficient use of that power. A Teraflop machine exists currently, but 
running today's complex climate models without a wholly new, compatible 
software set reduces that machine's efficiency to about 12 percent of 
its theoretical maximum. Climate models require not just a computer but 
a computational hosting medium, comprising both powerful computing 
engines and a set of algorithms that direct that computing power to 
portions of the climate modeling problem that need it. The NRC has done 
a service by penetrating to the next layer in the area of computational 
limitations, acknowledging that the Japanese-built ``vector parallel 
processor'' machines are best for situations where a single model uses 
all or a large fraction of the computing resource, while the U.S. 
``massively parallel processor'' approach is better suited to run many 
smaller jobs in parallel, such as comparisons of runs with minor 
variations introduced, or reprocessing of data sets.
    Both issues need to be addressed in a U.S. modeling strategy. While 
the modeling issues seem as complex as the climate system itself, the 
bottom line is fairly straightforward. Today, the best we do routinely 
is about 5 gigaflops of sustained performance. This enables modeling at 
resolutions of about 2 by 2.5, or about 220 km in resolution on the 
surface of the Earth. Experimentally, we are approaching 30 gigaflops, 
which will enable about 1 by 1, or about 100km. In five years' time, we 
may get to 3 teraflops for one quarter of a degree or less, or 10 to 20 
km in resolution. But these will only enable simulation of time frames 
of hours to seasons. They will be great for regional weather, but not 
for global climate. The decadal and longer time scales needed for 
climate modeling require two to four orders of magnitude improvement 
beyond what is foreseen in the next five years!
    Clearly, we will not get there by brute force extraction of better 
performance from present silicon-based technology and associated 
software tools. And yet that is where the vast bulk of government and 
industry investment is being made. To make real progress on climate 
modeling, we are going to have to step out beyond the current computing 
paradigm into a whole new one. Increasing the speed of today's 
supercomputers alone will not achieve the two to four orders of 
magnitude improvement required. That is because it is not a matter of 
increasing speed in the same direction, but of identifying shorter 
pathways to move from data to information to knowledge. A good analogy 
to illustrate what I mean is how the brain instantaneously integrates 
an enormous amount of data from our senses and rapidly forms mental 
pictures and reasons to conclusions. Consider that hundreds of billions 
are being invested around the world each year in infrastructure, 
property development, and coastal zone management that make implicit 
assumptions about climate stability. Investments in climate modeling 
are well worth it to shape and thus protect those much larger 
investments. We intend to partner with the computing and information 
industry to address our needs while at the same time taking advantage 
of the strong commercial marketplace pull for advanced computing. This 
is vastly preferable to the traditional government research approach of 
investing large sums in single purpose systems that have limited 
utility on the outside and quickly become obsolete. We intend to 
sponsor a workshop with research and industry leaders to start defining 
this new approach.
    Of course, we can't just stand by and wait for the next revolution 
in computing technology. We need to be exploiting the data we currently 
have in the best modeling and computing systems we have to serve 
governments and businesses that need to make decisions today. NASA and 
NOAA are taking such a step together in establishing a Joint Center for 
Satellite Data Assimilation. In addition, NASA is working with USGCRP 
partner agencies on a strategy for high-end modeling. We need to 
continue to exercise our available computing technology, getting more 
out of it by focusing on the software engineering that enables 
supercomputers to run climate models efficiently.

                                SUMMARY

    I hope I have helped you navigate your way through this complex 
topic of climate change. Let me summarize what I believe are the key 
points.
  --The first is that climate change research is a marathon, not a 
        sprint. We have learned enough to know that human civilization 
        is having an impact on the climate system, but it is difficult 
        to completely distinguish this from natural variability. It 
        will take decades to completely understand the climate system. 
        In the meantime, the Federal science agencies must provide 
        timely, useful information to decision-makers who cannot wait 
        for the final answers to take action. We are committed to 
        providing the best scientific understanding in the fastest 
        possible time to support these decision-makers in government 
        and industry.
  --Which brings me to the second key point--we need to understand all 
        the ways that human activities affect the global environment, 
        and document the full range of forcing factors and responses in 
        the climate system. The science programs that underlie policy 
        discussions need to be comprehensive. We need to be sure that 
        as a society we do not get locked into one single-point 
        solution, and have no place to go if it doesn't work out 
        politically or economically.
  --Third and finally, we need to make the investments in research that 
        will answer the key science questions and prepare us for the 
        future. We need to continue on the path the Administration has 
        endorsed for scientific observation of the Earth, and continue 
        the technological innovation that will expand coverage of the 
        polar regions. But in contrast to the observing situation, we 
        need a whole new approach to climate modeling. The path we are 
        on now will result in only incremental improvement; it will not 
        get us where we need to go in truly understanding the responses 
        of the Earth system to climate forcing, nor will it result in 
        the reliable decadal and centennial climate prediction 
        capability we need. Hundreds of billions of dollars are being 
        invested in property and infrastructure and coastal zone 
        management that make implicit assumptions about climate. We 
        intend to form a government/industry partnership in advanced 
        computing and modeling to validate or adjust those assumptions 
        to protect that much larger investment. I suspect that the 
        secondary applications of such an advanced modeling capability 
        will themselves make such an endeavor well worth the effort.
    NASA is committed to doing its part, in partnership with our sister 
agencies, to produce timely, reliable scientific information for 
Federal, State, Local, Tribal and industrial decision-makers. The 
climate change problem is tough, but a well-thought out and funded 
strategy for research can help our Nation act in the best interests of 
our citizens, their children, and the generations to come.
    Thank you for the opportunity to testify before you today.

    Chairman Stevens. Thank you very much. That's good news, 
Mr. Goldin. I appreciate it very much. Our next witness is Dr. 
Rita Colwell, Director of the National Science Foundation.

                      NATIONAL SCIENCE FOUNDATION

STATEMENT OF DR. RITA COLWELL, DIRECTOR

    Dr. Colwell. Good afternoon and thank you, Chairman 
Stevens, for the opportunity to testify. I applaud the 
Committee's initiative in drawing attention to the critical 
issue of climate change in the Arctic and, due to the marvels 
of science and engineering and technology, my staff at NSF 
watched this morning's session and they are watching it this 
afternoon. So, to the folks back on the East Coast, Hi. I may 
add also that transmission of the proceedings today is courtesy 
of collaboration between NSF and NASA, yet another example of 
cooperation between our two agencies.
    I'd like to say that this is an excellent opportunity to 
outline some findings from the National Science Foundation's 
investment in understanding a very complex picture of 
environmental change in the Arctic. And it's a very appropriate 
location to address the issues right here at the University of 
Alaska Fairbanks and in partnership with the International 
Arctic Research Center with Dr. Akasofu and his team here at 
the University.
    I'd like to set the stage for my testimony with a short 
video. I think it indicates very well the wide spectrum of the 
NSF support for investigating the Arctic environment from just 
about every vantage point, so we'll just have the video, very 
briefly.

             Arctic Conservation Erosion of Barrow, Alaska

    (Caleb Pungowiyi talking; sounds of the ocean) I'm noticing 
these mud slides, like pretty bad. But, now, it's the 
permafrost that's coming down and the ground being disturbed 
and more of the permafrost being exposed to the heat and the 
sun and the wind, you know. Now, there's more rain and sun is 
shining all the time and warmer summers. I don't know the 
impact. It doesn't look good for the community, anyway. I think 
we'll have to evacuate the community and move somewhere else. 
[Sounds of various machines] These types of changes--I don't 
know. We're usually pretty good at adapting to shorter changes 
but, something like this, who knows what could go on.
    (Unknown speaker) I believe that the Arctic is a very, very 
important ecosystem to the health of the rest of the planet.
    Dr. Colwell. The last words that you heard--I hope you 
could hear them--on the video are critical. They were that 
Arctic peoples have long adapted to change but they find the 
recent variations in the environment very disturbing. And so 
comprehending the course and the causes of this change is a key 
goal for the NSF's activities in the Arctic but it's one that 
we still are quite far from achieving.
    We now have an extraordinary number of examples of 
environmental change. In the oceans we see thinning sea ice, 
unusual blooms of algae, die-offs of seabirds, plummeting fish 
populations. And on the land, the permafrost is melting in some 
areas and the caribou migration patterns are changing in 
relation to their food supply. And so we work with the Alaskan 
and the Arctic Natives as they contribute their own 
observations on the transformations that they themselves see in 
their way of life. And the value of a very broad historical 
knowledge of the Alaskan indigenous peoples was beautifully 
highlighted this morning by Caleb when he discussed the efforts 
and the observations that are being made. For example, 
fishermen in 1993 observed a couple of new species of salmon. 
There are only eight such fish in their catches and that's 
something that a scientific sampling might not have picked up. 
So it's very important to work closely with the indigenous 
peoples in the Arctic Region.
    The evidence for climate change in the Arctic is mounting 
and it's serious but the picture is not yet comprehensive. We 
don't know whether this change is part of a cycle or is 
following a long-term, possibly irreversible trend. We need 
abundant and accurate observations over time to improve the 
computer models that help predict the environmental change. 
However, we know very little about the Arctic compared to the 
rest of the globe. Access is limited, especially in the winter 
months; and the National Science Foundation, as the major 
supporter of basic research in the region, is committed to 
gathering oceanic, terrestrial, atmospheric, and cultural 
information that will help us refine our models and interpret 
those changes appropriately.
    NSF also plays a vital Federal coordinating role for Arctic 
research and, as NSF Director, I chair the International Arctic 
Research Policy Committee, IARPC.
    So we turn now to some specific work that the NSF is 
supporting on Arctic climate change in three very vital areas: 
sea ice; ocean ecology; and terrestrial impacts. And several of 
these efforts are part of the U.S. Global Change Research 
Program.
    Now, let's begin with what seems to be a moonscape but it's 
actually sea ice off Barrow, Alaska, and it was photographed 
very recently by a robotic aerosonde. These are small pilotless 
planes. They're lightweight. They can travel long distances. 
For example, they weigh 29 pounds and they can traverse 1,500 
miles. And they carry a variety of instruments to monitor sea 
ice and refine climate models. And if you look very closely at 
the right side of the image, you can see the yellow arrow. It 
points to another aresonde flying below. We know that the 
Arctic climate is tremendously sensitive to changes in sea ice 
and that changes in the region's climate can altar global 
climate. And we also know that the sea ice cover has been 
shrinking about 3 percent every 10 years since the early 
1970's. We heard about this this morning.
    Sea ice was also a very important focus of the recent SHEBA 
Project, the Surface Heat Budget of the Arctic Ocean, SHEBA. We 
heard about it this morning. The ice station SHEBA consisted of 
the ice-breaker frozen in the ice and left to drift for a year. 
SHEBA has been the largest single project that NSF has 
undertaken in the Arctic. The Office of Naval Research and NASA 
were also partners in the project. SHEBA results are already 
improving simulations of Arctic climate and the regions effects 
on global climate.
    We have also established an environmental observatory at 
the North Pole. This is a 5-year effort to take the pulse of 
the Arctic Ocean and to determine its effect on climate. 
Automated instruments transmit the data by satellite. And this 
year we also carried out a hydrographic survey from the North 
Pole toward Alaska.
    Our Scientific Ice Expeditions, SCICEX, took yet another 
approach. In cooperation with the Office of Naval Research and 
the Navy, we used submarines to explore the Arctic Ocean ice 
from below, as well as chart the sea floor of the Arctic Ocean. 
This was the only way, really, to determine sea ice thickness 
remotely. And these cruisers, along with the U.S. Navy 
submarine data, show that the ice in the central Arctic Ocean 
has thinned an average of about 43 percent over the past 20 
years. These submarines are no longer available, unfortunately, 
since most of the sub-class has been retired. However, we are 
moving to a new way of exploring under the sea ice with 
autonomous underwater vehicles and you can see it here in the 
artist's rendition.
    Native hunters, fishermen and scientists have all noted 
many signs of change in the ocean ecology of the Arctic. In 
1997, unusually calm, clear weather preceded the first-known 
Bering Sea bloom of coccolithophorid algae, seen here in the 
NASA images as a milky-green cloud in the water. We don't know 
how it's going to affect the rest of the marine food chain and 
it's something we do need to find out.
    Another remarkable change is the almost exponential 
increase in the bio-mass of jellyfish in the eastern Bering Sea 
and this began in 1989. It's quite possible that this signals 
extreme stress in an ecosystem. A seabird called the short-
tailed shearwater died off en-masse, big numbers, during the 
warm year of 1997. Almost 200,000 shearwaters perished, 
apparently through starvation.
    Finally, the spectacled eider, a beautiful bird. This 
threatened diving duck congregates in spectacular flocks south 
of Saint Lawrence Island and research is helping to assess 
whether a decline in food is related to the precipitous drop in 
the population of this duck.
    A major NSF effort, the Global Ocean Ecosystem Dynamics 
Program, is focusing on change in marine environments and the 
U.S. GLOBEC has targeted the Georges Bank in the Atlantic, the 
California Current System, the West Antarctic Peninsula and the 
coastal Gulf of Alaska. NSF puts about $13, almost $14 million 
into this study and NOAA $3 million for GLOBEC in fiscal year 
2001.
    Research in the Gulf of Alaska, as you can see here, is 
just beginning. The program explores how climate change affects 
marine populations, including those of marine commercial fish. 
The main target fish for the Alaska phase is the pink salmon 
which, as you well know, had a dock value of about $34 million 
in year 2000. And we're also looking at the zooplankton that it 
feeds on.
    Let me turn to some patterns of change we see on land. 
Permafrost covers the entire Arctic, including Alaska north of 
Fairbanks. If warming continues, the permafrost thaw zone could 
release huge amounts of carbon dioxide or methane which are 
greenhouse gasses. At the NSF's long-term ecological research 
station at Toolik Lake, Alaska, over a quarter century of 
observations have shown that the water has warmed by about 2 
degrees centigrade and the alkalinity, the Ph, has increased. 
Measurements over longer time-scales are absolutely critical to 
tracking climate change.
    At the same time, migration patterns of caribou have 
shifted due to changes in their tundra food source. This 
affects villages that subsist on reindeer herding. Reindeer are 
joining up with their wild brethren, the caribou, and they're 
disappearing into the wild.
    We believe we're beginning to uncover the drivers of 
climate change in the Arctic. Researchers have identified a 
major pattern of climate fluctuation called the Arctic 
Oscillation. It's a large-scale pattern similar to the southern 
cousin, the El Nino Southern Oscillation, and some scientists 
hypothesize that the Arctic Oscillation, along with 
anthropogenic effects, control Arctic climate.
    Can the pieces of the Arctic climate puzzle--the sea ice 
observations, the shifts in ocean ecology, changes we're 
observing on land--be linked to the Arctic Oscillation? Is the 
Oscillation cyclic or is it following a long-term trend? So 
nine government agencies, including NSF, through our Office of 
Polar Programs at NSF, are involved in a coordinated program 
that's large-scale research called SEARCH, the Study of 
Environmental Arctic Change. I will insert into the record the 
program. To comprehend the fragments of environmental change 
that we're tracing, that we're monitoring in Alaska, we must 
ultimately understand the dynamics of climate across the entire 
region.

                           PREPARED STATEMENT

    In his book about the Yup'ic people, called ``Always 
Getting Ready,'' James Barker, the Alaskan photographer, 
describes how the elders commonly caution the young that ``one 
must be wise in knowing what to prepare for and equally wise in 
being prepared for the unknowable.'' And I think this 
perspective serves us equally well in our quest to understand 
the mysteries of Arctic climate.
    Thank you, Mr. Chairman.
    [The statement follows:]

                 Prepared Statement of Dr. Rita Colwell

    Good afternoon, everyone, and thank you, Senator Stevens, for 
giving me the opportunity to testify today. I applaud the committee's 
initiative in drawing attention to the critical issue of climate change 
in the Arctic. I am very pleased to have this opportunity to outline 
some of the findings from the National Science Foundation's investments 
in understanding the complex picture of environmental change in the 
Arctic.
    I would like to set the stage for my testimony with a very short 
video that suggests the wide spectrum of NSF's support for 
investigating the Arctic environment from every vantagepoint, from work 
with peoples of the region to major research platforms. Let's see the 
video.
    The last words in the video are important: Arctic peoples have long 
adapted to change. But they find recent variations in the environment 
new and disturbing. Comprehending the course and causes of this change 
is a key goal of NSF's activities in the Arctic--but one that we are 
still far from achieving. Absolutely critical to reaching this goal is 
our joint work with the other Federal agencies involved with climate 
change and the Arctic.
    We are enumerating an extraordinary number of examples of 
environmental change. In the oceans, researchers have found thinning 
sea ice, unusual blooms of oceanic algae, die-offs of seabirds and 
plummeting fish populations. On land we find permafrost melting in some 
areas, and changes in caribou migration patterns related to food 
supply. We work with Alaskan and Arctic Natives as they contribute 
their own observations on the transformations that they see changing 
their way of life.
    The evidence for climate change in the Arctic is mounting and 
serious, but our picture is not yet comprehensive. We do not yet know 
for certain whether this change is part of a cycle, or is following a 
long-term, possibly irreversible trend. Understanding the causes, 
however, is critical to making good policy decisions.
    We need copious and accurate observations over time to improve 
computer models that help us to predict environmental change, but--
compared to much of the globe--the Arctic is data-poor. It is difficult 
to reach much of the region, especially in the winter, and there are 
very few research stations. The National Science Foundation is 
committed to gathering the information--oceanic, terrestrial, aquatic, 
atmospheric, cultural--that will help us refine our models, and help us 
interpret these changes.
    NSF has a unique role in that effort. We are the major supporter of 
basic research in the region. We also support the entire spectrum of 
science and engineering. We include the social sciences, which are so 
critical to incorporating native knowledge into the climate change 
picture, and to tracing the threat of contaminants to the health of the 
Arctic peoples. This broad support lets us take a comprehensive 
approach, which is the key to understanding the complexities of climate 
change.
    In addition, NSF plays a vital Federal coordinating role for Arctic 
research. As NSF director I chair the International Arctic Research 
Policy Committee. I'll describe one of that group's new efforts later.
    Finally, along with NOAA, we are supporting the Arctic Climate 
Impact Assessment, whose secretariat is based at the International 
Arctic Research Center, here at the University of Alaska-Fairbanks. 
This collective effort by the Arctic council nations will assess 
climate change in the region and its expected impact on the 
environment, economy, resources, and public health. NOAA will discuss 
ACIA in greater detail today.
    Let me turn now to some specific work NSF is supporting on Arctic 
climate change. I will sketch some examples of NSF-backed research in 
three vital areas: sea ice, ocean ecology, and terrestrial impacts. 
Several of these efforts are part of the U.S. Global Change Research 
Program. [aerosonde image of sea ice near Barrow]
    We begin with what seems to be a moonscape, but is actually the sea 
ice off Barrow, Alaska, photographed recently by a robotic aerosonde. 
These small, pilotless planes, or drones, are being developed to 
monitor sea ice and to refine climate models. If you look closely at 
the right side of the image, you can see a yellow arrow. It points to 
another aerosonde flying below.
    We know that the Arctic climate is tremendously sensitive to 
changes in sea ice, and that changes in the region's climate could 
alter global climate. We also know that sea ice cover has been 
shrinking about 3 percent each decade since the early 1970s, when 
constant satellite monitoring began.
    The aerosondes can help us to learn more. These relatively 
inexpensive devices--$40,000 each--can fly in hazardous conditions and 
over an extremely wide range. Such capabilities are assets for 
obtaining measurements where the use of human pilots would be costly 
and dangerous.
[Artist's conception: aerosonde transmitting data from Alaska by 
        satellite]
    The aerosonde data travel by satellite to the scientists' home 
computers.
[SHEBA: aerial or ice-level view]
    Sea ice was also an important focus of the recent SHEBA project--
short for Surface Heat Budget of the Arctic Ocean. Ice Station SHEBA 
consisted of an icebreaker frozen in to the ice and left to drift for 
one year. SHEBA has been the largest single project NSF has undertaken 
in the Arctic.
    Data from SHEBA revealed some serious flaws in current climate 
models. They do not depict surface reflectivity, or the role of clouds 
in Arctic climate, with accuracy. Nor do the models properly represent 
the way heat is exchanged between the ocean, atmosphere, and ice. 
SHEBA's results are already improving simulations of Arctic climate and 
the region's effects on global climate.
[North Pole Environmental Observatory]
    We have also established an environmental observatory at the North 
Pole, a five-year effort to take the pulse of the Arctic Ocean and its 
effect on global climate. This year we carried out a hydrographic 
survey from the North Pole toward Alaska. Meanwhile, at the station, 
automated instruments transmit climate data by satellite from the ice 
surface and from instruments anchored to the sea floor.
[SCICEX: sub emerging through ice]
    Our Scientific Ice Expeditions--or SCICEX--took another approach. 
In cooperation with the Office of Naval Research and the Navy, we used 
Naval submarines as a unique research platform to explore the Arctic 
Ocean ice from below, as well as to chart the seafloor. These cruises, 
along with U.S. Navy submarine data, show that ice in the central 
Arctic Ocean has thinned an average of 43 percent over the past 20 
years.
[artist's rendering: new autonomous under-ice vehicles]
    Such Naval submarines are no longer available for scientific use. 
Most of this sub class, capable of surfacing through ice, has been 
retired. However, we are moving to a new way of exploring under the sea 
ice. The under-ice equivalent of the aerosondes are autonomous 
underwater vehicles, shown here in an artist's rendering. They are 
designed to make long duration (11-day) forays under ice-covered 
oceans, and can transmit their position and data while underway. We are 
supporting efforts to gather data this way in difficult and 
inaccessible environments.
[coccolith blooms from space]
    Native hunters, fishermen, and scientists all have noted many signs 
of change in the ocean ecology of the Arctic. As we saw in the video, 
during the winter of 2000-2001, ice was almost absent in the Bering 
Sea. Striking environmental change is being documented there; I have 
time to describe only a sampling of the changes being studied with NSF 
support.
    In 1997, unusually calm, clear weather preceded the first-known 
Bering Sea bloom of coccolithophorid algae, seen here as a milky-green 
cloud in the water. The carbonate plates of this phytoplankton are 
reflective and show up well in satellite imagery. This organism is a 
new component of the food web in this part of the ocean. We do not know 
how it will affect the rest of the marine food chain.
[jellyfish]
    Another remarkable change is the almost exponential increase in the 
biomass of jellyfish in the eastern Bering Sea, beginning in 1989. Few 
fish, birds or mammals eat jellyfish. In other oceans, a rise in 
jellyfish populations has signaled extreme stress in an ecosystem.
[shearwater die-off; map and closeup picture]
    A seabird called the short-tailed shearwater died off en-masse 
during the warm year of 1997. Almost 200,000 shearwaters perished, 
apparently through starvation. That is about 10 percent of the 
population. The die-off may be related to major changes in a food 
source: shifts in the mix of species of crustaceans in the Bering Sea.
[spectacled eider]
    We've already seen another seabird in the video, the spectacled 
eider. This threatened diving duck congregates in spectacular flocks 
south of Saint Lawrence Island in March and April to feed on clams in 
the bottom sediments. Benthic studies show that bivalve populations are 
declining in biomass and shifting in species mix. NSF-funded work is 
helping to assess whether a decline in this food is related to the 
precipitous drop of this duck's population in both Russia and Alaska.
[Steller sea lion]
    The population of the Steller sea lion, ranging from Northern 
California to the Gulf of Alaska, the Aleutians, and Japan, has also 
dropped dramatically in the Bering Sea, down to 10-20 percent of peak 
levels. For example, NSF and NOAA data show severe declines in pups and 
adults around the Pribilof Islands since the 1980s. Forage fish have 
declined and killer whales increased near the Pribilofs; both trends 
may have affected sea lion populations.
[Little Diomede]
    NSF is now supporting the establishment of an environmental 
observatory on Little Diomede Island in the center of the Bering 
Strait. North Pacific water rich in nutrients and organic material 
flows through this narrow strait into the Arctic Ocean. The observatory 
will collect chemical, biological and physical data on this water. 
Local teachers at the village school are participating in the study, 
and collaborating with a teacher in the U.S. mainland.
[GLOBEC: 4 sites targeted by U.S.]
    A major NSF effort to understand change in marine environments is 
the Global Ocean Ecosystem Dynamics program. U.S. GLOBEC has targeted 
the Georges Bank in the Atlantic, the California Current System, the 
West Antarctic Peninsula, and the coastal Gulf of Alaska. NSF provides 
$13.5 million and NOAA $3 million for GLOBEC in fiscal year 2001.
[GLOBEC: U.S. West Coast]
    Research in the Gulf of Alaska, shown here, is just beginning. The 
program explores how climate change affects marine populations, 
including those of commercial fish. The main target fish for the Alaska 
phase is the pink salmon (with a ``dock value'' of $34 million in 
2000), and the zooplankton it eats. The overall salmon population 
picture is very complex, but this study will shed new light on this 
economically important fish.
[Fishing vessel Sea Eagle]
    In the Gulf of Alaska, researchers will collaborate with the 
fishing industry, including using the commercial fishing vessel Sea 
Eagle to sample fish populations.
[Northern Hemisphere map: Distribution of permafrost]
    Let me turn now to sketch a few patterns of change we see on land. 
Permafrost covers the entire Arctic, including Alaska north of 
Fairbanks.
    If warming continues, the permafrost thaw zone could release vast 
quantities of carbon dioxide or methane, which are greenhouse gasses. 
Further warming of the Arctic could therefore lead to increased 
greenhouse gasses--accelerating climate warming.
[Toolik Lake panoramic view and two graphs: temperature and alkalinity]
    At the NSF's Long-term Ecological Research Station at Toolik Lake, 
Alaska, over a quarter-century of observations have shown that the lake 
has warmed by 2 degrees centigrade and that the alkalinity of the water 
has increased. The change in the water chemistry may be due to thawing 
permafrost. Measurements over longer time-scales are absolutely crucial 
to tracking climate change.
[reindeer pictures]
    Physical changes alter food supplies and change the habits of 
wildlife, many species of which are economically important to Alaskans. 
Some villages subsist through reindeer-herding. Migration patterns of 
both the Porcupine Caribou Herd and the Western Arctic Herd have 
shifted due to changes in lichen, which is their tundra foodsource.
    Caribou herds have made unprecedented and massive incursions onto 
reindeer ranges on Alaska's Seward Peninsula. NSF and other agencies 
have supported documentation of Native knowledge and of their 
observations of environmental changes such as these. As the reindeer 
join up with their wild brethren, the caribou, and disappear into the 
wild, the herders lose their livelihood. One study is tracing the 
ecological, economic, and social effects of this change.
    Another urgent concern of Arctic natives is the flow of 
contaminants from elsewhere that find their way to the Arctic, 
transported by the atmosphere, oceans, and rivers. Shifting climate 
patterns could affect the transport of these contaminants. In one 
study, elders helped scientists design research on whitefish and 
contaminants in freshwater lakes.
[Arctic Oscillation]
    We believe we are beginning to uncover the drivers of climate 
change in the Arctic. Researchers have identified a major pattern of 
climate fluctuation, called the Arctic Oscillation. It is a large-scale 
pattern similar to its southern cousin, the El Nino-Southern 
Oscillation. Some scientists hypothesize that the AO plus anthropogenic 
effects control Arctic climate.
[SEARCH]
    Can the pieces of the Arctic climate puzzle--sea ice observations, 
shifts in ocean ecology, changes on the land--be linked to the Arctic 
Oscillation? Is the Oscillation merely cyclic or is it following a 
long-term trend? Answering these questions will require not only more 
research but also greater integration of Arctic science.
    Nine government agencies, including NSF--through our Office of 
Polar Programs--are exploring a coordinated, large-scale effort to 
study environmental change in the Arctic. I'm pleased to be the lead 
Federal official in working with the Administration on these plans for 
SEARCH, the Study of Environmental Arctic Change. To comprehend the 
fragments of climate and environmental change we trace in Alaska, we 
must ultimately understand the dynamics of climate change across the 
entire region, which in turn have global connections.
    NSF supports research in the Arctic at the smallest and largest 
scales, and across the disciplines, and results are flowing in. But the 
most powerful answers will require integrating all the data from our 
numerous sources into a single coherent picture. Today, our new 
technologies--such as the Internet--and our new perspectives on 
collaborating across disciplines and institutional boundaries, set the 
stage for understanding the complexities of climate change.
    In his book about the Yup'ik people, called ``Always Getting 
Ready,'' James Barker, the Alaskan photographer, describes how the 
elders commonly caution the young that ``one must be wise in knowing 
what to prepare for and equally wise in being prepared for the 
unknowable.'' This perspective serves us equally well in our quest to 
understand the mysteries of Arctic climate. Thank you.
    [Clerk's Note.--The following report ``The Interagency 
Program for the Study of Environmental Arctic Change (SEARCH), 
prepared by the Interagency Working Group for the Study of 
Environmental Arctic Change, June 29, 2001, can be found in the 
subcommittee files.]

    Chairman Stevens. Thank you very much, Dr. Colwell, and 
thank you very much for coming. Our next witness is Scott 
Gudes, Acting Director of the National Oceanic and Atmospheric 
Administration. He's accompanied by Thomas R. Karl, the 
Director of NOAA's National Climatic Data Center. Scott.

                         DEPARTMENT OF COMMERCE


            National Oceanic and Atmospheric Administration

STATEMENT OF SCOTT B. GUDES, DEPUTY UNDER SECRETARY FOR 
            OCEANS AND ATMOSPHERE

    Mr. Gudes. Thank you. I also have Dr. Calder who's the head 
of our Arctic Research Program.
    Chairman Stevens. Pardon me. Thank you. Nice to have you 
here, Doctor.
    Mr. Gudes. Chairman Stevens, let me thank you on behalf of 
Secretary Evans, the men and women at NOAA, for your interest 
in climate, for your interest in the oceans and the atmosphere 
and all of our programs. I would note that for most of the 
agencies up here, you're not only the Chairman of the 
Appropriations Committee, you're also on our Authorization 
Committee and I don't know if all the people here in Fairbanks 
and Alaska understand the significance of that. We certainly do 
know your leadership over the years and what an impact you've 
made in all of our programs.
    Let me say, first, that climate research and climate 
observations and forecasts are an important area for NOAA. They 
have been since the inception of the agency back in 1970. In 
fact, you may remember that Dr. Bob White, the first 
Administrator of NOAA, was a big advocate of NOAA moving 
forward into climate. And he points out that, when the Stratton 
Commission was created, it was a theory that the Pacific 
controlled a lot of the climate in the continental United 
States; That El Nino had a major impact on rains, and he pushed 
forward (indiscernible) effort that NSF worked on and NOAA 
worked on. And, now, in 1997, when we came forward with a 
prediction of heavy rains in California with an El Nino event 
people saw that in fact that came to fruition, that we can 
forecast climate.
    Climate is seasonal for NOAA. We come forward with a 
forecast every few months from the Weather Service and our 
research components, and we talk about drought probability in 
an area or higher than normal temperatures. It is also this 
longer-term type issue that we're talking about today. And I 
should note that, of our seven strategic goals at NOAA, two of 
them relate to climate, seasonal to interannual and the decadal 
to centennial change. In fact, we spend about, in total, about 
$240 million a year on climate programs and all those sort of 
categories.
    Okay, next slide. Here, I'd just like to note that climate 
is important to all of our programs here in Alaska, that Alaska 
is important to NOAA programs. And we have some 460 plus 
employees that work around the State. We have, of course, the 
regional head of--our Alaska Fisheries is in Juneau where I'll 
be going tomorrow. We have the Tsunami Warning Center in 
Palmer. We have research and Weather Service employees in 
Barrow, all over the State and, in fact, we have 50 contract 
employees here in the Fairbanks area that operate and control 
all of our polar satellites. Climate affects all these 
activities around the State. It's important to everyone. It's 
important to our Weather Service employees who are out in those 
rural communities like St. Paul and Kotzebue and Nome and 
Yukatat and they're there--when you were talking about coastal 
erosion yesterday, they're there; they're taking part; they're 
members of those communities. But it relates to probably all 
the sort of services and operations that we perform. It 
obviously, as Dr. Colwell just mentioned, it relates to 
fisheries and marine mammals. It relates to coastal management 
and our efforts to prepare communities for coastal storms. It 
relates to weather and, I think Orson Smith mentioned this 
morning, river forecasting. That's one of the Weather Service's 
missions. In fact, our River Forecast Center is in Anchorage, 
for Alaska. It relates to public safety and that goes to the 
core of the mission of NOAA. So climate is a major issue and 
it's a major issue for us here in Alaska.
    Next slide. I think most of this was covered this morning. 
I think it's important to note that you really can't focus on 
the climate here in Alaska without understanding the total 
global climate system that's been referred to by a few people 
here. But I think there's two points on this chart I'd just 
like to make that weren't covered. One is, on the lower left, 
those are measurements of CO<INF>2</INF> and other gasses in 
the atmosphere. That's done at our Barrow Observatory. You 
visited our South Pole Observatory back in January 1998. We 
have four that are these continuous measurements. Mauna Loa 
goes all the way back to 1959. And so we have these sort of 
records that enable the world to know from a ground-based 
source just how much CO<INF>2</INF> or methane or other gasses 
are in the atmosphere. The other measurement, where it says 
``Warming of World Oceans,'' that should say 3,000 meters, 
about 10,000 feet. Dr. Syd Levitus (ph) of our National Ocean 
Center and Tom Delworth (ph) of our Geophysical Fluid Dynamics 
Lab have come up with research that shows that the world 
oceans--again, this is a global measurement--down to about 
10,000 feet have warmed by a bout a tenth of a degree 
fahrenheit since 1955. And they believe--again, as Mr. Goldin 
pointed out, it's always an issue of how much is natural 
variation--but they believe this is, again, anthropogenic, 
human forcing factors. A tenth of a degree fahrenheit may not 
sound like that much but, given that the world's oceans, or 
this sink, that they're the energy that drives the world 
climate system, I'm told that that is enough energy to fix the 
United States energy crisis. In fact, it provides the United 
States--so much heat and energy for the United States and 
California for 15,000 years. And, as Tom Karl pointed out, 
enough heat that's stored in the oceans to melt the whole Polar 
Ice Cap. It's a lot of energy and it will affect the atmosphere 
in future years or it could affect the atmosphere in future 
years.
    Next slide, please. Now, again, a few of these things were 
covered by others but I'll just point out a few here. That was 
the Northwest Passage you talked about. That's in 1998 which is 
the warmest year on record globally and it just shows just how 
open the Northwest Passage was that you talked about before, 
with oil tankers.
    Let me mention the precipitation anomalies. That actually 
shows one of the issues about climate, that we certainly have a 
lot of research still to do because I think you've heard me and 
others say that Alaska's becoming warmer and wetter. But what 
that chart actually shows is that Alaska became wetter quite 
some time ago. And, actually, in the recent warming--yeah, 
right at the end there, it's going up but that the major change 
in precipitation took place in Alaska quite some time ago.
    And, then, finally, let me just point out an Arctic sea 
ice. A few of us have talked about that, about the Arctic sea 
ice is thinning, it's receding. I'd just like to point out that 
that's one of the points about what I think we do as an 
operational agency. We in the Navy with Coast Guard 
participation run the Joint Ice Center in Suitland and that 
data base comes from the Joint Ice Center, which are continuous 
measurements. It's that sort of issue about climate.
    Okay, next slide. Again, most of these things were covered 
but on the left we have a simulation that shows what's happened 
with Alaska's temperatures since 1945. And it demonstrates a 
few things, that there's a lot of variability, that it's not 
linear, it's not equal, and that, within Alaska, different 
regions are affected differently in a given year. And, 
obviously, as you get to the--red being warmer--as you get to 
the 1990's--and, of course, 1998 I think you'll see that Alaska 
was much warmer. But, again, there's variability and you have 
to look for those long-term signatures, that long-term 
monitoring, to be able to look and see what's really changing.
    Okay, next slide. Now, I think there were a few people this 
morning who talked about it. One of the key things, I think, 
about climate and really understanding climate is that to 
really be able to do it right--it's not all that glamorous. 
It's about observing systems and, in fact, we talk in NOAA 
about climates reference networks and cooperative observing 
systems and about the Cooperative Observer Network. Well, right 
now, in the United States, we have about 11,000 people, 11,000 
sites, where people take observations every day for us. You see 
that sometimes on your local TV networks and people talk about 
how much rain there was in a location or what the temperature 
is. That's about how we are able in this country really to get 
much better climate information. It's about those long-term 
measurements. And it's something we really need to look at 
automating and rationalizing as we move forward in the future. 
And we've done some of that at NOAA. Now, let me just point out 
here that, in understanding climate change in Alaska, you get a 
feel for what percentage Alaska is of the land area of the 
United States. It's about 14 percent. If you look on the left 
there, that's the Cooperative Observer Network, the Automated 
Surface Observations, those sort of sites I was talking about 
within the State of Alaska. You can see how sparse the 
observational network is. On the right, we're taking the land 
area of Alaska and saying, ``Okay, let's take a look inside the 
Lower 48. Look how many more observing stations there are.'' 
What that means is we have a lot better understanding, a lot 
more continuous data, in the lower 48 in temperature and 
precipitation, soil moisture content, of the kind of things we 
need to take a look at in terms of understanding of what's 
going on in climate. So in looking toward the future, the kind 
of issues that we at NOAA would talk about are this sort of 
long-term observing systems. Again, a climate reference 
network, I think one of our premier sites is about--I think 
they cost about $50,000. We just put one in or are putting one 
into Barrow. But these are the type of systems that one needs 
to do long-term. On the right is weather buoys. Mr. Chairman, 
you came forward last year and gave us money to put in seven 
additional weather buoys off the coast of Alaska. Obviously, 
this is important to fishermen but it's important to everyone 
to know what's going on with the waves, what's going on with 
the temperature, what's going on with the surface pressure. And 
we have seven additional buoys in this year's budget. So we're 
following your lead in the 2002 budget.
    And, then, finally, I have an animation up on the right. 
We've talked a lot about the oceans and about salinity this 
morning. The Argo system under the National Ocean Partnership 
Program where we give the money to NOPP with the Navy. But the 
Argo Program is, if you will, a radiozon, a weather balloon, 
that's for the oceans. And these buoys go down to 2,000 meters, 
they drift. They come up every 10 days and they give us 
salinity and temperature. They come to the surface and they 
transmit those to satellites. We're up in this year's budget to 
about 275--a procurement of 275 of these buoys per year. We're 
moving toward a worldwide system of 3,000 Argo floats and we 
believe, spaced properly, this could give us the sort of 
knowledge and information that we have, for example, in the 
atmosphere with weather balloons and radiosondes which are 
launched twice a day. So it's about those long-term observing 
measurements; it's about those ground-based measurements in 
conjunction with satellite measurements that we think really 
unlock the secrets globally about what's going on.
    Okay, next slide. Just real quickly, we have in our 2002 
budget a climate initiative. This follows up to the initiative 
last year. Arctic Ocean fluxes were talked about this morning. 
We have about half a million dollars for that. That's looking 
at the fresh water incursion that we were talking about before. 
Let me just mention--we were talking about supercomputing. Our 
premier modeling center is the Geophysical Fluid Dynamics 
Laboratory in Princeton University. And that $3 million is to 
provide the type of supercomputing capacity we believe that we 
need to run those climate models that were talked about to get 
the mesh smaller, to get them run longer. There was one of the 
presentations this morning that used the GFDL model input is 
one of those ensembles. And it is a question of having the best 
people and giving them the tools to do the job, getting that 
data I talked about and getting the data assimilated into the 
models. We're working with NASA on a joint data assimilation 
center right now, not just in climate but in weather as well. 
It's a really key issue. We do not use enough of the data we 
get from satellites now.
    Last slide. And, then, finally, as you know, we're an 
operational satellite agency. We run geostationary satellites; 
that's on the upper left. Those are the ones that most people 
in the United States see on television every night. But as you 
can see as you go toward the Poles, because the Earth curves, 
it really doesn't cover Alaska very well. Those two satellites 
do not. And so it's actually our polar satellites that provide 
the best coverage for Alaska. They provide the atmospheric 
soundings which are put into our models. They provide the 
imaging; they provide the search and rescue services, SARSAC, 
where we get that information to the Coast Guard. That's saved 
over 12,000 lives in the last 20 years.
    And the replacement satellite for that--it's called NPOESS, 
National Polar Orbiting Environment Satellite System. And if 
you will, let me just make a few points. DOD and NOAA have run 
two separate systems for 40 years. NPOESS is converging those 
systems into one satellite system. It'll provide all those 
things I mentioned for both the civil community as well as for 
military commanders. It also includes altimetry. We talked 
about sea surface height; we talked about sea surface 
temperature. It includes altimetry and it includes 
scatterometry, sea surface winds. And we're working on an 
aerosol sensor to take a look at particles in the atmosphere, 
dust particles, soot, which affect climate. We're very 
enthusiastic about that at NOAA and Commerce. We believe the 
Department of Defense is but it is a new requirement that's 
coming forward for the system.
    Just one final thing about NPOESS. It's critically 
important; it's one of our major systems and our budget has an 
$83 million increase. For NOAA, this is quite large but, in 
order to get that system delivered by late 2008, we have to--we 
really have to keep it on schedule. It becomes a weather system 
and a climate system and for Alaska it is the environmental 
satellite--operational environmental satellite system.

                           PREPARED STATEMENT

    Mr. Chairman, that's a few of the things we're doing at 
NOAA. We're major participants in USGCRP. We're participants in 
SEARCH. We're honored to be here and we work very closely with 
all the agencies up here today and, once again, we very much 
appreciate your support.
    [The statement follows:]

                  Prepared Statement of Scott B. Gudes

    Thank you, Chairman Stevens, for inviting me to testify about the 
research that the National Oceanic and Atmospheric Administration 
(NOAA) is doing on climate change, and how climate change is affecting 
the Arctic region. It is a pleasure for me to visit Alaska once again, 
and to share with you our interests in the dramatic environmental 
changes occurring in the Arctic, especially in Alaska--the U.S. Arctic. 
NOAA has a long history of awareness of the issue of climate change and 
its impacts on society. Since the mid-1970s, NOAA has sought to 
understand the mechanisms that control the Earth's climate. Our initial 
focus was on the equatorial Pacific Ocean and after several decades of 
observation and research, we know enough about the El Nino-Southern 
Oscillation phenomena to be able to predict it and to anticipate 
impacts in the U.S. and Latin America. Our more recent efforts have 
contributed to discovery of other climate cycles and modes of 
variability. Most recently, we have become aware of the Arctic 
Oscillation and its Atlantic component, the North Atlantic Oscillation. 
The Arctic Oscillation may well be the second most important mode of 
climate variability, after El Nino, in shaping our country's weather 
and climate.as related to the way in which nature manifests its major 
climate variations and change.
    Over the last few years, NOAA has increased its involvement in 
Arctic science and the sponsorship of activities designed to improve 
our awareness of the Arctic environment and how it is changing. I will 
describe these activities, identify the key gaps in our knowledge and 
capabilities, and indicate a possible future direction for NOAA's 
activities to reduce uncertainties about climate change in general, and 
in the Arctic.
    When I refer to the Arctic, I include the entire Bering Sea and 
Aleutian Island region, as well as the Arctic Ocean and its surrounding 
seas, and, of course, all the land traditionally included in the 
Arctic, as well as the atmosphere overlying these areas.

 OBSERVED ARCTIC CHANGES AND THEIR RELATIONSHIP TO NOAA'S MISSION AND 
                               EXPERTISE

    Other presentations at this hearing have described the dramatic 
changes that have occurred in the Arctic over the past few decades. A 
great many of these changes have occurred in the atmosphere, the ocean, 
and cryosphere, including sea ice. Detecting and anticipating these 
physical changes fall squarely within NOAA's mission to observe and 
predict the evolving state of the oceanic and atmospheric environment. 
NOAA now believes the Arctic Oscillation, described to you yesterday, 
is nearly as important as the El Nino phenomenon in controlling 
temperatures in the eastern U.S. Other factors, such as the Pacific 
Decadal Oscillation and the recently described Atlantic Multidecadal 
Oscillation also may be significant modes for influencing our nation's 
weather and climate.a one of several major oscillations in the 
atmosphere and like the El Nino phenomenon and the Pacific-Decadal 
Oscillation is an important factor influencing high latitude and 
northern hemisphere temperatures. These oscillations are preferred 
modes of atmospheric circulation. Evidence suggests that changes in 
these modes of atmospheric and oceanic circulation are the principalone 
of the ways through which changes in global climate are manifested. 
NOAA is responsible for weather and climate observations and forecasts 
for the U.S., and for contributing to understanding climate variability 
and change on global and regional scales. The linkages between the 
Arctic Oscillation and other modes of variability in the atmosphere and 
oceans are the subjects of current NOAA research.
    The observed changes in sea ice relate strongly to several NOAA 
missions. Sea ice cover in the Arctic is a key variable in controlling 
the radiative balance of the Earth. Sea ice reflects much of the 
incident radiation during the Arctic summer and restricts loss of heat 
from the ocean in the Arctic winter. Better representing sea ice 
extent, concentration, and thickness in climate models is an emerging 
research priority for NOAA. Increased absence of ice is likely to 
increase opportunities for marine transportation and this may increase 
demands on NOAA's nautical charting program and the National Ice 
Center. If this occurs, then Arctic coastlines are likely to become 
more at risk from maritime accidents. If so, NOAA's hazardous materials 
response activities may be called upon. Absence of shore fast ice is 
one cause for the increased coastal erosion that has occurred in 
several of Alaska's coastal communities. NOAA's ongoing efforts in 
storm surge prediction and mitigation could contribute to this issue in 
the Arctic. Changes in sea ice also affects the habitat and subsistence 
use of many marine mammals in the Bering Sea and Arctic. NOAA has trust 
responsibility for several of these species
    We believe that ocean regime shifts observed in the Bering Sea 
should also be included among the critical changes in the Arctic over 
the past few decades and we have strong suspicions that these play a 
critical role in stock abundances of the commercial and forage fish in 
the Bering Sea.
    The point of this discussion is to make it clear that NOAA's 
activities are central to the need for timely and high quality science 
and services related to Arctic change. NOAA's current activities are 
responsive to this need, but we hope to do even better in the future.

                     NOAA ACTIVITIES IN THE ARCTIC

    In the broadest sense, NOAA spends about $30 million per year for 
on-going Arctic activities, many of which are part of, but this is 
supplemented by a broader programs that, which also provide 
observations, data, analyses, and forecasts. These programs are spread 
among all five of our line offices and include a mix of research and 
operational activities. Listed below are the highlights of these that 
are relevant to the topic of this hearing.
  --Atmospheric Trace Constituents (Barrow Observatory): Continuous and 
        discrete measurements of atmospheric trace constituents (for 
        example, greenhouse gases) that are important to understanding 
        global change.
  --Marine Fisheries Assessment: Assessment by the National Marine 
        Fisheries Service (NMFS) of U.S. living marine resources in 
        Arctic waters.
  --Marine Fisheries Research: NOAA's Pacific Marine Environmental 
        Laboratory (PMEL) and Alaska Fisheries Science Center (AFSC) 
        conduct the Fisheries Oceanography Coordinated Investigations 
        (FOCI) program in the Bering Sea and North Pacific. FOCI is 
        concerned with understanding and predicting the impacts of 
        inter-annual variability and decade-scale climate change on 
        commercially valuable fish species.
  --Marine Mammal Assessment: Long-term research by NMFS's National 
        Marine Mammal Laboratory on the population biology and ecology 
        of Arctic marine mammals. NMFS also participates in the Marine 
        Mammal Health and Stranding Response Program, which oversees 
        the Arctic Marine Mammal Tissue Archival Program (AMMTAP) in 
        collaboration with Department of Interior (FWS, BRD, and MMS) 
        and the National Institute of Standards and Technology (NIST). 
        The AMMTAP collects, analyzes, and archives tissues for 
        contaminants and health indices to provide a database on 
        contaminants and health in marine mammal populations in the 
        Arctic.
  --Coastal Hazards: Activities directed towards developing a better 
        understanding of the effects of tsunami propagation and run-up.
  --Ocean Assessment: A wide range of programs and activities directed 
        toward NOAA's environmental stewardship responsibilities, 
        including environmental monitoring and assessment, technology 
        transfer, and education and outreach. Ocean assessment includes 
        the National Status and Trends Program, the Coastal Ocean 
        Program, and other pertinent activities of the recently formed 
        National Centers for Coastal Ocean Science (NCCOS), National 
        Ocean Service.
  --Stratospheric Ozone: A program that is developing an understanding 
        of the dynamics and chemistry of the potential for Arctic ozone 
        depletion, as part of activities directed to understanding the 
        global depletion of stratospheric ozone.
  --Data Management and Access: The process of collecting, quality 
        control, data access, and long-term preservation of all data 
        collected is one of NOAA's mandate's. We operated three 
        National Data Centers and over ten World Data Centers which 
        archive atmospheric and climatic data, ocean-related data, and 
        geophysical data. We also archive all of the biological data we 
        collect
  --Remote Sensing: A substantial program (jointly with NSF and DOE) 
        for developing, testing, and using ground-based remote sensors 
        for Arctic meteorological research. The emphasis is on 
        prototypes for future operational systems that can operate in 
        the Arctic with minimal attention. The scientific issues 
        include boundary layer turbulence and structure, cloud macro- 
        and micro-physical properties, and cloud-radiative coupling 
        relevant to Arctic climate.
  --Aircraft/Vessels: Platform support from the Office of Marine and 
        Aviation Operations (OMAO) to conduct the research and 
        observations associated with NOAA's Arctic research program.
  --Climate and Global Change: Studies that are assessing changes in 
        the arctic and others areas affecting the arctic, including 
        causative factors of climate change and the environmental 
        response to these changes and variations. NOAA's Arctic 
        Research Office chairs the Interagency Working Group on the 
        Study of Environmental Arctic Change (SEARCH).
  --Arctic Ice: The National Ice Center, jointly operated by NOAA, the 
        U.S. Navy, and the U.S. Coast Guard, provides analyses and 
        forecasts of ice conditions in all seas of the polar regions, 
        the Great Lakes, and Chesapeake Bay. Since 1974, the NIC has 
        produced weekly ice charts depicting Arctic and Antarctic sea 
        ice conditions, as well as tracked large Antarctic icebergs. In 
        October of 2000, NIC released a compilation of its ice charts 
        from 1972 to 1994. Scientific study of NIC's sea ice charts 
        will prove a valuable resource in determining how global 
        climate change has affected the sea ice cover over this 22-year 
        timeframe. The NIC is striving to add to this data set, and 
        plans to release the data for 1995-20001 by the end of this 
        year. The National Snow and Ice Data Center (NSIDC), affiliated 
        with NOAA's National Geophysical Data Center (NGDC), archives 
        many new and rescued ice data sets.
  --Arctic Weather: Research primarily addressing two forecast 
        problems: detection of the Arctic front and the effect of the 
        Arctic front on local weather.
  --Boreal Forest Fires and the Arctic: Modeling, research, and 
        observations to understand the influence of Northern Hemisphere 
        boreal forest fires on atmospheric chemistry in the Arctic, 
        especially focusing on the production of surface-level ozone 
        and other pollutants and the atmospheric and climate effects of 
        the input of soot.
  --Arctic Research Initiative: Program supporting research, 
        monitoring, and assessment projects to study natural 
        variability and anthropogenic influences on Western Arctic/
        Bering Sea ecosystems. These activities are a U.S. contribution 
        to the Arctic Council's Arctic Monitoring and Assessment 
        Program. Projects supported by this program are expected to 
        lead to better understanding of Arctic contaminants and their 
        pathways, the effects of climate change including increased 
        ultraviolet radiation, and the combined effects of stresses 
        from climate change and various contaminants.
  --Surface Weather and Climate Observing Networks: The National 
        Weather Service operates two operational observing networks in 
        Alaska, accounting for over 100 stations. Recently the National 
        Environmental Satellite Data and Information Service (NESDIS) 
        initiated the development of a Climate Reference Network which 
        will add to the existing weather networks.
  --Space-based observations of Change: In the arctic regions, 
        including Alaska, much of our information is derived from 
        satellite measurements. For example, changes in sea-ice and 
        snow cover extent have been carried out for over three decades 
        using NOAA's operational polar orbiting satellites. NOAA's 
        polar orbiting satellites have been crucial in providing global 
        coverage of ocean surface temperatures since the early 1980's. 
        Perhaps of most importance has been the contribution of NOAA's 
        polar orbiting and geostationary satellites to provide climate 
        data related to the tracks and intensity of tropical and extra-
        tropical cyclones. Other elements monitored by NOAA satellites 
        include clouds, winds, and water vapor. NOAA/NESDIS has 
        operated two operational polar orbiting satellites over the 
        past four decades, as well as two geostationary satellites, 
        thereby providing necessary spatial and temporal coverage of 
        the Earth.
  --Alaska Sea Grant and the West Coast and Polar Regions Undersea 
        Research Center: These NOAA institutional programs conduct a 
        diverse set of research programs in Alaska that include 
        research on the Arctic Ocean and Bering Sea. Among these are 
        environmental affects on commercial and protected resources, 
        and sub-sea research on high-latitude productivity, nutrient 
        exchange, and benthic community structure.
    In 1999, NOAA organized the Arctic Research Office and received 
funding for the Arctic Research Initiative into our requested budget. 
With these steps, NOAA declared its awareness of the importance of the 
Arctic and particularly the Alaskan Arctic in several science issues 
relevant to NOAA's missions. In particular, NOAA's Arctic science 
interests include weather and climate, marine ecosystem productivity, 
and long-range transport of contaminants. Activities in all of these 
areas were supported with Arctic Research funds. It is important to 
note that NOAA's Arctic Research program is implemented in close 
cooperation with the Cooperative Institute for Arctic Research (CIFAR) 
at the University of Alaska. This cooperation has been fruitful in 
several ways, but most importantly in ensuring that research priorities 
are set based on the intersection of NOAA's mission priorities and the 
knowledge of scientists with first hand experience in the Arctic. In 
fiscal year 2000, NOAA, NSF, and CIFAR had the opportunity to 
collaborate with a new organization, the International Arctic Research 
Center (IARC), also at the University of Alaska. This NOAA/CIFAR/IARC 
collaboration provided a unique opportunity for organizing a very 
significant research effort focused on the Arctic. The combined 
resources of the IARC and of NOAA's Arctic Research program were 
brought to bear on research themes closely related to the topic of this 
hearing. Specifically, several projects each were supported under the 
following themes: Detection of Arctic Change; Arctic Paleoclimates; 
Interactions/Feedbacks and Modeling of Arctic climate; Changes in the 
Arctic Atmosphere; and Impacts to Arctic Biota and Ecosystems. Overall, 
thirty-nine individual research projects and a few supportive workshops 
and data management activities were funded for two years. NOAA 
acknowledges the willingness of the National Science Foundation to 
support the second year of many of these activities through its 
cooperative agreement with the IARC.
    As an outgrowth of discussions among NOAA, the IARC, and the 
National Science Foundation in fiscal year 2000, we agreed that the 
IARC could be the site for the Secretariat of a new international 
activity, the Arctic Climate Impact Assessment, or ACIA. The ACIA is 
being conducted by scientists from all eight Arctic countries as an 
activity of the Arctic Council. During the recent period of leadership 
of the Arctic Council by the United States, the U.S. offered to lead 
this assessment. NOAA is the minor co-sponsor of the ACIA, while the 
National Science Foundation is providing the major support to the ACIA 
through the IARC. The Secretariat for the ACIA is located at the 
University of Alaska and is headed by Dr. Gunter Weller, who is also 
Director of NOAA's Cooperative Institute for Arctic Research. The ACIA 
will result in 2004 in a summary of knowledge regarding past climate 
variability and change over the entire Arctic, projections of Arctic 
climate variability in the future, and an evaluation of the impacts of 
climate variability and change on the biological environment, human 
uses of the environment, and social structures. The Arctic Council will 
use this summary of knowledge to prepare a policy report discussing 
actions that governments should consider in response to anticipated 
changes in Arctic climate. More information on ACIA can be found on its 
website at http://www.acia.uaf.edu.
    While the main product of the ACIA will not be available until 
2004, its first outcome is a key report on Arctic climate modeling. The 
following quote from the report's summary is quite revealing:
    ``The Arctic is recognized as the area of the world where climate 
change is likely to be largest, and is also an area where natural 
variability has always been large. Current climate models predict a 
greater warming for the Arctic than for the rest of the globe. The 
impacts of this warming, including the melting of sea ice and changes 
to terrestrial systems, are likely to be significant. The projections 
of future changes are complicated by possible interactions involving 
stratospheric temperature, stratospheric ozone, and changes in other 
parts of the Arctic system. For this reason, current estimates of 
future changes to the Arctic vary significantly. The model results 
disagree as to both the magnitude of changes and the regional aspects 
of these changes.''
    The report goes on to state that models indicate a warming of the 
Arctic of 2 to 6 degrees Celsius by 2070, but with considerable 
uncertainty. These uncertainties stem from our assumptions about the 
future, from the models themselves, and from inherent limitations in 
our ability to predict climate. We know that the Arctic undergoes 
considerable climate variation on decadal and longer time scales (e.g., 
the warming of the 1930's and cooling over the next few decades) and 
this must be considered in addition to any anthropogenic change.
    In the current fiscal year, NOAA continued to emphasize Arctic 
environmental change and initiated an additional ten projects that will 
provide new information on Arctic Ocean circulation, atmospheric 
advection of heat and moisture, and the role of sea ice and snow cover 
in influencing the state of the Arctic Oscillation. These projects are 
planned to continue through fiscal year 2002. The NOAA/CIFAR 
collaboration was again utilized to implement these projects. Another 
benefit of this collaboration that deserves mention is the ability to 
provide support to the most capable scientists who are interested in 
research in the Arctic. Over the years, support has been provided to 
scientists from NOAA, from other federal agencies, from several of our 
institutional academic partners, and from other academic and research 
organizations. Many projects have involved foreign collaborators as 
well.
    NOAA was given an unexpected opportunity this year to evaluate how 
changes in the higher latitudes impact marine ecosystem productivity. 
NOAA was asked by the Congress to evaluate the possible role of climate 
and ocean regime shifts on populations of Steller Sea Lions. Once 
again, NOAA turned to its collaboration with CIFAR to define and 
implement a research program. Twelve projects were selected for funding 
utilizing the standard peer review practices that characterize all of 
the NOAA/CIFAR activities. Six of these projects have the goal of 
evaluating existing data to determine if there is any evidence that 
climate variability or ocean regime shifts could be wholly or partly 
responsible for the dramatic decline in the population of Steller Sea 
Lions in the Aleutian Islands and western Gulf of Alaska. This decline 
occurred over the past 30 years, a period in which at least one major 
ocean regime shift has been recorded and the Arctic Oscillation shifted 
to its high index state. The project reports will be available in about 
2 years. NOAA is also supporting the collection of new data in key 
regions in the Aleutian Islands and near Kodiak that will allow future 
evaluation of the role of ocean conditions in the population dynamics 
not only of Steller Sea Lions, but also the mammals, birds, and fish 
that inhabit these regions.

             REMAINING KNOWLEDGE, INFORMATION AND DATA GAPS

Recent climate assessments
    Over the past several months two state-of-knowledge assessments 
have been completed addressing climate change and climate impacts both 
globally and nationally. On a global basis, the Intergovernmental Panel 
on Climate Change (IPCC) has assessed the science of climate change and 
the potential impacts of such changes. On a national basis the full 
report of the National Assessment of Climate Change Impacts has just 
been released. It focuses on the impacts of climate change within the 
borders of the United States. These reports outline our present state 
of knowledge about how the climate has changed in the past, whether it 
is presently changing, what may be causing these changes, what is 
likely in the future given various scenarios of changes in atmospheric 
composition, and the potential economic and ecological impacts of these 
changes. All of these reports also find that significant climate change 
and impacts are emerging in Arctic areas, and particularly in Alaska. 
Moreover, all projections suggest that these areas will continue to see 
larger changes in climate than the rest of the planet.
    The United States National Assessment outlines a national research 
strategy that would help us reduce the uncertainties about climate 
change impacts, and the IPCC report also identifies key uncertainties. 
One of NOAA's concerns relates to potential surprises that are possible 
due to incomplete understanding of the climate system. Some examples of 
these have been proposed with some rationale for their occurrence such 
as: a complete shutdown of the North Atlantic Circulation which 
transports heat to the high latitudes, large releases of methane, a 
potent greenhouse gas, into the atmosphere as the climate warms 
(currently frozen in the arctic tundra), major changes in circulation 
and precipitation due to an ice-free arctic, significant changes in the 
strength of El Nino due to warming of the Pacific Ocean, and others. A 
better understanding of the science will minimize the risk of such 
unanticipated climate change.
    Since the assessments have already been the subject of several 
Congressional hearings, and are the focus of an ongoing National 
Academy of Sciences analysis I will not elaborate on their findings. 
Instead, I will emphasize how NOAA is helping to reduce remaining 
uncertainties about climate change and climate change impacts.
Reducing uncertainties about climate change
    It is important to realize that the climate change issue is being 
addressed within NOAA using the well-proven scientific method of 
beginning with reliable good old fashion observations, then we work to 
developing theories about the nature and behavior of the observations, 
and lastly we testing our theories by making predictions about the 
relationships among the observations. Traditionally, in laboratory 
experiments it is relatively easy to control for all relevant factors 
except the one being testing. This helps scientists evaluate theories, 
but in nature our ability to control relevant factors is severely 
constrained. Instead, theories are tested by comparison with the 
existing we rely on an extensive collection of past observations or 
proxy data from tree rings or ice cores, for example. to test our 
theories We cannot wait decades into the future to test our 
understanding. This requires a comprehensive collection of reliable 
historical data. Moreover, it becomes critical to know which variables 
need to be monitored and with what frequency, spatial extent, and 
accuracy. Fortunately, our work over the past Century, and the 
assessments of the last decade, have provided considerably insight as 
to what needs to be monitored. They have also provided insights as to 
how best test and develop our theories about the operation of the 
climate system and its impact on society and the environment. As an 
operational agency, NOAA's ongoing programs, as described above, will 
serve to advance our state of knowledge about climate and reduce 
uncertainties about climate change and its impact. They will fill 
important information gaps required for informed decisions by 
governments, industry, and the public. NOAA's role in addressing 
climate variability and change, and reducing uncertainties contributes 
to the interagency U.S. Global Change Research Program.
    I would be remiss however, if I did not emphasize some of the 
greatest challenges NOAA faces related to increasing our understanding 
of climate change and its impacts are in the Arctic including Alaska. 
These challenges include cover various areas ranging from deployment of 
observing systems under harsh conditions, improving global climate 
modeling by adding regional (including the Arctic) and inter-decadal 
skilling,to and providing access to the vast array of data and 
information collected by NOAA.
Key measurements for understanding climate change
    One of the most important lessons we have learned from the last 
decade is that a single comprehensive observing system for global 
change is not the right approach. The attempt to satisfy too many 
requirements can result in an observing system that is neither 
optimally useful nor sustainable. A special need in the ongoing 
development and implementation of observing systems during the next 
decade will be the development and implementation of hierarchical 
observing strategies, methods, and tools that integrate local, 
regional, and global scale data. NOAA intends to formulate an observing 
strategy for the Arctic.

                     TEMPERATURE AND PRECIPITATION

    Our longest instrumental surface weather records are derived from 
two basic NOAA weather networks, the Cooperative Weather Observing 
Network (COOP) and the First-Order Automated Surface Observing System 
(ASOS). Data from these networks have been painstakingly analyzed by 
numerous scientists to tease out a long-term record of climate 
variation and change. There are numerous difficulties in using these 
data for the purpose of documenting climate variations and changes, as 
apparent by the relatively large uncertainty band related to observed 
global temperature changes during the past Century, e.g., 0.4 to 
0.8 deg.C/100 years and mid-to-high latitude changes in precipitation, 
e.g., a 5-10 percent increase in precipitation.
    The uncertainty can be much greater for poorly monitored high 
latitude regions such as Alaska, where the warming is estimated to be 
several times larger. Large uncertainties arise because of the 
additional cost of monitoring in remote and harsh environments. As a 
result, Alaska has the lowest density of surface temperature and 
precipitation observations of all states. The lack of an optimized 
observing network for monitoring decadal climate variations and change 
and the low density of stations leads to substantial uncertainties. For 
example, in Alaska, all the ASOS sites are located at major airports 
near urban areas, and in the Arctic, the urban warming influence can 
confound our interpretation of the changes we see. The ASOS network, 
together with the volunteer COOP network, helps define the climate 
across the state from a total of just over 100 stations, in contrast to 
areas in the lower 48 states where we have over 1,000 stations for 
similar sized areas.
    Up until this past year these two networks have been the basis for 
virtually all our information about changes in temperature and 
precipitation. NOAA has recently been provided funds to begin operation 
of a surface observing network for temperature and precipitation that 
meets the climate change monitoring requirements developed by the U.S. 
National Research Council and the World Meteorological Organization. A 
Climate Reference Network is now being developed, and one of the first 
Climate Reference Stations is now being installed near Barrow, Alaska, 
the location of NOAA's benchmark observatory for measuring changes in 
atmospheric constituents. Completion of this network will ensure that 
NOAA's ability to precisely measure temperature and precipitation 
change, including changes in extremes. Changes in precipitation 
extremes are expected to be quite pronounced in Alaska and other high 
latitude regions as temperatures increase, but these changes can be 
especially difficult to monitor.
    In addition to observations in Alaska, climate-quality data is 
needed for temperature and precipitation over the Arctic Ocean as well. 
NOAA's Arctic observing strategy will include this requirement.

                        ATMOSPHERIC CONSTITUENTS

    Quantifying the trends, sources and uptakes of long-lived 
greenhouse gases is fundamental to our understanding of current and 
future climate. The measurements taken at our Barrow site, one of our 
four benchmark greenhouse gas monitoring sites, provides one of the 
most important sets of measurements to monitor changes in greenhouse 
gas concentrations. We have recently received much needed funding to 
begin improving our greenhouse gas monitoring capability at these 
sites. There are numerous questions about the trends and radiative 
effects of these gases that NOAA will be addressing over the next few 
years. For example, how is atmospheric carbon dioxide taken up by the 
oceans and land, why has the rate of increase of the potent greenhouse 
gas methane changed, what is the relationship between the ozone hole 
recovery and increases of greenhouse gases? On this latter point 
multiple data sets reveal that there has been a cooling trend in the 
lower stratosphere over the past two decades. Model simulations point 
out unequivocally that the global-mean lower-stratospheric cooling is 
due to decreases in stratospheric ozone, increases in gases like carbon 
dioxide, and increases in stratospheric water vapor. It now appears 
possible that this cooling may delay the recovery of the ozone hole.
    There are several important additional steps that we are building 
into our long range plans. This includes enhancing our monitoring 
capability for carbon dioxide, methane, and nitrous oxide and other 
trace atmospheric constituents that are radiatively active. This will 
require additional investments in our benchmark stations and the 
planning and implementation necessary to begin measurements from space. 
Maintenance and dissemination of gas standards must also be enhanced as 
we also collect data from around the world from dozens of international 
sites.
    It is very important to begin a long time-series of measurements of 
carbon dioxide from tall towers to determine the uptake of carbon 
dioxide by forests and soils. Four new towers are planned (for various 
forest-cover regions), adding to the existing two. This expansion will 
provide an initial estimate of uptake by North America. We would like 
to institute three new chemical monitoring sites in the Pacific to give 
information about the contents of the chemical mix of the Asian plume 
as it is transported eastward. This will provide greater detail than is 
possible with only one existing site, in Hawaii.
    One of our key uncertainties related to understanding climate 
change relates to our incomplete knowledge about changes in radiatively 
active anthropogenic aerosols. This is a complex issue because aerosols 
like those produced by burning high sulfur fossil fuels produce micron 
size particles that reflect solar energy back to space and cool the 
planet, but they also interact with the formation of clouds, affecting 
their lifetimes and radiative properties in ways we do not fully 
understand. To make matters more complex there are other aerosols 
produced by humans that tend to radiate back to earth more radiation 
than they reflect back to space (soot or carbonaceous aerosols), 
contributing to a warmer planet. Unfortunately, long-time series of 
these measurements are difficult because they vary greatly in space, 
unlike greenhouse gas measurement. NOAA has convened an interagency 
workshop to evaluate ways we could begin a long-time series of these 
measurements. We are exploring the feasibility of including some of 
these instruments aboard our future satellite missions.

    CRYOSPHERIC INDICATORS, E.G., SNOW COVER AND SEA-ICE EXTENT AND 
               THICKNESS, PERMAFROST, LAKE- AND RIVER-ICE

    NOAA's polar orbiting satellite data and surface-based observations 
have been used to show that major changes in the cryosphere are now 
underway, and even larger changes are projected to occur this Century 
in the high latitudes including Alaska. The lake and river ice season 
(now estimated to be 12 days less compared to the 19th Century), 
permafrost, sea ice, and snow cover extent are all estimated to be 
decreasing. Further, the surface reflectivity of these regions is a 
major climate feedback. NOAA's research has shown that the melting of 
ice in high latitudes has likely contributed to about 50 percent of the 
warming during spring in the mid- and high-latitudes. Reliable time 
series of cryospheric variables are necessary to test the predictive 
skill of our models. Massive losses of snow cover and sea ice are 
likely-irreversibly large, so it is very important that we accurately 
measure and model this change. This takes on added importance since the 
impacts of these changes are already apparent in the Arctic, and likely 
to become more significant.
    NOAA's researchers, the Snow and Ice Data Center and NOAA's 
Operational Satellite Processing Center are working to ensure that a 
seamless record of changes in the arctic can be preserved as there are 
multiple demands and uses of these data.

              OCEAN TEMPERATURE, SALINITY, AND CIRCULATION

    To project the pace of changes in sea-ice, sea-level, and other 
aspects of climate it is critical to couple the fast-response of the 
atmosphere with the sluggish response of the oceans. The measurement of 
ocean temperature, salinity, and circulation are now a primary goal of 
NOAA's participation in the National Ocean Partnership Program (NOPP). 
To advance this goal, NOAA in partnership with other nations, is 
deploying an array of oceanographic profiling floats, called Argo, that 
provide information about ocean temperature, salinity, and circulation 
from the ocean surface and subsurface waters.
    NOAA is working to accelerate the deployment of the profiling 
floats, as we now have evidence to suggest that the ocean's heat 
content has increased substantially since over the last half of the 
Twentieth Century. This increase in ocean heat content is consistent 
with several of climate model simulations of Twentieth Century Climate 
when these models are forced with increases in greenhouse gases, 
estimates of changes in anthropogenic sulfate aerosols and changes in 
other climate characteristics, like volcanic aerosols. It will be very 
important to understand how much heat the oceans are taking on as 
changes in greenhouse gas concentrations increase. NOAA is working to 
define an ocean observing strategy for the Arctic that will complete 
the global strategy. New technologies will be needed for observations 
in ice-covered areas and international cooperation will be essential 
for access to critical areas of the Arctic under national jurisdiction.

                         CLOUDS AND WATER VAPOR

    One of the most important aspects of uncertainty continues to arise 
because of inadequate information about clouds and water vapor. This 
includes cloud amount, type, height, the phase state (ice or water), 
and the amount of water vapor in the atmosphere. Water vapor is the 
most prevalent greenhouse gas and there are important feedbacks between 
rising temperatures related to increases in carbon dioxide and 
increases in atmospheric water vapor. Unfortunately, the Global Upper 
Air Network just established by the Global Climate Observing System of 
the World Meteorological Organization is failing due to lack of 
support. At the present time only about half of the global network is 
reporting data, even after the WMO had identified a set of key stations 
across the world as key indicators and markers of climate change. NOAA 
is exploring ways in which we can help to correct this situation since 
we are very much dependent on a global network of climate-quality upper 
air measurements of water vapor. We are also working to provide high-
altitude balloon-borne measurements of water vapor in the stratosphere 
at our baseline observing network sites at Barrow, Hawaii, American 
Samoa, and the South Pole.
    Cloud-related characteristics from satellite measurements are 
critical for global coverage, and these must complement surface 
measurements to ensure adequate calibration. NOAA is now working to 
develop automated cloud information that extend our current monitoring 
capability above 12,000 feet.

                               SEA LEVEL

    As ocean temperatures warm and glacial ice melts, global average 
sea level is increasing. Sea level rise during the 20th Century is 
estimated to be between 0.1 and 0.2m, and is projected to increase 
between 0.1 to 0.9m by the end of the 21st Century. Generally, 
increases in sea level are expected to be higher in high latitudes. 
NOAA maintains a global network of tide gauges which have provided the 
data to calculate global sea-level rise, but there are many local and 
regional variations. High quality tide-gauges are a high priority 
within NOAA to ensure adequate reference points to gauge sea level 
changes.
    NASA, in cooperation of our French partners, has been flying a 
satellite altimeter as part of their Topex/Poseidon mission which 
provides high precision global sea level data when calibrated with 
tide-gauges. The instrument has proven to be very reliable and is ready 
to transition from a research experiment to regular operations. NOAA is 
working with NASA and international partners to begin an orderly 
transition from research to operations to ensure global coverage of 
changes in sea-level.

                           PALEOCLIMATIC DATA

    One of the most important developments in the recent few years has 
been the ability of researchers to assemble paleoclimatic data from 
tree rings, corals, historical records, bore holes, and ice cores to 
develop a 1,000 year record of northern hemisphere temperatures. These 
data show that temperature increases during the 20th Century have been 
larger in the Northern Hemisphere than any time during the past 1,000 
years. Much work remains however. Important regional information is 
sparse, there are large uncertainties between some of the data sets. 
For example, temperatures inferred from the conduction of heat from the 
atmospheric surface layer to deeper layers within the earth's crust 
show larger increases of temperature compared to temperatures inferred 
from the other proxy data. Understanding these differences will improve 
our confidence regarding the causes of recent temperature increases and 
the sensitivity of climate to changes in atmospheric composition and 
other factors. Lastly, data from the southern hemisphere has not yet 
been compiled, and some of the records from which our scientists derive 
important information are disappearing. Critical glaciers in tropical 
climates are melting away as temperatures increase. It is now 
recognized that changes in the tropics are the key drivers of climate 
change elsewhere on the planet, including the arctic NOAA is working 
with other agencies, like NSF, to accelerate our efforts to collect 
valuable paleoclimatic data.

                   WEATHER AND CLIMATE EXTREME EVENTS

    At the present time, NOAA is working to adequately monitor changes 
in weather and climate extremes. Billion dollar weather and climate 
disasters are affecting the U.S. at increasing rates, and many of these 
are related to excessive precipitation events and major storms. But at 
the present time, we have conflicting analyses related to whether there 
have been substantial increases in the intensity of many important 
extreme weather and climate events. For example, some analyses reveal a 
major increase in the intensity of severe North Pacific storms, but 
other analyses do not confirm such increases. Meanwhile, we have strong 
evidence to indicate that heavy and extreme precipitation events are 
increasing in many areas, but as I have indicated measurements in the 
high arctic, including Alaska, are confounded by an inadequate number 
of observing sites, imperfect measurement systems, and measurement 
biases. We know that changes in extreme weather and climate events are 
often the determining factor related to the economic and ecological 
impacts of climate change. For these reasons, NOAA is placing a high 
priority on adequate investments to help ensure our observing systems 
provide the information necessary to systematically monitor changes in 
climate extremes and weather events.
Improved modeling capabilities
    Testing our theories about climate change and projecting future 
climate cannot proceed without climate models. Today, NOAA Research is 
continuing to use climate models to simulate past climate, especially 
the climate of the last Century and the past 1,000 years, where we have 
sufficient observations to test our ideas about the behavior of 
climate. NOAA is working to add Arctic processes to its existing global 
climate models. One of the major issues we are addressing relates to 
the amount of computer power necessary to provide the climate model 
simulations necessary to meet the demands for multiple simulations 
based on various scenarios of future emissions of anthropogenic 
atmospheric constituents, and the multiple simulations required to 
bound the uncertainty of climate due to its chaotic nature, and the 
need to achieve greater regional and temporal resolution. More computer 
hardware is only part of the answer. NOAA closely coordinates its 
modeling activities with other agencies, and is stepping up its efforts 
to train scientists throughout the climate community to assist us on 
this national problem, through NOAA's Climate and Global Change 
Program. In addition, we believe that it is also important to ensure 
that an adequate supply of computer students engage in this challenging 
problem of optimally configuring computer models for state-of-the-
science computation, storage, and data access. NOAA is providing 
scholarships to those scientists interested in working in these fields.
    Lastly, a very recent National Research Council report outlined a 
strategy to improve our modeling capabilities in this nation. NOAA 
believes such a strategy would go a long way to reducing uncertainties 
about regional climate change in the Arctic.
Improved information about future climate
    There are two areas that NOAA will be emphasizing in the immediate 
future to help business, industry, state and local governments, and 
individuals minimize the risk of climate change and maximize its 
potential benefits. This relates to the use of Climate Normals for 
planning and design, and improved access to data and information.

                            CLIMATE NORMALS

    Climate normals have been used by millions of users over the past 
few decades to assist with design and planning for a wide-variety of 
applications. Traditionally, the Official U.S. Climate Normals are 
calculated by the NOAA every ten years, and by international agreement 
they reflect the climate over the past 30 years. Important research 
questions remain as to the appropriate historical period to use for 
planning over the lifetime of new structures. For example, how many 
years of the climate record should be used to project the kind of 
climate conditions a new structure is likely to encounter? Over the 
past few years, as the climate has been significantly changing many 
users are finding that the traditional climate normals are not capable 
of bounding the conditions they are experiencing. This is leading to 
design failures. As a result, NOAA has taken initial steps to provide 
users with information more suited to a changing climate. We have 
developed models and software which begin to integrate historical 
climate data with various user-defined and model scenarios of future 
climate. Recently the National Homebuilders Association worked with 
scientists at NOAA's National Climatic Data Center to develop a new Air 
Freezing Index, which based on the Association's figures has saved over 
$300 million annually in building costs, and over 300,000 MW of energy 
each year since using the index to re-engineer building codes. Last 
year, the National Climatic Data Center developed a prototype of the 
Next-Generation Normals which was used in the National Assessment of 
Climate Change. Over the next few years NOAA will be issuing updated 
Climate Normals, and we are committed to making this information more 
useful to our users in a changing climate.

                      DATA AND INFORMATION ACCESS

    NOAA has responsibility for providing long-term stewardship and 
access to all the nation's atmospheric and oceanic data. This is an 
enormous responsibility, which is heightened by what many of our 
constituents have recently emphasized. The number one priority for them 
over the next several years is more effective access to more than 1 
petabyte of data that NOAA has in its archives. This amount of data is 
equivalent to the data stored on over 100,000 modern personal 
computers. NOAA also has millions of pages of historical data not yet 
computer accessible. Many of the records hold the key to documenting 
past climate variability and change. Our users have also told us that 
the environmental data we store has now taken on such economic 
applicability that they consider our environmental data as important as 
economic data to effectively manage and operate their businesses.
    NOAA is committed to making the data readily available. Over the 
next five years, NOAA's data volume is expected to increase five times. 
The challenge for us is not only to be able to preserve the data, but 
to provide effective access to these data. NOAA is committed to 
addressing this challenge and we will be working very closely with 
regional and local interests to ensure that our services are as 
effective as possible.

                  FUTURE NOAA ACTIVITIES IN THE ARCTIC

    NOAA expects to continue all of the operational activities 
described earlier and improve and enhance the quality and utility of 
our services whenever possible. As one example, the Alaska Region of 
the Weather Service in cooperation with the IARC is beginning to define 
activities that will become the Alaska component of NOAA's climate 
services program.
    For the long term, NOAA intends to continue to focus its Arctic 
Research Initiative on the three major areas of weather and climate, 
marine ecosystem productivity, and long-range transport of 
contaminants. Using existing resources, NOAA can continue a viable 
program in these areas by focusing on one at a time for two year 
funding periods. Specifically during 2003, NOAA will use these existing 
resources for synthesis and reporting of the outcome of the several 
projects funded in fiscal year 2000 through fiscal year 2002 under the 
Arctic Research Program, the joint CIFAR/IARC activity and the special 
funding for climate impacts on Steller Sea Lions. In addition, the 
first drafts of chapters in the Arctic Climate Impact Assessment should 
be available for review in 2003. We expect this synthesis activity to 
provide significant new insight and knowledge that will provide 
guidance for future Arctic research.
    In particular, this synthesis effort will provide a background for 
NOAA's future emphasis on the Study of Environmental Arctic Change or 
SEARCH. This is a new effort being planned by nine federal agencies 
under the auspices of the Interagency Arctic Research Policy Committee 
with the active involvement of a science steering committee. The SEARCH 
program will consider all portions of the Arctic environment 
(atmosphere, ocean, land, ice, biosphere) and seek to understand the 
longer-term changes that have occurred and to anticipate the changes 
that may occur over the next several decades. It will attempt to link 
these Arctic changes to the global climate system and to consider the 
social and economic implications of Arctic change not only to Arctic 
resources and residents, but also to the more populated mid-latitude 
regions. The SEARCH program is based on the knowledge that, while the 
Arctic may seem distant to most people, it is connected to the rest of 
the world and that processes in the Arctic have far reaching and 
significant impacts.
    Because the Arctic may be affected most strongly by climate change 
under the global warming scenarios of the IPCC, we must build the high 
quality data base needed to describe how the environment of the Arctic 
evolves over the next several decades. NOAA intends that its role in 
SEARCH focus on such sustained observations of the sea ice, atmosphere, 
and ocean, including its biota. As mentioned earlier, special 
strategies and technologies are needed for climate observations in the 
Arctic. NOAA intends to develop these as its participation in the 
SEARCH program evolves. Because we suspect that changes in the Arctic 
atmosphere will affect lower latitudes, we need to increase our effort 
to relate Arctic change to changes throughout the northern hemisphere. 
It is possible that changes in the Arctic can even influence the global 
ocean circulation and the distribution of heat and moisture from the 
tropics to the poles, and NOAA has to be concerned over this as well.
    I have already discussed the current imperfect nature of climate 
modeling, yet the use of models is essential in evaluating our possible 
future. NOAA will work with its interagency partners to improve the 
reliability of climate models, and to develop regionally focused models 
that will allow us to see more clearly what might happen in the Arctic 
and elsewhere. While models allow us to think ahead, a well founded 
observational program is essential for observing climate change as it 
happens and so increase our ability to adapt to near-term changes and 
evaluate the performance and requirements of models of the more distant 
future. NOAA's focus on sustained observations, simultaneous analysis 
of the resulting data, and development of data-based climate services 
is a logical evolution of NOAA's historic missions and provides a solid 
core for other SEARCH and climate and global change objectives.
    NOAA is particularly pleased to be working closely with the other 
agencies to build a complete picture of the Arctic environment. It will 
take a few years of planning and budgeting for NOAA to be able to do 
all that it should under SEARCH and other programs, but the process is 
well underway. In two years, NOAA will have important new information 
on Arctic Ocean circulation, atmospheric transport of heat and 
moisture, the role of sea ice and snow cover on the state of the Arctic 
Oscillation and other important modes of climate variability, and an 
analysis of the role of ocean variability in productivity of marine 
mammals and other species. Appended to this testimony are brief 
descriptions of each project funded in fiscal year 2001 under the 
Arctic Research Program, and the special funding for Steller Sea Lions 
and climate variability.
    In conclusion, Mr. Chairman, let me state that NOAA is committed to 
providing the required observations, data analysis, data access and 
archiving, and modeling capability to minimize unacceptable risks 
related to an uncertain future climate. We have outlined a significant 
number of items that challenge our existing understanding and we will 
be placing special emphasis on them in the future. The risk of failure 
could prove enormously costly. We look forward to continuing to work 
with you on these issues, as they are of one of the great challenges of 
the 21st Century for this nation, as well as the residents of Alaska.

    Chairman Stevens. Thank you very much. Again, I'm going to 
put all of your full statements in the records. I do thank the 
fact that some of you have summarized portions of them. Our 
next witness is Dr. Charles Groat, the Director of the U.S. 
Geological Survey.

                       DEPARTMENT OF THE INTERIOR


                         U.S. Geological Survey

STATEMENT OF CHARLES C. GROAT, DIRECTOR

    Dr. Groat. Thank you, Senator Stevens. Being in this 
position at the close of a day after many people have testified 
I could do as a colleague of mine once did, she said ``You've 
heard everything that needs to be said but you haven't heard it 
from me.'' And go through it again. I am going to take liberty 
that the position does accord of emphasizing a few key points 
that others have made today and that I would care to make on 
behalf of the USGS and the Department of the Interior because I 
think they're points that relate the science to the management 
of the resources that people in Alaska and the people across 
the country care about. To do that, I'll refer again to the 
report that Dr. Leinen referred to and that is the assessment 
report that was done in Alaska as was done in other parts of 
the country. The USGS was pleased to be a major sponsor of 
workshops that led to that report. Another statement that Dr. 
Leinen made is that as part of the Global Climate Change 
Research Program's goals is that as a scientific community, we 
have to be able to link the research we do to the information 
needs of resource managers. These workshops were intended to 
bring the State of the science and what we know about global 
change together with resource managers saying, ``How can this 
information be useful to you?'' And one of the things we 
learned from these workshops across the country was that there 
needs to be a degree of specificity that is meaningful to 
managers so that it can influence and affect their day to day 
decisions is important to them and that it needs to be 
communicated in a way that they can make use of it.
    So a very important goal of the research program in general 
is the ability to project regional variations accurately. And 
as many of the scientists have affirmed here today, we aren't 
quite there yet but we are getting closer. I think many of the 
very impressive graphics that you saw represent real progress 
from where we were 5 years ago because our models are better, 
our understanding of the processes are better but we still have 
a ways to go to make our information specific enough to be 
useful for people on the ground who have to make decisions 
about the things they either regulate, manage or, in the 
private sector, do for profitable purposes. And as a part of 
the Department of the Interior, the USGS is particularly aware 
of the importance of that for Alaska because of the important 
role that the Department of the Interior plays in managing 
Alaska resources. The Bureau of Land Management, the Fish and 
Wildlife Service, National Park Service and Minerals Management 
Service all have major responsibilities to apply knowledge of 
the type we've talked about today to their management 
responsibilities in Alaska and they take that very seriously. 
But no more seriously than does the Alaska Fish and Game, the 
other State agencies in this State and in other States who have 
similar and in some cases closer responsibility to manage 
resources important to their States and region. So I don't 
think any of us in the scientific community want to play down 
one bit the importance of bringing our science to bear on 
regional problems by making our science relevant in scale and 
scope to those problems.
    As does NOAA, we have a significant--the USGS does--number 
of people, 225 scientists and support staff, here in Alaska 
that are working as part of the Global Change Research Program 
and also as part of understanding the resources that are so 
important to this State, both living and non-living.
    We're involved, as are the other agencies represented at 
this table, in the Global Climate Change Research Program and 
we bring to it a perspective, particularly in our geological 
side, that I think we can't fail to emphasize--we should not 
fail to emphasize. That is the time perspective of change. 
We've talked about decadal changes; we've talked about 
centuries; we even talked about thousands of years. But if we 
look into deep geological time, we remember that there were 
tens-of-thousands-of-year cycles that brought major ice sheets 
to the country, to the continent, to the globe, and that 
perspective has to be there as well. So as we look at cycles of 
different scopes and scales, we have to recognize that the 
natural world has as much to teach us about these changes as 
does the anthropogenic world about influencing those changes.
    We're also involved in a significant way in the carbon 
cycle research, the water cycle work, and the impacts of change 
on ecosystems.
    But I want to stress this afternoon, as we wrap up the 
testimony in this hearing, the point that has been made by 
several of the speakers today. That has to do with the 
importance of observations and monitoring. It's clear that if 
we are going to have better models that make scientific 
information and data meaningful to regional resource managers, 
we have to have the computing power that you questioned about 
and that others have mentioned, to make this effective. Our 
models will only be as good, in a sense, as the power we have 
to create them. They'll also only be as good as the data that 
we put into them. We have to have the observational data to 
make these models relate to the landscape. And to do that we 
have to have data gathered for long periods of time. We've been 
at it for 120 years and those long-term records are of extreme 
importance in putting together observational information about 
the landscape and its processes over these long periods of 
time. We have to have on the ground observations as back up and 
as substantiation for all of those data that the wonderful 
technology that's been described here today bring to us from 
space and from remotely-sensing technology of different kinds. 
The technology is truly amazing. We don't lack for technology. 
It's developing faster than we can utilize it. But we have to 
have the will and the resources to apply that technology, not 
only to Alaska but to the landscape and the seascape and the 
atmosphere if we're going to have the observations of the 
density and intensity that we need to drive these models and 
make them useful at the regional scale.
    I'd like to provide a few examples of that. We've heard 
much about permafrost and the severe impacts melting it can 
have on the landscape, on carbon dioxide and on methane and the 
atmosphere. Clear. How do we know about permafrost changes? We 
know about it in part because of 21 deep bore holes that the 
USGS maintains in the National Petroleum Reserve in which we 
have observed permafrost temperature changes over the years.
    We also know how this applies to what I think is one of the 
overwhelming lessons we have to learn from climate change in 
Alaska, the impact this change has on the infrastructure. This 
has been mentioned by many speakers. And in this State, where 
permafrost is such a serious element in the landscape, that 
change can be costly to the Native populations and to their 
subsistence economy.
    It can also be critical to some of the great desires this 
State has to expand its economy. As we look to developing oil 
and gas resources on the North Slope, as we look to moving that 
gas south to the 48, we have to be worried about pipeline 
construction and, about production facilities construction. The 
state of the permafrost, the state of the landscape and 
processes such as landslides, as Dr. Colwell's slide showed, 
are extremely important for us as we design that 
infrastructure. A painful example of how important that is was 
brought about by the construction of the Trans-Alaska Pipeline. 
That pipeline would have cost about a billion dollars should it 
have been buried. But the work we did and the work other 
agencies did in understanding permafrost conditions resulted in 
a $7 billion bill simply because it had to be elevated. Short-
term, high cost. Long-term, who knows how many billions of 
dollars it would have cost to repair a pipeline that wasn't 
properly designed based on the understanding of permafrost and 
other environmental conditions. So from an infrastructure point 
of view critical to the economy of this State, we cannot place 
too little emphasis on the importance of the monitoring of 
Permafrost.
    We've talked about forests a little bit. Permafrost isn't a 
suitable host for forests but, as we see the thawing of the 
permafrost, commercial forests may expand three to four times. 
That's important to the economy of Alaska. So there are some up 
sides to the commercial interests that are realized as 
permafrost melts and as the climate changes: perhaps an 
expansion of the forest industry. The downside, of course, is 
that some of the diseases and insect pests increase as well.
    Another monitoring subject of importance is glaciers. Now, 
we've talked about sea ice extensively and, clearly, perhaps 
the most critical ice element in the economy and the ecology of 
Alaska, but we have a lot of mountain glaciers in Alaska. In 
fact, there are tens of thousands of mountain glaciers in 
Alaska and, with exception of only a few that are close to the 
coast, since the Little Ice Age in the mid-1800's, they've all 
been receding over the past century and a half. And that 
information, like the canary in the mine, is further evidence 
that, on the landscape as well as on the sea, warming is having 
a significant effect. And we, along with several other 
agencies, 25 Nations, 50 institutions, are about to turn out an 
atlas that will demonstrate globally the shrinkage of glaciers 
and how this is an important indicator of climate change. 
Again, a monitoring effort, a measurement effort, that is very 
important.
    The same thing can be said for land cover change. As we 
look at land cover and vegetation and its importance, we have 
to be able to monitor that from space, with ground truthing. 
Landscape processes that are important and that affect the 
infrastructure are extremely important.
    So putting the emphasis where others have put it as well, 
information to make our science relevant, and monitoring to 
give us the long-term perspective and to feed models are 
extremely important.
    And let me close with something even more fundamental that 
is relevant to Alaska, fundamental data needs which are not 
being met in Alaska right now and they're not being met by the 
USGS, to a large degree. And that is topographic mapping. It's 
hard to understand the landscape if we don't have maps at 
suitable scales, such as orthophoto quads and standard 
topographic maps at a scale of 1 to 4,000. Alaska is only 
partially covered whereas the lower 48 is totally covered. What 
we do have up here is mostly 40 years old. So there's a 
tremendous need, if we're concerned about change, documenting 
it, and relating it to the landscape, and if we're concerned 
about the infrastructure, to have maps that accurately portray 
the landscape.
    As fundamental as topographic maps are geologic maps. If 
we're going to understand the landscape and change elements, we 
have to understand the rocks and soils that underpin it. 
Geologic mapping of critical areas underlain by permafrost and 
underlain by resources critical to the State of Alaska,--its 
minerals and its energy resources, have not been adequately 
mapped. They need further attention as further buttressing of 
our understanding of the landscape and the elements in it.
    Water resources have been mentioned. Clearly quantity of 
water is extremely important. We have over 7,000 stream gauges 
across the country. Only 120 of those are in Alaska. And there 
are major river systems in Alaska that are ungauged. We need to 
understand the hydrologic relations as run-off changes, and as 
channel characteristics change. We can do much of this from 
space with the technology that NOAA and NASA bring us, but on-
the-ground observations and measurements are essential to 
verifying and to documenting those changes. Water quality will 
change with time as processes change. We have to be able to 
monitor the changes in the composition of those streams.
    The same is true of habitat change. The ecological systems 
that are critical to salmon and seal and waterfowl and the 
fisheries have to be monitored, using remote sensing data, 
using the kind of data that Scott Gudes described for the 
oceans. But we need on-the-ground as well as in-the-water 
sensors to understand these habitat changes.
    In conclusion I would just emphasize clearly the importance 
of science in understanding global change in Alaska, the 
importance that scientist must place on making that science 
relevant to regional managers, which means the scale of our 
models, the scale of our observational data, must be usable, 
whether they're Federal landscape managers or whether they're 
State landscape managers or whether they're private sector 
trying to improve the economy of the State.

                           PREPARED STATEMENT

    We've recently established an Alaska Science Center to 
bring our disciplines--our biologists, geologists, hydrologists 
and map people-together to do a more integrated job of 
portraying the landscape and living resources. And I think that 
this integrated effort that has been part and parcel of what my 
colleagues here at the table have described, is going to be 
what brings climate change understanding and the usefulness of 
it to managers really together to do what the program needs to 
do. And I think we're all committed to that, Mr. Chairman, and 
we welcome the opportunity to do.
    [The statement follows:]

                 Prepared Statement of Charles C. Groat

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to present testimony on behalf of the U.S. Geological 
Survey (USGS) regarding scientific research being conducted on climate 
change in the Arctic region and how climate change is impacting that 
region, with special emphasis on Alaska.
    Within the Arctic region, Alaska hosts some of the most important 
hydrologic, biologic, mineral and energy resources of the Nation and is 
subject to a wide variety of natural hazards, particularly earthquakes, 
volcanic eruptions, and landslides. Rich in pristine wilderness and 
natural resources, Alaska has some of the largest tracts of federally 
owned land in the country. Some of the ``crown jewels'' of the National 
Park Service and the National Wildlife Refuge System occur in Alaska. 
The Department of the Interior (DOI) is responsible for the management 
of more than 218 million acres of Alaska, an area larger than the 
entire State of Texas. More than 50 percent of the lands that Interior 
manages are in Alaska. More than 40 percent of the Nation's freshwater 
supply and more coastline than the rest of the States combined are 
found in Alaska. More than 3,100 miles of designated rivers in the Wild 
and Scenic River System are in Alaska. Of the national total, nearly 70 
percent of designated Wilderness areas--more than 57 million acres, 
roughly the size of Oregon--are in Alaska. Areas classified as wetlands 
total 170 million acres, more than all other States combined.
    As the principal science agency of the DOI, the USGS provides 
understanding of past and contemporary Alaskan environments and is 
positioning the region to better anticipate and prepare for what may 
happen in the future. The stewardship mission of the Department must be 
informed by an integrated scientific understanding of how climate 
changes may interact with other natural and human-induced environmental 
stresses. To advance that critical understanding, the USGS sponsored an 
assessment of the potential consequences of climate variability and 
change to Alaska with the University of Alaska, Fairbanks (UAF). The 
1997 workshop, which received funding from DOI, was one of a series of 
regional workshops that the U.S. Global Change Research Program 
(USGCRP) sponsored as part of its national assessment of the potential 
consequences of climate change. The workshops brought together 
researchers, governmental agencies, industry, non-governmental 
agencies, and the public to assess the potential impacts of climate 
change on Alaska. The attached assessment report, ``Preparing For A 
Changing Climate,'' addresses the following four questions:
  --What are the current environmental stresses and issues that will 
        form a backdrop for potential additional impacts of climate 
        change?
  --How might climate variability and change exacerbate or ameliorate 
        existing problems?
  --What are the priority research and information needs that can 
        better inform decision making and the policy process?
  --What coping options exist that can build resilience to current 
        environmental stresses, and also possibly lessen the impacts of 
        climate change?
    This report is available online at http://www.besis.uaf.edu/
regional-report/regional-report.html

                  IMPACTS OF CLIMATE CHANGE ON ALASKA

    Current climate studies indicate that high-latitude regions of 
North America, especially Alaska and northwestern Canada, are presently 
experiencing some of the most dramatic warming in the world. Alaska has 
experienced the greatest warming of any State in the Nation over the 
past 50 years; this trend is consistent with model predictions that 
show increased temperatures at higher latitudes. USGS pioneered 
scientific studies of climate that showed some of the earliest evidence 
for warming in Alaska.
    Alaska, like many other areas of the world, experienced a shift to 
warmer temperatures in the late 1970s. The following are some of the 
major climate-related trends in Alaska that scientists have observed:
  --Air temperatures in Alaska have increased an average of 4 deg. F 
        since the 1950s, 7 deg. F in the interior in winter, with much 
        of the warming sparked by a large-scale arctic atmosphere and 
        ocean regime shift in 1977.
  --The 30-year air temperature record shows that increases are 
        greatest in winter and spring and in the interior of Alaska and 
        north of the Brooks Range.
  --Recent reports suggest that summer sea ice has decreased about 3 
        percent per decade since the 1970s, multi-year sea ice has 
        decreased by 14 percent since 1978, while sea ice has thinned 
        at a rate of 4 inches per year from 1993-1997. These decreases 
        in sea ice have affected subsistence hunting patterns and 
        increased the danger of hunting on the ice.
  --Boreholes reveal that permafrost temperatures in northern Alaska 
        have increased 2-4 deg. C (3.5-7 deg. F) above temperatures 50-
        110 years ago; permafrost has thawed in some places to a point 
        where it is discontinuous, resulting in increased road 
        maintenance costs and ruining traditional ice cellars of some 
        northern villages.
  --Precipitation has increased about 30 percent for most of Alaska 
        west of the 141 degrees West Longitude between 1968 and 1990; 
        exceptions are the southeastern part of the State and summer 
        precipitation in the interior, particularly around Fairbanks.
  --Warmer conditions have allowed insects to thrive when cooler 
        summers and colder winters would have normally destroyed or 
        limited their extent; the spruce bark beetle has destroyed over 
        3 million acres of forest.
  --The growing season in Alaska has lengthened by 13 days since 1950.
    The 1997 UAF/DOI-sponsored Alaska workshop that was part of the 
``Preparing for a Changing Climate'' assessment attracted people from 
within as well as outside of the State to discuss current and potential 
issues associated with the State's forests, tundra, coastal systems, 
permafrost, marine resources, wildlife, subsistence economy, and human 
systems (such as transportation, energy, and land use), under changing 
climate scenarios. With further warming in Alaska, a variety of 
consequences are possible. The location, volume, and species mix of 
fish catches could change, causing stress as the industry deals with 
relocation of harvesters and processors. While the permafrost is 
melting, the maintenance cost for pipelines could increase, but 
construction costs could be lower in areas where it has melted. The 
loss of sea ice could reduce costs for offshore oil and gas exploration 
and production and improve shipping, but coastal erosion could increase 
due to higher relative sea levels and increased storm intensity with 
concomitant impacts on coastal communities.
    A longer growing season could improve agriculture and forestry 
yields, but warmer temperatures, increased summer drying, and disease-
stressed trees could increase flammable vegetation, thus increasing the 
potential for forest fires.
    Engineering must account for impacts of future thaw on existing 
infrastructure (highways, railroads, military and commercial airfields, 
buildings and the oil pipeline). For example, planning for future 
energy resources extraction and construction of the proposed natural 
gas pipeline will need to take into account the changing properties of 
soils that are experiencing permafrost thawing.
    Fisheries may be at risk from climate change. For instance, sockeye 
salmon in this region support a long-established fishery, generating 
millions of dollars annually and providing thousands of jobs. They also 
play a critical role in Alaska's sensitive coastal ecosystems. Adult 
sockeye salmon returning to Bristol Bay's tributaries provide food for 
killer whales, grizzly bears, eagles, and other predators. Eggs 
deposited in the streams and rivers feed many other species of fish 
throughout the system. Even in death after spawning, tons of decaying 
salmon flesh contributes marine-derived nutrients used by both plants 
and animals along Alaska's rivers. Ongoing USGS studies are measuring 
historical patterns of sockeye growth in marine and freshwater 
environments and identifying linkages between growth rates and climatic 
conditions. These USGS studies, which will generate preliminary results 
in 2003, will provide a thorough analysis of the effects of climate 
change on sockeye salmon production in Bristol Bay during the 
freshwater and early marine life stages that are most likely to be 
sensitive to fluctuations in climate.
    Preliminary research suggests climate change may be implicated in 
the annual greening of vegetation earlier in the year. Studies by USGS 
scientists indicate that during the 1990s the period of time when the 
active layer of permafrost begins to warm to when it refreezes again 
has increased by more than 30 days at several sites on the Alaskan 
North Slope. Studies of past geologic periods by USGS geologists show 
that forest replaces tundra during warm climatic intervals.
    New studies by USGS researchers are showing that the coastal rain 
forest of the Tongass National Forest in southeastern Alaska has a 
complex and dynamic history. This forest, which did not exist in Alaska 
during the last ice age, is still expanding. Some of Alaska's National 
Parks may see a shift in the type of vegetation that dominates their 
landscapes as this forest continues to migrate northward. Policy and 
land management decisions by the National Park Service and the U.S. 
Forest Service depend on understanding the dynamic nature of this 
ecosystem.
    USGS monitoring revealed that glaciers receded in the last decade 
of the 20th century at the highest rates of the 30-year monitoring 
record; recently de-glaciated terrains are rebounding, sometimes rising 
centimeters per year through both glacial rebound and tectonic forces; 
and ranges of plants and animals are changing and expanding northward. 
One of the major attractions for many of Alaska's National Parks 
(Denali, Wrangell-St. Elias, Glacier Bay, and Kenai Fjords) is the 
stunning array of glaciers that have shaped, and continue to shape, the 
rugged Alaskan mountain landscape. USGS researchers have used satellite 
imagery to make precise maps of these glaciers and to monitor their 
changes over time.

       NATURAL RESOURCES AT RISK AND RESEARCH PRIORITIES FOR USGS

    USGS is studying the effects of climate on Alaska's resources. 
These efforts are in close alignment with the USGCRP. The USGS 
acquires, manages, and makes available a treasure of remotely sensed 
data used by Alaskan, Federal, and State land management agencies for 
mapping, monitoring, and modeling vegetation, hydrology, and geologic 
processes; monitoring fires, volcanoes, and floods; and characterizing 
the landscape in support of the scientific and management communities. 
An example of the application of these data and tools is the 
Interagency Consortium Program, which is designed to produce a 
consistent, comprehensive, and flexible land cover database for the 
State (the Multi-Resolution Land Characterization 2000 Program). The 
membership of this Federal consortium includes DOI bureaus (National 
Park Service, Bureau of Land Management, U.S. Fish and Wildlife 
Service, and USGS), Department of Agriculture (U.S. Forest Service), 
NOAA, NASA, and the U.S. Environmental Protection Agency. The 
consortium's objective is to provide repetitive coverage of satellite 
data that can be used to document and explain changes in land use and 
land cover. The Program is new to Alaska, and state-of-the-art land 
cover mapping and data analysis methodologies are being developed 
through research at the USGS Alaska Science Center.
    The USGS is the developer and manager of the Internet-based Alaska 
Geographic Data Committee's (AGDC) Geospatial Data Clearinghouse. The 
AGDC's Clearinghouse serves as the Alaska Gateway to the data holdings 
of its members, over 40 Federal and State agencies, borough and 
municipal governments, Tribal Organizations, universities, and private 
companies within Alaska. The AGDC Gateway provides public access to 
everything from legal land status to detailed historical mining 
reports, USGS topographic maps, virtual visits to national parks, 
archives of remotely sensed data, and real-time stream-gage 
information. While its primary focus is on information that has a 
geographic context, the AGDC Clearinghouse also links to a broader 
range of environmental data through its Arctic Environmental Data 
Directory, which provides connections to the entire circumpolar Arctic 
international scientific community. Alaska agencies, native 
organizations, and the private sector are involved in analyzing and 
responding to critical issues that include hazard prevention, land 
conveyance, resource exploration and development, legal access and 
public safety, public use and resource assessment, and community and 
economic development.
    Other ongoing USGS studies related to climate change in the Arctic 
include monitoring the Yukon River to document a 5-year baseline of 
water, sediment, and chemical loading delivered to the Bering Sea. Data 
will provide a baseline to compare changes that may occur in the Yukon 
over the next 20 to 50 years. This effort will focus on measuring the 
carbon and nitrogen in the river that are fundamental to the health of 
the ecosystem. USGS will also measure contaminants in air, water, 
sediment, and fish tissue that may affect people and wildlife.
    USGS is measuring and modeling carbon cycling and nutrient storage 
as they relate to climate, permafrost, and fire. Partnerships with 
other scientific agencies allow USGS to contribute and interact with 
scientific experts of all disciplines on issues of carbon and nutrient 
cycling. USGS scientists play a key role in providing field-based data 
on soil, peat, wetlands, and water and gas chemistry. USGS also 
develops and applies mathematical modeling of the effects of climate on 
vegetation, soils, water, fire, and ecosystems. USGS monitors the 
permafrost temperatures in 21 deep boreholes in the National Petroleum 
Reserve, Alaska. Analysis of temperature profiles in the deep boreholes 
provided some of the first evidence that the Alaskan Arctic warmed 2-
4 deg. C (3.5-7 deg. F) during the 20th century. Analysis of all the 
boreholes is being conducted under the Global Terrestrial Network--
Permafrost in collaboration with other agencies and other countries.
    USGS is providing information and research findings to resource 
managers, policymakers, and the public to support sound management of 
biological resources and ecosystems in Alaska. This includes studies of 
the role of Arctic and subarctic environments in maintaining wild 
stocks of nationally important marine and anadromous fish species and 
nationally important migratory bird populations; the ecology of marine 
mammals and their role and effect as top-end consumers in Arctic and 
subarctic marine environments; the role of Arctic and sub-arctic 
environments in maintaining the ecology of terrestrial mammals, and the 
role of top herbivores and carnivores in the dynamics of Arctic and 
subarctic terrestrial systems.
    USGS is providing records of past climates and vegetation groups 
that existed in Alaska, which are key to understanding the likely 
consequences of future climate changes in high-latitude ecosystems. 
Current USGS work on the fossil record and climate history of Alaska 
suggests that future periods of cooler, drier climate would result in 
shrinkage of forest boundaries, lowering of the altitude-limited tree 
line, and expansion of tundra vegetation into lower elevations. A 
future change to warmer, moister climates would result in expansion of 
Alaska's forests into areas now occupied by tundra. Measuring and 
modeling climate-land interactions will provide a basis for resource 
planning for Alaska lands.
    Plant fossils, such as leaves, wood, cones, pollen, and seeds, 
provide important evidence of how Alaska's vegetation has responded to 
climate changes over time periods of centuries to millions of years. 
USGS studies of the Alaskan fossil record of plants include data from 
many natural exposures and sediment cores. These data provide the basis 
for reconstructing the record of past vegetation changes over millions 
of years of Earth history. The fossil record shows that dramatic 
changes in high-latitude vegetation have occurred many times in the 
past, primarily in response to global climate changes.
    USGS monitoring of volcanoes is providing information on the 
processes that trigger eruptions, generate volcanic ash clouds and 
result in volcanic emissions. The latter can impact climate (for 
example, the sulfur-rich 1991 eruption of Pinatubo volcano in the 
Phillipines caused temporary global cooling.) Studies of eruption 
dynamics, down-slope transport of lava and volcanic debris, and the 
history of past eruptions contribute to an understanding that goes 
beyond the question of ``when'' to also address the question of ``what 
to expect'' when a sleeping volcano wakes up. The issue of volcanic ash 
and aviation safety is another aspect of USGS volcano monitoring. The 
world's busiest air traffic corridors pass over hundreds of volcanoes 
capable of sudden, explosive eruptions. Airborne ash can diminish 
visibility, damage flight control systems, and cause jet engines to 
fail. The Alaska Volcano Observatory, a cooperative effort of USGS, 
UAF, and Alaska Division of Geologic and Geophysical Surveys, plays a 
major role in the effort to reduce the risk posed to aircraft by 
volcanic eruptions.
    The USGS has provided critical information for Alaska's development 
decisions, through our scientific studies of permafrost, gas and oil 
resources, mineral resources, fish and wildlife populations and their 
habitats, and the impacts of petroleum exploration, development, 
pollution, and climate change on terrestrial and marine mammals, 
migratory birds, anadromous fishes, and marine invertebrates. USGS 
leadership in technical review and advice during the planning and 
permitting of the Trans-Alaska pipeline is an example. This role 
included a significant contribution toward designing the pipeline to 
withstand disturbance associated with permafrost.
    In the past, Bristol Bay, Alaska, has produced more wild-caught 
sockeye salmon (Oncorhynchus nerka) than any other region in the world, 
with record runs exceeding 50 million fish annually. Recently, however, 
adult sockeye runs in Bristol Bay have declined 78 percent, even though 
counts of both juvenile fish leaving the rivers for the ocean and 
adults returning to the rivers to spawn have indicated strong sockeye 
salmon production in the freshwater tributaries to the Bay.
    Recent developments have demonstrated that western Alaska salmon 
stocks are also in serious trouble. The returns of summer-run chum 
(Oncorhynchus keta) and chinook (O. tshawytscha) salmon over much of 
western Alaska during 2000 were the worst ever recorded. The weak 
returns of chinook (a 75 percent decrease) and chum (62 percent 
decrease) salmon into the Yukon and Kuskokwim Rivers have prompted 
regulatory actions by both the State and Federal fisheries managers 
that have resulted in the closure of subsistence harvests, and 
restrictions on commercial and sport fishing. The Yukon River pink 
salmon, which are not harvested, had a 90 percent decline in 2000. The 
USGS is conducting research addressing critical information gaps 
concerning the spawning ecology of Yukon River salmon. These studies 
will allow for long-term comparisons of salmon production in relation 
to significant shifts in the physical environments of the North Pacific 
leading to accelerated declines in species assemblages, including a 
marked decline in salmon runs returning to Alaska.
    Polar bears live in the ice-covered portions of the Bering, Chukchi 
and Beaufort Seas adjacent to Alaska. Their dependence upon drifting 
ice makes polar bears an important indicator of global warming and its 
effects in the Arctic. Ongoing USGS research is investigating 
interactions between bears, their principal prey, ringed seals, and the 
changing sea ice that supports both of them.
    USGS coordinates Arctic research with the Arctic Research Council 
and the Interagency Arctic Research Policy Committee (IARPC). Through 
this coordination, we ensure that USGS research complements, rather 
than duplicates, research of other agencies. IARPC, through an 
interagency working group, is coordinating a multi-agency research 
program, ``Study of Environmental Arctic Change'' (SEARCH). Planning 
for SEARCH involves the Departments of the Interior, Agriculture, 
Defense, and Energy and the National Oceanic and Atmospheric 
Administration, U.S. Environmental Protection Agency, and National 
Science Foundation.
    Geologic maps are used by land, water, and natural resource 
managers at all levels of the government and by the private sector to 
achieve the most efficient use of Earth resources in a way that is 
sustainable and economically viable. Economic growth is driven largely 
by access to the Earth's resources. Geologic maps provide the spatial 
framework to locate these resources. Unlike topographic maps, which 
show the elevation of the Earth's surface, geologic maps display the 
array of soils, sediments, and rocks that are present at and below the 
Earth's surface. These maps are essential for a complete 
characterization of materials mobility in ecosystems. Detailed geologic 
maps are useful for mineral and petroleum exploration, for hazard 
assessment, and/or for land and natural resource planning.
    USGS is well positioned to contribute to meeting the challenges 
facing Alaska. USGS' long-term study of the biological, geological, 
hydrologic, and energy and mineral resource systems of Alaska have 
addressed not only the location and utility of the resources but also 
their origin, sensitivity to climate and disturbance, and the fate of 
these resources in the future.
    Mr. Chairman, this concludes my testimony. Thank you for the 
invitation to present testimony on this important topic. I would be 
happy to respond to any questions Members of the Committee may have.

    Chairman Stevens. Thank you very much, Dr. Groat. I'm 
delighted to see you're here. I have decried the decline of 
your agency in Alaska and I hope that this issue will bring 
more of your people back here because I do think we need some 
monitoring on land that you are talking about.
    I go back to the statement that Mr. Goldin made about 
getting together to try and see if we can get better 
coordination. Do you believe that coordination of the 
interagency efforts, the total effort, with regard to global 
climate change and its impact to the Arctic could be improved? 
Any of you disagree with that?
    And Mr. Goldin has suggested that, Dr. Colwell, your agency 
take the lead in that effort. Are you prepared to do that?
    Dr. Colwell. As Chairman of the IARPC and with the SEARCH 
project, I am certainly ready to proceed.
    Chairman Stevens. And is there any disagreement about the 
concept of trying to validate the current predictions of the 
models we heard described this morning? Do you think you have 
that capability today?
    Dr. Colwell. With the data gathering that we need, I 
believe the most important action to take is to determine the 
gaps and to begin to fill them in. And I think what we all 
heard is that something is happening and we better find out 
whether it's cyclical or long-term.
    Chairman Stevens. This afternoon I was asked about the 
threat to our villages. It's my judgment that this is a 
perception of increasing rather than a current calamity of any 
kind. Any of you disagree with that?
    It's the kind of thing that we need better information in 
order to deal with the future rather than at the present time 
facing any real traumatic conditions that we have to correct, 
with the exception of a couple of villages that have some real 
problems with regard to inundation of their airports. That's 
the current state of climate as far as I'm concerned. Any of 
you have any opinions contrary? Is there more immediacy there 
than I currently feel?
    Dr. Colwell. Well, I think the most difficult predictions 
have been for the Pacific Islands and for countries like 
Bangladesh where genuine calamities could occur if the 
predictions prove to be correct. I don't believe that kind of 
calamity will happen very soon, but I'll leave to my colleagues 
to comment.
    Mr. Goldin. I think it's important that all citizens of our 
country become more aware of this interaction between the 
ocean, the land, the atmosphere, ice and life. It's something 
that needs to be part of their lives. I pointed out two 
examples of Mars and Venus.
    Chairman Stevens. Yeah.
    Mr. Goldin. Earth is a very unique system and it has this 
thermostat. It is incredible how wonderful this thermostat 
works. It takes small perturbations. I think we all need to be 
aware of it. We all need to focus on it and there ought to be 
more discussion on it so we don't take things for granted. 
There are a lot of effects that take time and, to go fix them, 
could take even more time and you could get more negative 
effects. And education and focus I think is the real key issue 
here, not panic.
    Dr. Colwell. Taking a medical perspective one might say 
that we're dealing with what might be termed a ``chronic'' 
effect and often this can be worse than a fulminating or a 
dramatic effect because you don't see it, it creeps up on you, 
and then you have to deal with it in a way that makes it much 
more difficult.
    Chairman Stevens. Don't misunderstand. Change is there and 
it's worrisome but I think that we have time to try and prepare 
if we can get additional information. Mr. Gudes.
    Mr. Gudes. I was just going to say, Mr. Chairman, that we 
work with communities around the country, communities in 
Florida, for example, that are at threat from hurricanes all 
the time and we work with vaporometric models, we work with 
evacuation plans, we work with trying to help these communities 
prepare for severe weather, severe storms. And I think that 
that's a good thing to do in the Arctic as well, especially as 
ice recedes and, given the amount of winds and weather that 
could be coming in, it makes a lot of sense to do that.
    Chairman Stevens. Thank you. Did you have something to say, 
Dr. Leinen?
    Dr. Leinen. Yes. I'd add one perspective and that is that, 
as you heard from the scientists this morning, if we assume 
that things will continue to change at the same pace that 
they're changing now, yes, we have time to prepare and we can 
understand how to project into the future. But one of the 
things that the scientists, especially the geologists, have 
shown us, is that there have been times in the past when 
climate changed over a scale of decades and changed to 
different climate States. That is one of the areas that the 
scientific community is really focused on for the future, 
trying to understand whether the change will be linear or 
whether there are thresholds that would precipitously change 
climate. I think that's one of the aspects that really 
motivates the scientific community to say that this is--that 
looking at the impacts and looking at the processes is 
something that's very, very important for us to do. That 
possibility of abrupt change.
    Chairman Stevens. Yes.
    Mr. Goldin. Mr. Chairman, I think the observational issues 
will be resolved, both on the ground, under the ocean and from 
space. But there's one issue that gives me a very great level 
of concern that I think we need to move at more aggressively to 
get at the problem that was just brought up. Is it a linear 
change or is it going to accelerate and have feedback effects? 
And that is, I do not believe we have the computational 
capability to do what we need to do. And by computational 
capability I don't just mean the speed of a transistor or the 
speed of a computer. It is the integration of the analytical 
models, the climate models, the computational engine and the 
software that powers it. If we take a look at where we are 
today, we are probably somewhere on the order of ten thousand 
to a million times too slow if we use conventional 
computational mechanisms. And there is very little research 
that's going on beyond extrapolating out what we can get out of 
silicone. But we are reaching the financial and, in certain 
respects, the physical limitations of what we can do with 
silicone and the models that go with it using hard 
deterministic computing. If we take a look at feature size, we 
will get a little bit more out of it but you begin to get to 
the physical limits of what you could do with feature size. But 
more than that, fabrication technology is going to cost more 
and more. In the 1970's we could build chip factories to build 
feature sizes on the order of microns for tens of millions of 
dollars. To get a factor of ten improvement to go to tenths of 
microns where we are today chip factories now cost billions of 
dollars. So if we keep saying we're going to extend through 
Moore's Law, which says every year and a half you get a 
doubling of speed, without facing up to some of these physical 
and financial constraints, we have problems.
    Another issue that has yet to be faced. We're talking about 
speeds, not a trillion operations per second, but something on 
the order of a thousand trillion operations per second or, if 
you will, a petaflop may be higher than that. But when you take 
a look at computer speeds like that, you're now talking about 
the time it takes a signal to travel at the speed of light 
which is three-tenths of a micron, so communications within the 
computers are going to approach some physical limits. Yet the 
conventional money is going in, in a very large degree, into 
this type of computing and we're not addressing the broader 
revolutionary computing that we're going to need. This, by the 
way, is not just important for global change which we need, but 
this is also essential to the continued productivity of our 
economy and to everything we do in this Nation. So I contend 
that there is a hole, a vacuum, and not enough focus, and we 
need to bring together the industry; we need to bring together 
academia and the various government experts on this subject. If 
we go and have the government sponsor custom machines, it 
becomes obsolete very fast and, if we look overseas and we have 
envy about these vector machines that are being developed 
overseas and say we have to buy them, that won't solve the 
problem. I submit this is an issue that, if we want to 
accelerate the pace of our understanding that my colleague just 
talked about, we have to address this issue. I am very 
concerned about it and somehow we haven't broken out. And 
that's one of the words of caution I say in response in 
thinking about the question you just asked.
    Chairman Stevens. Do you agree, Dr. Colwell?
    Dr. Colwell. Yes. I feel very strongly that Mr. Goldin has 
highlighted a very, very important area in which we must 
continue to invest in this country. And that is information 
technology research, because it drives the capacity to answer 
these huge questions that are so very important. And what I 
would add is that it's the ability to bring the data bases that 
the different agencies are gathering into a compatible, 
mergeable, analyzable set of data that allows us to determine 
the accuracy, precision and the value of the models and their 
ability to predict. There's no question that information 
technology drives this research. It underpins all of this.
    And I would take it even further. I would say that we need 
to invest in mathematics research because the kind of research 
that's done in fundamental mathematics leads to advances in the 
information technology. So, yes, I agree.
    Chairman Stevens. Who should do that, Dr. Colwell?
    Dr. Colwell. This is research that we have as an 
interagency effort, the Information Technology Research 
Program. The NSF is the lead agency. We have been working 
together and I think what Dan is saying more--faster and more 
of it.
    Chairman Stevens. Being still Chairman of the Committee for 
another week, I'm constrained to say, ``Is the money in the 
budget to do that?''
    Dr. Colwell. Mr. Chairman, I would say that this is an area 
in which we really have to invest and I think it's one that you 
should look at very carefully. I would agree.
    Chairman Stevens. Dr. Groat.
    Dr. Groat. Just to bring what they've both said very 
accurately and appropriately back to Alaska and your question 
about imminent danger or a progressive change and Dr. Leinen's 
linear versus nonlinear, we're sitting right in the laboratory 
where we will see that happen if it's going to happen, in a way 
other than a linear fashion. And some of the critical 
thresholds that may be reached to make it be different from 
that are probably going to be in the Arctic so the kinds of 
observational data meshed with the kinds of computational 
capability that Dr. Goldin and Colwell have described all come 
together with an Alaska example to increase our understanding 
of processes that are occurring. This as well as the need for 
the observational data and the computing power to make that 
meaningful and useful here to the people who have to make the 
decisions about Alaska and its resources.
    Chairman Stevens. Should the Defense Department be part of 
this operation, Dr. Colwell?
    Dr. Colwell. The Office of Naval Research and the NSF 
collaborate very effectively and also DARPA, the Advanced 
Projects Agency, is part of the IT effort. We all work together 
and the answer is, yes, it should be part of the effort.
    Chairman Stevens. Well, I do hope that you'll call a 
meeting when we get back to Washington and see if we can't 
compare notes. I would ask each one of you to review your 
budget and to tell us before we get into the intensive review 
of it, if there is a sufficient amount of money for you to 
collaborate and work together to solve the basic problems, not 
only of dealing with the increased monitoring here in the 
Alaska area but also in terms of this computer problem that 
seems to be pervasive as far as the whole government is 
concerned. I've also heard that from Defense, I'm sure you 
realize, and we have some basic problems about the position of 
our Nation relative to other Nations of the world in terms of 
the speed with which we are apparently able to tackle that 
problem of the next generation of computer systems. But I'm 
sure that there's many others that want to work with you on 
this and I'll be glad to get together a group of Senators that 
will plan to meet with you to try and work on that.
    But I think we should have your review of the budgets for 
your agencies to make certain that you can go forward with what 
I believe is necessary, which is a process now of increasing 
the observation and analysis of the statistics that are 
available with regard to the Arctic, with particular reference, 
obviously, to our State, but to the Arctic region in general 
and to try and get some process of periodic validation of the 
predictions that we've been given by the scientists based on 
the models that have been used so far. I don't think any of 
them are going to feel offended if we try to say we want to 
increase the validity of those by periodically validating the 
predictions that are contained in the models.
    But I do appreciate your coming and I appreciate those of 
you from the panel this morning.
    Scott, do you have another comment?
    Mr. Gudes. Yeah. I just wanted to clarify one thing in my 
statement. I've been trying to find a place to say that. I 
can't believe I did this on NASA TV but, when I was talking 
about NPOESS, I didn't mention--I should have--that NASA's a 
major participant in NPOESS and that one of the reasons why 
we're very positive about being able to get that satellite and 
be able to keep continuity is because NASA's come forward and 
they're a full participant in what's called NPOESS Preparatory 
Program in actually flying those instruments. So it actually is 
a great example of interagency cooperation, Department of 
Defense, NASA, Department of Commerce, NOAA. And I apologize 
for not mentioning that earlier in my statement.
    Chairman Stevens. Thank you very much. Again, I'm grateful 
to all of you for coming. Many of you have come long distances 
and had to change your schedules in order to accommodate the 
timing of this hearing. I do want to thank KUAC Radio and--all 
of us were provided the equipment, both audio and video 
equipment, for the hearing here today--and the University of 
Alaska for allowing us to occupy your space and for your 
support. And I thank all of you that have participated in the 
preparation of these visuals so that they can be more 
understandable to those who might review this record, be it on 
the video or on what we will print. We will print all of the 
information that you've provided to us in statement form. I 
don't think we'll reprint the bulletins you've already put out 
but I would like to make sure we have copies of those bulletins 
as you referred to so I can show them to my colleagues and 
their staffs when we return and show them the record that we 
will assimilate for today. I'm grateful to those who have 
participated in the staffing of this, also. You've had a 
considerable number of staffs accompany each one of you and I 
want to thank them and my own staff, Jon Kamarck and Cheh Kim 
for backing me up in terms of this hearing. But let me just 
make this statement. I had a lot of calls from some of my 
constituents saying, ``What are you doing?'' As a matter of 
fact you heard the question to me about, ``Are you now 
endorsing the whole concept of global warming?'' I've got to 
tell you that I told them I don't endorse or denounce the 
concept of global warming. I'm still in the process of trying 
to understand what's going on. But as I travel around my State, 
I find people such as Caleb who come to me and tell me what is 
happening and, in many instances, happening in a way that they 
feel was not predicted. And they think it is our duty in 
government to be aware of change and to predict what that 
change is going to mean to them in their daily lives and in 
their children's lives in the future as far as their own 
lifestyle. That's particularly true in the area of our 
villages. But even here, in terms of the process of planning 
ahead for our industrial base here, we've heard now, our 
forests--they're going to move further northward and westward 
and it's possible that they're--I assume from what I've heard--
that their growing cycle may be faster. It may be accelerated 
in terms of their growth as this climate change takes place. 
That offers a positive side to this as far as we are concerned 
in terms of future utilization of some of the forest areas such 
as these up here right now. They're not that stable because of 
the permafrost that's under them and they don't have the kind 
of roots and don't grow to the height that trees do in 
southeastern Alaska. There's many changes that may come here 
that I think we ought to know more about, the capability to 
predict those changes and to understand what the changes will 
mean for future generations who live in this part of our 
country.
    But it is a very serious matter as far as I'm concerned and 
I think more--I sort of got on to this a little bit with one of 
the bulletins one of you sent me. I don't know. That's what 
sparked this whole thing, the whole idea to get together and 
come up here and listen to Dr. Akasofu and his scientists who 
are working here and making these predictions and, then, try to 
understand what you all are doing in the areas that they are 
concerned with. But I'm very sincere to tell you that I think 
many of us want to understand this more. And it's not just a 
question of global warming. It is to us a concept to 
understanding the climate change that is taking place, not only 
now, but what might happen in the future and determining if 
there is an area where we who are charged with trying to set 
our legislative policies for the country should take action now 
in matters we have not in the past. So I thank you for your 
presence and for your interest and what you've contributed to 
our understanding of these issues today. And I thank all of you 
who have come to be part of the audience to listen. I'm further 
entranced by the subject as a result of listening to you all 
day so I hope we have more meetings. Dan?
    Mr. Goldin. Mr. Chairman, I'd like to add another point. 
And it occurred to me as you were talking. In the lower 48 most 
Americans live in urban areas and cities and they are isolated 
from their environment. You know, people don't know that fall 
is coming because leaves fall off the trees; they know it's the 
start of the football season. And spring is the start of the 
baseball season. They don't see life coming into being and 
they're isolated in many circumstances from death because, when 
you're out in the wilderness, you see it in the animals. You 
see it in the life. Alaska has a huge change in climate 
compared to the lower 48. As I said, it's a harbinger of what 
might occur in the future. If I remember the numbers correct 
the average increase in global temperature is about a degree F 
and, in Alaska, you're experiencing 4 to 7 or 8 degrees F. The 
other issue in Alaska is--you could see it right away because 
Alaska's very close to the melting point of ice--and seeing the 
phase change is very, very apparent in permafrost, in the 
forests moving, in the sea ice melting.
    And I just want to thank you again for focusing on this 
issue and, hopefully, Americans will get a sense about this. 
And, in the end, we're a democracy and it takes the knowledge 
of the people and making the people in the lower 48 sensitive 
to the changes taking place here I think is a very powerful 
message so that they can understand and, as a Nation, we could 
take proper action.
    Chairman Stevens. Whatever degree we don't understand many 
of these things now--we're still searching for answers--I think 
the one thing that comes through to me, as we discussed before, 
is that the Arctic is going to be more affected by this change 
in the near-term, and maybe even in the far-term, than any 
other part of our society. And, if that is so, then I think we 
ought to intensify the gathering of knowledge and validation of 
predictions in this area because, if we do, perhaps then we can 
understand even greater what's going to be coming as far as the 
part of our country that's south of us. Maybe that's wrong but 
I think we have to initiate some programs that intensify the 
search for statistics, for knowledge, in the region that we 
expect to have the most impact in the near future.
    If you disagree, let me know, but that's my current 
feeling.
    And I thank you all for coming. Appreciate you being here. 
Thank you very much for your assistance. And we'll check with 
you about the way we put your statements in the record, and the 
scientists the same way. Thank you very much.
    [Clerk's Note.--The following written testimony was 
submitted to the subcommittee for inclusion in the record.]

   Prepared Statement of Dr. Elizabeth C. Weatherhead, University of 
                          Colorado at Boulder

                  ULTRAVIOLET RADIATION IN THE ARCTIC

    Ultraviolet (UV) radiation levels in the Arctic are generally 
considered by those who don't live in the Arctic to be quite low. The 
argument is simple: Very low sun angles, combined with traditionally 
high ozone levels mean that the UV in the Arctic should be low. In 
fact, we have measurements that support this view. Figure 1 shows 
noontime UV levels from four U.S. sites as measured by the 
Environmental Protection Agency's UV monitoring network. The data show 
strong seasonal cycles with UV in the Arctic never getting as high as 
UV in, for instance, Gaithersburg, MD. However, this understanding of 
low UV levels in the Arctic disagrees with the experiences of those who 
live in the Arctic. Figure 2 shows goggles which have been used for 
millennia by Arctic peoples to protect against snowblindness--a common 
Arctic eye problem that is due completely to ultraviolet radiation. The 
Arctic, in fact, is the only place on Earth where native inhabitants 
have had to develop ocular protection from ultraviolet radiation, again 
indicating that UV levels in the Arctic are not necessarily low. There 
are two important reasons for the disjoint between the idea that UV 
levels in the Arctic are low and the fact that UV effects in the Arctic 
are readily observable. First, daylight can be as long as 24 four hours 
in the Arctic, resulting in daily doses of UV to be much larger in the 
Arctic during times of the year when biologically production is high 
and humans are most likely to be outdoors. Figure 3 shows daytime 
integrated UV levels from the same four U.S. sites as measured by the 
EPA's UV monitoring network. Once the long days are taken into account, 
it is clear that the UV levels in the Arctic can easily be of the same 
order of magnitude as UV levels found elsewhere in this country. The 
second factor which needs to be taken into account when considering the 
effects of UV radiation in the Arctic is that while these measurements 
represent UV reaching a flat horizontal surface, this amount does not 
represent the exposure to our eyes, exposed skin, shrubs and most 
biological receptors. If instead we consider UV to, for instance, a 
vertical surface, the often snow-covered areas found in the Arctic 
magnify several times the amount of UV radiation our eyes or skin would 
receive. When we take into account these two factors: Long days and 
highly reflective snow surfaces increasing UV to many biological 
receptors, we come to understand why UV radiation has been a natural 
stressor to the ecosystems and people of the Arctic.

                          OZONE IN THE ARCTIC

    In the past few decades ozone levels have changed throughout much 
of the world. While many are familiar with the depletion that has taken 
place over Antarctica, fewer are aware that ozone depletion has been 
severe over the Arctic and sub-Arctic. In fact, ozone depletion in the 
Arctic is second only to the depletion observed in the Antarctic. These 
losses are supported by both scientific measurements and observations 
of those who live in the Arctic. Figures 4 and 5, from the National 
Aeronautics and Space Administration, show how ozone levels between 60 
and 90 degrees N have changed over the past 30 years. We can see that 
there has been a considerable loss of ozone in the past decade, with 
large year-to-year variability. A number of scientific activities have 
been devoted to understanding ozone loss in the Arctic and the causes 
are understood to be fundamentally the same processes that deplete 
ozone in Antarctica and the rest of the world. However, because Arctic 
meteorology, especially the temperature and movements of air, is 
considerably different than in Antarctica, the ozone loss in the Arctic 
exhibits fundamentally different characteristics from the Antarctic 
ozone loss. To begin with, Arctic losses are less predictable from year 
to year than in the Antarctic. Ozone loss in the Arctic may also be 
strongly affected by anthropogenic climate change, which can cool 
temperatures in the vicinity of the ozone layer and increase ozone 
loss. State-of-the-art modeling efforts indicate further ozone 
depletion in the coming two decades for the Arctic; however these 
predictions are highly uncertain at this time.

                        UV LEVELS IN THE ARCTIC

    UV levels have been measured in the Arctic for only the past 10 to 
15 years. These measurements have been extremely useful for showing how 
ozone, as well as a variety of other factors, including clouds, sea ice 
and snow cover, can affect ultraviolet radiation. The multiple factors 
that influence UV imply that the relationship between ozone and UV is 
not, in practice, a direct relationship. In addition, measurements show 
that considerable amounts of UV penetrate through water, ice and snow. 
Quality and extent of sea ice, clouds and surface reflectivity have a 
large impact. Changes that may result from anthropogenic climate 
change, including changes to sea ice, snow cover and clouds, will have 
a direct influence on UV levels received in the Arctic. Thus, already 
highly uncertain predictions for Arctic ozone are compounded by the 
uncertainty in what we expect due to changes in clouds, sea ice and 
snow cover, making predictions for future UV levels extremely 
uncertain.
    Changes in ozone levels in the Arctic have resulted in higher UV 
levels on clear sky days. Not only have measurements confirmed the 
changes in UV levels in the Arctic, but reports from native peoples 
have been documented, at least for the Inuit in the Eastern Canadian 
Arctic. These people report that in the last 5 years or so, they have 
been experiencing sunburns, something that had previously been very 
rare. Older hunters who have spent long periods of time out on the sea 
ice in 24-hour sunshine rarely had their skin burn in previous years. 
From interviews and conversations, it is evident that the sunburns are 
mostly a new experience, or that the burns are now more severe than the 
Inuit had known previously. This native knowledge provides evidence of 
increased UV impacts in the Arctic under a depleting ozone layer and 
ties our relatively recent measurements of UV into an oral historical 
record that spans at least several generations.

                          UV EFFECTS--OVERVIEW

    UV is known to affect most biological systems. Studies confirm that 
UV can affect human skin, eyes and immune systems. UV has a direct 
effect on a variety of species including the eyes of virtually all 
animals, fish--particularly in the egg and larval stages--and both 
plant growth and quality. These effects, while identified for a number 
of species, have not been well studied. Many species have not been 
examined for the impacts of UV. Ecosystem effects can be much more 
complicated, and less intuitive, than what we can learn from studies of 
individual species in controlled laboratory settings. UV can also have 
secondary impacts, for instance by making species more sensitive to 
other stressors, particularly pollutants.

                           UV EFFECTS--HUMANS

    UV exposure has well known effects on humans, including sunburn, 
snowblindness and immune suppression. UV radiation is also related to 
long-term health problems such as cataracts, skin cancer and other 
skin-related diseases. These health issues can cost taxpayers billions 
of dollars each year through Medicare and other programs.

                          UV EFFECTS--SPECIES

    Research studies have shown that phytoplankton and other organisms, 
including those at the base of the food web, can be particularly 
susceptible to UV. Changes in the populations of these species could 
have wide impacts upward through marine ecosystems. Many fish species, 
including cod, herring, pollock, and salmonids, are also UV-sensitive, 
resulting in the death of many of the larvae before they are able to 
reach maturity. These losses impact not only the diversity of the 
marine ecosystem, but could also be very detrimental to the fishing 
industry, particularly in light of the crises that have occurred in 
salmon fisheries in recent years.
    Terrestrial plants and animals are also directly affected by 
ultraviolet radiation. Leaf thickness, shoot growth and chemical 
compositions of plants are all affected by changes in UV radiation. 
Long-lived animals, including dogs, can develop cataracts under the 
same mechanisms as humans do.

                         UV EFFECTS--ECOSYSTEMS

    UV does not affect all species equally. However, the effects of UV 
on one species can have immediate effects on a number of other species. 
The complex interactions and feedbacks within any natural system make 
extrapolation of laboratory studies on individual species difficult. At 
times the results can be counter-intuitive. For instance, while UV 
kills off algae in a laboratory setting, UV causes the same algae to 
flourish in a natural setting, because it has an even more harmful 
effect on the larvae which eat the algae in a natural setting. The 
effects of increased UV across species affects terrestrial as well as 
aquatic systems. There is recent evidence that increases in UV 
radiation increases a plant's likelihood to produce lignins and a 
number of ill-tasting chemicals. This in turn makes the plants less 
likely to be digested or even eaten by the animals which feed on them. 
Therefore, while the direct effects of UV may be minimal on grazing 
animals, the indirect effects from changes in the quality, not 
quantity, of their food supply may be significant.

                      UV EFFECTS--COMBINED EFFECTS

    Environmental stressors, including pollutants, climate change and 
water availability can further tax a plant or animal's survival by 
combining nonlinearly with UV radiation. These combined effects can 
threaten organisms and ecosystems, and may be much more severe than the 
individual impacts. For instance, recent research has explored the role 
of UV radiation in enhancing the toxicity of certain chemical 
compounds. The combination of UV light and chemical molecules, 
particularly those associated with oil spills or petroleum 
contamination, can yield an effect known as photoenhanced toxicity. 
This effect has been shown to seriously injure or kill species that 
would typically be less harmed in the presence of the chemicals alone. 
Pollutants and other stressors are expected to remain significant, or 
as is the case for climate change, to increase in the Arctic in the 
coming years.

                                SUMMARY

    UV has long been a natural stress in the Arctic. Arctic ozone 
levels have decreased significantly in the last 10 years with large 
year-to-year variability that is difficult to predict. Future ozone and 
UV levels are highly uncertain and difficult to predict. Both human and 
ecosystem health effects can be costly, not only for the individual or 
species, but also in terms of economic costs to Medicare and to 
fisheries and other industries. Medicare, for instance, pays billions 
of dollars every year for cataract surgery, which is the number one 
therapeutic procedure performed on adults over age 65. The Alaskan 
Arctic is currently home to approximately half a million people. Much 
can still be learned about the effects of UV on these people and on the 
plants, mammals, and fish they harvest for food. Outstanding questions 
still remain, and the threat of increasing UV to the peoples and 
ecosystems of the Arctic is a significant concern.
    A number of international organizations, including the 
International Arctic Science Committee (IASC), the Arctic Monitoring 
and Assessment Program (AMAP) and Conservation of Arctic Flora and 
Fauna (CAFF) have cited the uncertainties with respect to future UV 
levels and their effects as being a crucial area requiring immediate 
investigation. The U.S. agencies are poised to address these 
uncertainties in a coordinate manner through the Interagency Arctic 
Research Policy Committee's Study of Environmental Arctic Change 
(SEARCH).

                         Conclusion of hearing

    Chairman Stevens. Thank all of you very much for your 
participation. The committee stands recessed.
    [Whereupon, at 4 p.m., Tuesday, May 29, the hearing was 
concluded, and the committee was recessed, to reconvene subject 
to the call of the Chair.]


</pre></body></html>
